<html>
<title> - DEPARTMENT OF HOMELAND SECURITY APPROPRIATIONS FOR 2015</title>
<body><pre>[House Hearing, 113 Congress]
[From the U.S. Government Publishing Office]




        DEPARTMENT OF HOMELAND SECURITY APPROPRIATIONS FOR 2015

_______________________________________________________________________

                                HEARINGS

                                BEFORE A

                           SUBCOMMITTEE OF THE

                       COMMITTEE ON APPROPRIATIONS

                         HOUSE OF REPRESENTATIVES

                     ONE HUNDRED THIRTEENTH CONGRESS
                             SECOND SESSION
                                ________

                    SUBCOMMITTEE ON HOMELAND SECURITY

                     JOHN R. CARTER, Texas, Chairman

 JOHN ABNEY CULBERSON, Texas          DAVID E. PRICE, North Carolina
 RODNEY P. FRELINGHUYSEN, New Jersey  LUCILLE ROYBAL-ALLARD, California
 TOM LATHAM, Iowa                     HENRY CUELLAR, Texas
 CHARLES W. DENT, Pennsylvania        WILLIAM L. OWENS, New York
 CHARLES J. FLEISCHMANN, Tennessee    
 JACK KINGSTON, Georgia             

 NOTE: Under Committee Rules, Mr. Rogers, as Chairman of the Full 
Committee, and Mrs. Lowey, as Ranking Minority Member of the Full 
Committee, are authorized to sit as Members of all Subcommittees.

              Ben Nicholson, Kris Mallard, Cornell Teague,
                     Valerie Baldwin, and Anne Wake,

                            Staff Assistants
                                ________

                                 PART 2

                     DEPARTMENT OF HOMELAND SECURITY
                                                                   Page
 Department of Homeland Security..................................    1
 U.S. Coast Guard.................................................  199
 U.S. Immigration and Customs Enforcement.........................  315



[GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]

                                ________

         Printed for the use of the Committee on Appropriations
                                ________










        DEPARTMENT OF HOMELAND SECURITY APPROPRIATIONS FOR 2015

_______________________________________________________________________

                                HEARINGS

                                BEFORE A

                           SUBCOMMITTEE OF THE

                       COMMITTEE ON APPROPRIATIONS

                         HOUSE OF REPRESENTATIVES

                     ONE HUNDRED THIRTEENTH CONGRESS
                             SECOND SESSION
                                ________
                    SUBCOMMITTEE ON HOMELAND SECURITY
                     JOHN R. CARTER, Texas, Chairman

 JOHN ABNEY CULBERSON, Texas         DAVID E. PRICE, North Carolina
 RODNEY P. FRELINGHUYSEN, New Jersey LUCILLE ROYBAL-ALLARD, California
 TOM LATHAM, Iowa                    HENRY CUELLAR, Texas
 CHARLES W. DENT, Pennsylvania       WILLIAM L. OWENS, New York
 CHARLES J. FLEISCHMANN, Tennessee   
 JACK KINGSTON, Georgia             
                                    
 NOTE: Under Committee Rules, Mr. Rogers, as Chairman of the Full 
Committee, and Mrs. Lowey, as Ranking Minority Member of the Full 
Committee, are authorized to sit as Members of all Subcommittees.
              Ben Nicholson, Kris Mallard, Cornell Teague,
                     Valerie Baldwin, and Anne Wake,
                            Staff Assistants
                                ________

                                 PART 2

                     DEPARTMENT OF HOMELAND SECURITY
                                                                   Page
 Department of Homeland Security..................................    1
 U.S. Coast Guard.................................................  199
 U.S. Immigration and Customs Enforcement.........................  315

                                   S

                                ________

         Printed for the use of the Committee on Appropriations
                                ________

                     U.S. GOVERNMENT PRINTING OFFICE

 89-668                     WASHINGTON : 2014















                                  COMMITTEE ON APPROPRIATIONS

                    HAROLD ROGERS, Kentucky, Chairman

 FRANK R. WOLF, Virginia              NITA M. LOWEY, New York
 JACK KINGSTON, Georgia               MARCY KAPTUR, Ohio
 RODNEY P. FRELINGHUYSEN, New Jersey  PETER J. VISCLOSKY, Indiana
 TOM LATHAM, Iowa                     JOSE E. SERRANO, New York
 ROBERT B. ADERHOLT, Alabama          ROSA L. DeLAURO, Connecticut
 KAY GRANGER, Texas                   JAMES P. MORAN, Virginia
 MICHAEL K. SIMPSON, Idaho            ED PASTOR, Arizona
 JOHN ABNEY CULBERSON, Texas          DAVID E. PRICE, North Carolina
 ANDER CRENSHAW, Florida              LUCILLE ROYBAL-ALLARD, California
 JOHN R. CARTER, Texas                SAM FARR, California
 KEN CALVERT, California              CHAKA FATTAH, Pennsylvania
 TOM COLE, Oklahoma                   SANFORD D. BISHOP, Jr., Georgia
 MARIO DIAZ-BALART, Florida           BARBARA LEE, California
 CHARLES W. DENT, Pennsylvania        ADAM B. SCHIFF, California
 TOM GRAVES, Georgia                  MICHAEL M. HONDA, California
 KEVIN YODER, Kansas                  BETTY McCOLLUM, Minnesota
 STEVE WOMACK, Arkansas               TIM RYAN, Ohio
 ALAN NUNNELEE, Mississippi           DEBBIE WASSERMAN SCHULTZ, Florida
 JEFF FORTENBERRY, Nebraska           HENRY CUELLAR, Texas
 THOMAS J. ROONEY, Florida            CHELLIE PINGREE, Maine
 CHARLES J. FLEISCHMANN, Tennessee    MIKE QUIGLEY, Illinois
 JAIME HERRERA BEUTLER, Washington    WILLIAM L. OWENS, New York
 DAVID P. JOYCE, Ohio                 
 DAVID G. VALADAO, California         
 ANDY HARRIS, Maryland                
 MARTHA ROBY, Alabama                 
 MARK E. AMODEI, Nevada               
 CHRIS STEWART, Utah                


               William E. Smith, Clerk and Staff Director

                                  (ii)






 
        DEPARTMENT OF HOMELAND SECURITY APPROPRIATIONS FOR 2015


                                           Tuesday, March 11, 2014.

             UNITED STATES DEPARTMENT OF HOMELAND SECURITY

                                WITNESS

HON. JEH JOHNSON, SECRETARY

                     Opening Statement: Mr. Carter

    Mr. Carter. Well, good afternoon. I think we are going to 
start now. Everybody ready? We are going to have some folks who 
are going to have to move out around 5 o'clock for a hearing on 
the Ukraine. But we are ready to start.
    Today we have and welcome Secretary Johnson for what marks 
his very first appearance before this Subcommittee.
    Mr. Secretary, thank you for being here. We are looking 
forward to your testimony, and we are going to talk about the 
President's budget request for Homeland Security for the fiscal 
year 2015.
    Mr. Secretary, budgets are policy documents, as you well 
know--documents which reflect the administration's priorities. 
So when we look at your budget proposal for fiscal year 2015, 
what jumps off the page is a blatant disregard for critical 
security and law enforcement functions and priorities that 
truly defy logic.
    Either this Administration does not see homeland security 
and law enforcement as important or it is trying to game 
Congress and hope we will bail out unjustified and truly 
harmful cuts to essential frontline operations. Either way, as 
Chairman of this Subcommittee, I am obligated to call you on it 
and not to tolerate it. We all know a political election-year 
budget proposal when we see one, and I am afraid that that is 
what we have here today.
    Specifically, your budget proposes a 12-percent cut in 
CBP's Air and Marine operation, which includes a cut of more 
than 30 flight hours. It proposes a cut of 5 percent to ICE, 
which includes an arbitrary $30-million cut in investigations 
and a decrease of nearly 3,500 detention beds, or a more than 
10-percent reduction in the detention-bed space; a cut of more 
than 4 percent to the Coast Guard, including a cut of nearly 30 
percent to critical acquisitions and a cut of more than 17 
percent to fixed-wing flight hours.
    So what we have here is a budget proposal that, if ever 
enacted, would result in more drugs on our streets, more 
illegal border incursions, more mariners in distress, more 
transnational crime, including more instances of human 
smuggling and trafficking, as well as child exploitation--an 
outcome that is simply unacceptable.
    Then this budget proposes to actually increase the spending 
of the management and headquarters by nearly 3 percent. To make 
matters worse, the budget proposes about a billion dollars in 
new fees that are not even authorized. So your budget assumes 
enormous offsets that simply do not exist.
    The budget then proposes the creation of a new and costly 
political program that does not adhere to the Ryan-Murray plan 
enacted into law just months ago and that has no plan and no 
justification. This so-called Opportunity, Growth, and Security 
Initiative is little more than a political wishlist that has 
been presented to Congress and to this Committee in an 
amateurish and wholly inadequate way.
    Finally, your budget simply does not comply with the law, 
as it is missing some 20 reports and expenditure plans required 
to be submitted with the budget. This is an argument that we 
have had especially with Homeland for years. This is how we are 
able to use facts to understand your budget. But the failure to 
provide these 20-some-odd reports is inexcusable. Frankly, it 
is offensive. It is late and incomplete and does not comply 
with the law nor meet the Subcommittee's standards for budget 
submittals.
    Mr. Secretary, this Subcommittee deals in matters of 
reality, meaning we enforce the law as it is written, not how 
we would like it to be, and we only deal with laws and offsets 
that are real, not some false or fictitious fee.
    Now, that is why the Subcommittee has to adhere to three 
core principles. We have done this since Chairman Rogers was in 
charge, and it has been carried out for 11 years: one, 
unwavering support to our frontline personnel and essential 
security operations; two, clear alignment of funding to 
results; and, three, true fiscal discipline, meaning we provide 
every well-justified dollar needed for homeland security and 
not one penny more. This is a commonsense policy.
    Mr. Secretary, we know you are new. I know you inherited an 
ill-conceived budget, so we will work with you in the coming 
months. Lord knows we can only approve the so-called proposal, 
and I give you my word that I will work with you to do that.
    Mr. Secretary, I think it is clear we have a lot to cover 
here today. Before I recognize you for your testimony, let me 
turn to my friend and the distinguished Ranking Member and 
former chairman, Mr. Price, for his remarks.
    [The information follows:]

[GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]


                      Opening Statement: Mr. Price

    Mr. Price. Thank you, Mr. Chairman.
    Good afternoon, Mr. Secretary, and welcome to you. This is 
your first appearance before our subcommittee, your first 
opportunity to answer questions on the fiscal year 2015 budget 
request from the President.
    I hope you will find our hearings to be both constructive 
and beneficial to your mission as the Secretary. This 
subcommittee is inclined to be candid and probing, but I hope 
our questions will be fair and reasonable. You have a difficult 
job, so even when there are disagreements, we still appreciate 
and respect your service to the country and look forward to 
working together.
    You have inherited a department that is now more than 10 
years old. It has had its share of growing pains, but it has 
made significant progress in many areas under the leadership of 
each of your predecessors. I know your intent is to build on 
and hasten that progress.
    One area that is in dire need of progress is the morale of 
DHS personnel, which ranks as the lowest among Federal 
agencies. I know from our conversations that that is a priority 
for you, and I look forward to hearing more about your strategy 
not only to address it but to continue to build the Department 
into ``one DHS.''
    Part of the morale problem, I know, has to do with the 
extended vacancies across multiple DHS leadership offices. Some 
of these vacancies can be explained by delays in the Senate 
confirmation process, although we have seen some progress on 
that front, including three important confirmations last week. 
But for many, the Department or the administration was slow to 
act. So I hope you can give us a feel for when we might see all 
of these vacancies filled. Beyond employee morale, you need 
long-term leaders in charge of all your departmental components 
to help you do your job effectively.
    I have been particularly impressed with the strides made 
across the Department in using risk-based strategies to 
prioritize the use of limited resources. From risk-based 
screening by TSA and prioritizing criminal alien deportations 
by ICE to improved targeting of passengers and cargo by CBP, 
the Department is taking a more strategic approach to 
accomplishing its many missions. That approach is especially 
needed now, as we continue to live in an era of fiscal 
restraint.
    The fiscal 2015 net discretionary budget request for the 
Department is $38.2 billion, not including an additional $6.4 
billion in disaster-relief funding that does not count toward 
the discretionary cap. This total is $1.1 billion below the 
current-year funding level.
    Of course, DHS isn't the only department being asked to do 
more with less. In fact, other departments are far worse off.
    While I am hopeful that we can move forward in a bipartisan 
manner based on the previously agreed-upon top-line fiscal 2015 
numbers, this agreement will still leave massive shortfalls 
across our Federal budget in funding for health and research 
grants, infrastructure investments, veteran benefits, and much 
beyond that.
    Now, some are going to be quick to criticize the Homeland 
Security budget request, but we need to realize it is part of a 
bigger picture--a bigger picture that includes in the recent 
past government shutdowns, destructive sequestration cuts, 
unwise repeated cuts in critical domestic investments. So this 
history, unfortunately, has left the administration with 
severely limited options.
    There is perhaps no greater challenge for the Department 
than border and immigration enforcement. This is not only 
because of the fact that our immigration system is 
fundamentally flawed but also because the politics surrounding 
immigration are so contentious, plagued, I am afraid, by 
exaggerations of both fact and rhetoric as well as legitimate 
policy differences.
    My experience on this subcommittee ever since its creation 
has convinced me of the futility of approaching immigration as 
simply an enforcement issue or simply throwing money at the 
border or any other aspect of the problem. We must have 
comprehensive reform. In fact, we should have had it long ago. 
And if we can accomplish reform this year, Mr. Secretary, that 
would go farther than anything else I can think of to make your 
job more manageable and your department more successful.
    One of the things that the subcommittee would benefit 
greatly from and that would help clear the air around the 
overall immigration debate would be more comprehensive and 
timely data about how the Department is managing its border and 
immigration enforcement responsibilities. How many individuals 
are being apprehended? Where are they being apprehended? How do 
they fit into the Department's enforcement priorities? How many 
meet ICE's statutory or policy criteria for detention? How many 
are put on alternatives detention or some other nondetention 
form of supervision? And which enforcement priority levels do 
these individuals fit into?
    We need to have more confidence that our detention 
resources are used for those who are threats to the community 
or are serious flight risks. And we need to know that our ATD 
programs, which are less expensive, work effectively as a 
detention alternative.
    Better information may not be the way to reach consensus on 
every question of border and immigration enforcement policy, 
but it would help us. It would elevate the discussion to one 
based on empirical evidence and agreed-upon data.
    With regard to immigration enforcement policy, there has 
been a significant debate about ICE's use of prosecutorial 
discretion, but the use of law enforcement discretion has a 
long and credible history. In fact, as you well know yourself, 
Mr. Secretary, from your own experience, every prosecuting 
office in the country exercises discretion on which cases to 
pursue and to what extent. In fact, any prosecutor not 
exercising discretion is derelict in his or her duty to the 
taxpayers.
    So we should have a discussion about the priorities the 
Department has established for immigration enforcement, but I 
hope we can all agree that it simply must prioritize. A 
convicted felon, by definition, has committed a more serious 
crime than a misdemeanor offender or a deferred-action-eligible 
individual and therefore poses a bigger risk to the public. We 
simply don't have the resources to do it all.
    Now, on the specific budget proposal, there are some 
recycled proposals that I was hoping we wouldn't see again. I 
want to particularly register my concerns with the proposed 
cuts to FEMA grants and to the Coast Guard's acquisition 
budget. Both of those accounts represent important investments 
in the Nation's future homeland security capabilities that we 
can't shortchange.
    I am also wary of the proposed transfer of the funding and 
responsibility for the Emergency Food and Shelter Program from 
FEMA to the Department of Housing and Urban Development. That 
idea has been proposed and rejected in the past because the 
stakeholder community simply didn't support the change.
    Mr. Secretary, I look forward to your testimony, our 
discussion today, look forward to continuing to work with you 
this year in support of your department's important missions.
    Thank you, Mr. Chairman.
    Mr. Carter. Thank you, Mr. Price.
    [The information follows:]

[GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]


    Mr. Carter. Mr. Secretary, your entire written statement 
will be entered into the record. You are now recognized for 5 
minutes to summarize your testimony.
    Secretary Johnson. Thank you, Mr. Chairman----
    Mr. Carter. I am sorry, I should have asked my Chairman if 
he had an opening statement.

                     Opening Statement: Mr. Rogers

    Please excuse me, Hal.
    Mr. Rogers. Thank you, Mr. Chairman.
    Thank you, Mr. Secretary, for being here on your first 
appearance before the committee.
    In the past several years, Ranking Member Lowey and I, 
along with our counterparts across the Capitol, have worked 
hand-in-hand to restore regular order to this committee, 
thoughtful oversight, and austerity. The omnibus bill for 
fiscal 2014, which we agreed upon in January, is truly 
emblematic of that commitment, making responsible choices to 
right-size our Federal Government and target precious tax 
dollars where they are needed the most. That bill was a true 
product of coming together, reflecting our shared desire to 
roll up our sleeves, cast partisanship to the wayside, and do 
the critical work expected of this storied committee.
    All of us are committed to moving forward in a similar 
fashion in fiscal year 2015, with honest and fair negotiations. 
That is why I am disappointed that we are here today to review 
a budget request that, as Chairman Carter has pointed out, is 
overtly partisan and political at its core.
    The protection of our homeland is a responsibility of 
paramount importance. And I fear this budget request undermines 
that duty with the same budget gimmicks, unauthorized 
legislative proposals, and cuts to frontline security 
operations that we have sadly come to expect under this 
administration. Mr. Secretary, we have to do better.
    Once again, the Department has proposed to significantly 
reduce Coast Guard and ICE that supports the men and women who 
bravely defend our homeland on the front lines. In particular, 
the budget would decrease custody operations by $202 million 
and domestic investigations by $27.7 million, in addition to 
reducing the mandated detention level by over 10 percent--
another strong signal that this administration is not 
interested in enforcing the immigration laws on the books in 
this country.
    This budget cuts over 500 military and civilian personnel 
at the Coast Guard--500. When the Attorney General is 
describing the uptick in heroin abuse in our country, he said 
it is an urgent public health crisis--and I am using his 
words--I simply don't see the wisdom in reducing one of our 
first and most important front lines of defense against heroin 
drug trafficking.
    Once again, the Department is budgeted with imaginary 
money, relying on $1 billion in unauthorized increases to 
multiple CPB user fees and to TSA's aviation passenger fees to 
support critical security measures.
    Once again, the Department has proposed a new FEMA grant 
program that has not been formally submitted to or vetted by 
the relevant authorizing committees of the Congress.
    Once again, the Department has failed to submit a number of 
plans and reports which are essential to help this committee do 
its work and do its work well. These are not merely suggestions 
or requests; they are required by law.
    I could go on, Mr. Secretary, and I may later. The bottom 
line is this: We have to do better. Your testimony today I hope 
will allay my concerns as we work together in protecting our 
homeland.
    And I thank the chairman.
    Mr. Carter. Thank you, Mr. Chairman. I am sorry about that.
    [The information follows:]

[GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]


    Mr. Carter. Ms. Lowey.

                     Opening Statement: Mrs. Lowey

    Mrs. Lowey. Thank you, Mr. Chairman.
    And welcome, Mr. Secretary.
    I would like to thank Chairman Rogers, Judge Carter, 
Ranking Member Price for their leadership.
    This subcommittee values our role in protecting our 
homeland, as well as the bipartisan working relationship we 
foster to meet that goal.
    Mr. Secretary, as you appear before the House 
Appropriations Committee for the first time, I welcome you.
    Last year, there were acts of terror in Boston, growing 
cyber attacks on America's businesses, and drug cartel violence 
along the U.S.-Mexican border. That has resulted in the murder 
of 60,000 people since 2006 and turned some border towns into a 
war zone.
    These challenges alone certainly make an extremely 
difficult job, and yet you oversee 16 different agencies and 
offices, which is no small feat. I wish you luck, stand ready 
to work with you to provide our first responders, Border Patrol 
officers, special agents, and every Federal law enforcement 
officer with the resources to keep our country safe.
    The President's budget yet again proposes to consolidate 
FEMA's State and local grants into a large pot without 
authorization from Congress and expressly against the wishes of 
this committee. Such a consolidation could dilute crucial 
antiterrorism funds from areas most at risk of attacks and 
leave transit and port security in the Nation's most densely 
populated areas without the ability to prevent and respond to 
acts of terror. In addition, the Department's assumption that 
the job is complete in New York City is premature, and a 
reduction in securing the city's funding could leave New York 
City without the radiological and nuclear detection 
capabilities it needs.
    With that said, I commend the President for his efforts to 
put Americans back to work while making investments that will 
support our infrastructure. The Opportunity, Growth, and 
Security Initiative, if implemented, would provide $400 million 
for pre-hazard-mitigation assistance. With natural disasters 
becoming more frequent, severe, and costly, these funds would 
be a worthy investment in our resiliency and infrastructure.
    Lastly, every day the best and brightest come to America to 
study and work and then, due to our broken immigration system, 
return home to compete against us in a global market. This 
makes no sense. Businesses, security professionals, and labor 
all agree that every day without comprehensive immigration 
reform is a missed opportunity. I hope that the House will take 
up H.R. 15, nearly identical to the Senate bill that passed 
with bipartisan support, and that when you come before us next 
year we will discuss how the President's fiscal year 2016 
budget meets the implementation needs of this important 
legislation.
    Thank you, Mr. Secretary.
    [The information follows:]

[GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]


    
    Mr. Carter. Okay. I am sorry for the mix-up.
    You are now recognized, Secretary Johnson, for your 
statement.

                  Opening Statement: Secretary Johnson

    Secretary Johnson. Thank you, Mr. Chairman; thank you, Mr. 
Chairman; thank you, Ranking Member Price, Ranking Member 
Lowey, who I have known for some years.
    I want to begin by thanking the subcommittee--you have my 
prepared statement for the record. I will read an abbreviated 
version of it.
    I would like to thank the subcommittee for the strong 
support you have provided to the Department for the past 11 
years. I look forward to continuing to work with you in the 
coming year to protect the homeland and the American people.
    I am pleased to appear before the subcommittee to present 
the President's fiscal year 2015 budget request for the 
Department. The 2015 budget request builds on our 
accomplishments over the past 11 years while providing 
essential support to national and economic security.
    The basic missions of DHS are and should be: preventing 
terrorism and enhancing security, securing and managing our 
borders, enforcing and administering our immigration laws, 
safeguarding and securing cyberspace, and strengthening 
national preparedness and resilience. The President's fiscal 
year 2015 budget request provides the resources necessary, in 
our judgment, to maintain and strengthen our efforts in each of 
these critical mission areas.
    In all, the fiscal year 2015 budget requests $60.9 billion 
in total budget authority, $49 billion in gross discretionary 
funding, and $38.2 billion in net discretionary funding.
    Of particular note, the President's budget request funds 
production of the National Security Cutter 8 as part of the 
recapitalization of the Coast Guard and requests $300 million 
to complete the funding necessary to construct the National 
Bio- and Agro-Defense Facility, a state-of-the-art bio-
containment facility central to the protection of the Nation's 
food supply and security.
    The fiscal year 2015 budget will provide $10.2 billion to 
support disaster resiliency, primarily through the grants 
program, that are administered by FEMA and the Disaster Relief 
Fund.
    I would like to also mention something about vacancies. 
There has been a lot of discussion of vacancies within the 
senior levels of the Department. I am pleased that the Senate 
last week acted on the confirmations of Suzanne Spaulding, Gil 
Kerlikowske to lead CBP, and John Roth to be our new Inspector 
General. We have three more who are awaiting Senate 
confirmation now.
    And I would like to report that with respect to the other 
senior leaders, I have in mind at least one individual who we 
are recruiting at every one of these levels. This is an active 
part of my responsibility as Secretary, to fill these 
leadership positions. I spend virtually some part of every day 
working on this important mandate.
    As Secretary, I am also mindful of the environment in which 
we pursue each of our important missions. The days are over 
when those of us in national and homeland security can expect 
more and more to be added each year to our top-line budgets. I 
therefore believe, as I know many members of this committee 
believe, I am obligated to identify and eliminate 
inefficiencies, waste, and unnecessary duplication of resources 
across DHS's large and decentralized bureaucracy while pursuing 
important missions such as the recapitalization of the aging 
Coast Guard fleet.
    We reached a major milestone last year when the Department 
achieved its first unqualified or clean audit opinion on its 
financial reporting. These are important steps in maturing the 
Department's management and oversight functions.
    But there is more to do. As part of the agenda, we are 
tackling our budget structure and process. DHS currently has 76 
appropriations over 120 projects, programs, or activities. And 
there are significant structural inconsistencies across 
components, making mission-based budget planning and budget 
execution analysis difficult.
    We are making changes, as I have discussed with members of 
this committee, to our budget process to better focus our 
efforts on a mission and cross-component view. I, along with 
the Deputy Secretary, am personally engaged to provide the 
necessary leadership and direction to this process.
    As part of a management reform agenda, I am also doing a 
top-to-bottom review of our acquisition governance process, 
from how we develop our strategies to the development of our 
requirements, to how we sustain our platforms, equipment, and 
people, and everything in between.
    Part of this will include the thoughtful but necessary 
consolidation of functions to provide the Department with the 
proper oversight management and responsibilities to carry out 
this task. This will allow DHS to more fully ensure the 
solutions we pursue are responsive to our strategy, 
technologically mature, and cost-effective. I look forward to 
sharing our ideas and strategies with this subcommittee as we 
move forward in this area.
    The last thing I would like to comment on is a comment was 
made that I am new. The week before last, in my testimony 
before the House Homeland Committee, a member remarked, we know 
you inherited this, but when you inherit something, you own it. 
And so I accept responsibility for the Department and its 
budget submission. Someone has to be responsible, and that is 
me.
    Thank you very much, Mr. Chairman. I look forward to your 
questions.
    Mr. Carter. Thank you.
    [The information follows:]

[GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]


    
                 IMMIGRATION: CATCH-AND-RELEASE POLICY

    Mr. Carter. And I appreciate that comment.
    You know, in the past 4 months, CBP has apprehended 66,928 
illegal entrants into the Rio Grande Valley sector of our 
border. Rio Grande Valley is in Texas; we call it ``the 
Valley.'' Policies, procedures, and adjudication backlog 
resulted in many of these illegal immigrants staying in the 
United States for an indeterminant period of time, which is 
leading to a de facto catch-and-release policy.
    Mr. Secretary, in a yes-or-no answer, first, has the 
Administration regressed to the flawed catch-and-release policy 
of our past history? What do you think? Do you know if this 
Administration has established a catch-and-release policy?
    Secretary Johnson. I do not believe so. And I would be 
opposed to such a policy. I know from my experience at the 
Department of Defense that an armed force, a law enforcement 
force has serious objections to a catch-and-release policy. We 
ask these people to put their own lives on the line, and if you 
do that, you should not catch, capture, or arrest someone only 
to be released moments later.
    So I do not believe in such a policy, and I don't believe 
we have such a policy.
    Mr. Carter. Well, let's just look at some things. We have a 
combination of government directives, deferred action, rule 
interpretation, and proposed budget cuts, leading to a de facto 
cut-and-release policy.
    Aren't all these directives and memos regarding illegal 
activity such a thing by granting the recent border entrants 
with temporary status, even if it is a type of legal limbo, 
aren't the White House decisions, including the latest proposal 
to slash ICE enforcement resources, creating an irrational 
posture for illegal entry that is leading to humanitarian 
dilemmas and law enforcement nightmares?
    Sir, I am from Texas, and you know that; we have talked. So 
illegal border crossings are a big deal to me and to my 
neighbors. And, you know, we all know what is going on in the 
Rio Grande Valley. Your group called that the RGV. We call it 
the Valley. And though we worry about the escalating flow of 
illegal aliens streaming into our neighborhoods and our 
communities, we worry more about the transnational criminal 
network that supports these illegal crossings. The word on the 
border is, at least across from Texas, that today no one 
crosses that river without the cartel being involved.
    Consider these statistics from CBP about apprehension in 
the Rio Grande Valley for the first quarter of fiscal year 
2014. Between October and January--October, November, December, 
4 months--as I said, 66,828 people were apprehended. A total of 
49,850 were other than Mexicans, and 18,555 were juvenile 
apprehensions.
    When these folks were apprehended, they met ICE's mandatory 
detention criteria because they were recent illegal entrants, 
but, needless to say, they weren't all placed in detention 
beds. So what happened to them once they were processed by CBP 
and turned over to ICE? Of the 66,928, how many were removed, 
remained in detention, were placed in alternative detention, 
claimed credible fear, are awaiting immigration hearings?
    How many other Mexicans are waiting to be deported? We 
can't just ship them back to Mexico. Of the 18,555 children, 
how many were delivered to family members living legally or 
illegally in the United States? And how many children continue 
to wait in shelters if they couldn't be reunited to family 
members?
    There is no doubt, Mr. Secretary--in my opinion, at least, 
there is no doubt--the current policies are causing systematic 
failures to the United States immigration enforcement process, 
creating, I would argue, an invitational posture that is 
leading to a humanitarian crisis.
    It is a really sad story to hear, and we hear it on the 
border all the time, of a small child dropped across the bridge 
in Brownsville with a plan that is instigated by the cartel, 
says there is nothing to worry about that small child, it will 
be delivered by ICE, two agents flying in to accompany him 
travelling to a family in Virginia.
    Now, this whole policy has created a disaster on our 
border. Would you consider that this might be creating 
incentives to bad behavior? And what is your solution?
    Secretary Johnson. A couple of comments.
    First, I have been to the Valley, I have spent time there, 
I have done the Rio Grande, and I have talked to our Border 
Patrol agents on the front lines about the challenges they face 
and what they need, the resources that they need. Because I 
know from personal experience, very often, you learn more from 
talking to the people on the front lines than you do your 
subordinates in Washington. In fact, when I went to the Valley, 
I told my subordinates in Washington to stay home; I wanted to 
talk directly to the guys on the front line.
    I agree that we have some real challenges in south Texas. I 
think south Texas, particularly of late, is presenting some 
real challenges, and we have some work to do there.
    One of the things that I was struck by when I visited the 
detention center on January 20th was that there were 995 
detainees there, only 18 percent of whom were Mexican. There 
was something like 30 nationalities represented in that one 
detention center. And it is very clear why: Smuggling 
organizations are bringing these individuals through Mexico 
into the United States as part of a plan.
    So one of my concerns, one of my challenges is I think we 
have to be very aggressive when it comes to going after the 
organizations, some of whom are beholden to the cartels--many 
of whom are beholden to the cartels. Almost no one crosses the 
south Texas border who is not being smuggled. There is no 
freelancing. It is all part of an organized process put in 
place.
    I am also sensitive to aspects of our system that may 
create magnets for illegal immigration. I am sensitive to that. 
And when I was on the front lines, I talked to our Border 
Patrol folks about some of the stresses that they face on the 
front lines as a result of the system we have in place.
    In my judgment, this is one of the reasons why we need 
comprehensive immigration reform, both for the added border 
security that it would provide and, frankly, for--and I know 
some people disagree with this, but I think I am right on 
this--as a matter of homeland security, an earned path to 
citizenship for the 11 million who are here. I want them to 
come out of the shadows so that we know who they are as a 
matter of homeland security.
    But, Chairman, I am sensitive to the challenges the people 
on the front lines face. I think in south Texas and the Valley, 
we have some work there to do in particular.
    The last thing I would say is there is a difference between 
catch-and-release and apprehension, arrest--and you know this 
yourself from your time in the judiciary--and someone being 
released on parole, on bond because someone has determined that 
they are not a flight risk. And that does indeed happen in our 
immigration system. And we have asked in this budget submission 
for $94 million for an alternatives-to-detention program that 
we think is a pretty good one, consistent with public safety.
    Mr. Carter. Well, you sort of confirmed, in some ways, what 
I just said about an invitational posture, and I thank you for 
your comments.
    When we had catch-and-release, I interviewed bondsmen, and 
the policy that they had was they would make the bond, but they 
were before the judge getting off the bond in a month because 
they knew the no-shows were going to be 90 percent, and they 
were gaming the system. This was way back in 2004 when the 
catch-and-release was the policy of the United States.
    But I need to go on to Mr. Price, so I will get my time 
again.
    Mr. Price.

                  NATIONAL PREPAREDNESS GRANT PROGRAM

    Mr. Price. Thank you, Mr. Chairman.
    Mr. Secretary, as you know, on this subcommittee, we have 
worked very hard to be full partners with our first responders 
and with our State and local governments to fully fund FEMA's 
first-responder programs. I am disappointed that this budget 
does propose a reduction in these programs, although I note 
that the administration has also proposed the Opportunity, 
Growth, and Security Initiative. That includes additional 
funding, or would include additional funding, for State and 
local grants, fully paid for, but it would be beyond the top-
line funding level in the budget agreement.
    Now, in addition, the Department is again proposing to 
establish a National Preparedness Grant Program, which would 
take the place of the currently funded preparedness programs. 
That would include the State Homeland Security Grant Program, 
the Urban Areas Security Initiative, the Port Security Program, 
and the Transportation Security Grant Program--in other words, 
the rail program.
    Now, the administration, unlike the last 2 years, has 
proposed authorization language for this new NPGP, but the 
proposal is basically the same as we have seen in recent years. 
So I am wondering if you could elaborate for us the rationale 
for this proposal and some of the practical effects.
    I am especially interested in the practical effects. With 
the major urban areas, for example, are they justified in their 
concern that they could lose access to significant amounts of 
funding under this restructuring? What would the UASI cities 
gain or lose under the proposed structure? Would those cities 
need to rely solely on their State governments or more on their 
State governments to receive funding under the proposed 
structure?
    Secondly, could you describe for me how changes have been 
made, what kind of changes you have made in response to some of 
the criticisms leveled by stakeholders to the proposal from 
prior years?
    Thirdly, were the consolidated program to be authorized and 
funded, do you expect that we would see a significantly 
different balance of investments than we have seen under the 
currently funded preparedness grant programs?
    You see what I am getting at. I mean, these are programs 
that are important to us; they are important to you, I know. We 
want to fund them as generously as we possibly can, and we want 
to do this in a way that is effective and as efficient as 
possible.
    This proposal keeps coming back, though. And we have 
resisted it, as you know very well. We have resisted it. We 
have reason to believe that the current grant structure is 
well-defined and has delivered important assistance.
    If you have a different idea or if you believe that the 
bottom line in terms of what is delivered and how it is 
utilized would be different and would be better under this kind 
of consolidation, then I think now is the time to let us know 
that rationale. Because, as I said, this proposal, this isn't 
the first time we have seen it. So if you are persisting in 
this, we obviously need to know the reason why.
    Secretary Johnson. First of all, I was pleased that in the 
2014 budget agreement, there was more money set aside for 
State-level and UASI grants. I believe that assistance grant-
making to State and local governments, from my counterterrorism 
point of view, is particularly important as the terrorist 
threat becomes more diffused, decentralized, and, in many 
instances, localized, with the self-radicalized individuals we 
see domestically.
    So I think support for State and local governments is 
particularly important. And I was pleased that in the 2014 
budget we have more money to work with, and we intend to do so.
    I am aware of the opposition to the consolidation of the 
grants program. I know that this debate has been going on. And 
I have asked the very same questions you have just asked me.
    My understanding is that, with the consolidation of the 
grants programs at the State level, there would be increased 
efficiencies in terms of Federal oversight of how the grant 
money is spent and increased efficiency on the State/local side 
in terms of oversight for how this money, how the grant money 
is distributed.
    I know that our FEMA leadership--and FEMA administers these 
grants--is a big believer in consolidating the grants program. 
And I have a tremendous amount of respect for Craig Fugate in 
this regard, and he believes that we need to do this. He 
administers this program, and I am inclined to defer to his 
judgment on this.
    I understand the concerns, but, you know, anytime you are 
engaged in grant-making, if there is a way to reduce the 
overhead so that the grant money is maximized in terms of 
getting to its maximum impact, that is a good thing.
    So that is why we come back at this. I am pleased that this 
year, we offered authorization language to accompany it. But 
that is my best understanding of the reason for the proposal.
    Mr. Price. Just one detailed question about the 
authorization language. You propose authorization to build and 
sustain core capabilities identified in the National 
Preparedness Goal. Now, I know you are maintaining the fire 
grants and the SAFER grants, the personnel grants, as discrete 
programs.
    Secretary Johnson. Yes.
    Mr. Price. Does this definition, though, include 
firefighting as one of those core capabilities? It is included 
now, as I understand. Is that proposed to be changed?
    Secretary Johnson. I have to take that question for the 
record, and I can get back to you in writing, sir----
    Mr. Price. All right.
    Secretary Johnson [continuing]. If you don't mind.
    [The information follows:]

    Rep. Price: Under the National Preparedness Grant Program, would 
firefighting be considered a core capability?
    Response: Under the Administration's proposed National Preparedness 
Grant Program (NPGP), the Assistance to Firefighters Grant Program 
(AFG) is maintained as a separate and free standing grant program. The 
NPGP consolidation does not contemplate the absorption of the AFG grant 
program within its structure. ``Firefighting'' does remain a target 
capability under the National Preparedness Goal (pursuant to PPD-8) and 
the NPGP will support all of the target capabilities.

    Mr. Price. Thank you, Mr. Chairman.
    Mr. Carter. Chairman Rogers.

          COAST GUARD BUDGET CUTS' EFFECT ON DRUG INTERDICTION

    Mr. Rogers. Mr. Secretary, the country has an opioid 
problem, and that is putting it mildly. Until fairly recently, 
the abuse of prescription drug medicine was killing more people 
than car wrecks--opioids, Oxycontin and the like.
    We have made a real dent in that through a concerted action 
on the State, Federal, local levels, and we are making some 
progress. That was what the Centers for Disease Control called 
a national epidemic. And I have been to too many emergency 
rooms in my district looking at young kids, with parents 
grieving over the body of their son or daughter, 18, 19 years 
old. But we have made some progress on prescription drug abuse.
    But now they are switching to using heroin, an opioid, 
obviously. And the rise in heroin abuse now is what the 
Attorney General yesterday called, quote, ``an urgent public 
health crisis,'' end of quote.
    We all know that heroin is not made here in the U.S. It has 
to be imported, has to be brought in, either across our borders 
or across our seashores. And yet, to combat this urgent public 
health crisis, in your budget you proposed cutting the Coast 
Guard drastically--the one agency that can protect our 
shorelines against this invasion of a health crisis that we are 
undergoing.
    You have cut over 800 military positions, over 600 
selective reserves. You again gut the Fast Response Cutter by 
funding only two, even though the program is on cost and on 
schedule, desperately needed. And your budget decimates 
operational flying hours by proposing to retire aircraft and, 
more concerning, proposing to cut flying hours for the new HC-
144 aircraft by 16 percent.
    I could go on on your cuts to the Coast Guard vital to our 
seashore defense, particularly on drugs. We could talk about 
the land crossings the same way, the reduction in personnel and 
cuts to the land-based law enforcement, ICE investigations. You 
are proposing to reduce the number of average sustained 
detention beds, for example, from 34,000 to 30,000. 
Furthermore, ICE's Homeland Security investigations program 
decreased nearly $30 million. I could go on.
    Is the Attorney General wrong when he said yesterday this 
is an urgent national crisis? Or do you maintain that the Coast 
Guard is not an important factor in fighting that curse?
    Secretary Johnson. I wholeheartedly agree with the Attorney 
General with regard to his comment.
    The short answer to your question is that this budget 
submission reflects hard choices given our fiscally constrained 
environment in which we are operating, pursuant to the 
Bipartisan Budget Act and the top-line limit that we face.
    With regard to the Coast Guard, I am personally committed 
to continuing with our recapitalization effort. My 
understanding is that the Coast Guard has the oldest fleet of 
vessels of any navy in the world. We need to continue our 
recapitalization effort.
    And I am pleased that we have in our budget submission 
asked for $562 million to fund the National Security Cutter No. 
8, which is the last one in that production line. I am pleased 
that we are continuing progress toward the selection of a 
contractor for the Offshore Patrol Cutter, which is the medium-
size cutter in the fleet. And I am pleased that we have forward 
progress with regard to the FRC [Fast Response Cutter], the 
smaller cutter. We asked for appropriations for two versus four 
or six because we had to make some hard choices.
    My observation of Homeland Security investigations is that 
they do a marvelous job in terms of narcotics interdiction. I 
get daily reports at their efforts at interdiction at the 
border of illegal narcotics. I think they are doing a terrific 
job, and we need to encourage them to continue to do so. But 
without a doubt, this budget submission reflects some very hard 
choices.
    Mr. Rogers. Hard choices. You are right, you have to make 
choices; so do we. That is what we are in business for, you and 
us, on budgets, hard choices.
    And while you are cutting the Coast Guard and the other 
agencies that fight illegal drug trafficking, you are 
increasing management, administration. Immigration and Customs 
Enforcement, 13, almost 14 percent increase in management and 
administration, bureaucrats in Washington. You have cut 
domestic investigations by almost $30 million, and so on.
    So the hard choices--plus, you proposed to increase the 
amount of money to complete the DHS headquarters buildings--
D.C., bureaucrats. St. Elizabeth headquarters, $73 million 
increase. Hard choices. Take it from drug fighting and put it 
into headquarters. To me, that is not a hard choice; that is an 
easy choice for me to make.
    So I disagree with you on the hard choices, so-called hard 
choices, that you say you have made. Your budget would put 
Coast Guard at a 5-year low in cocaine interdiction--a 5-year 
low. And we all know that cocaine is flooding into our country.
    And so, Mr. Secretary, this is not good news for the home 
folks.

                      FEDERAL AIR MARSHALS PROGRAM

    Mr. Chairman, before I relinquish my time here, let me ask 
the Secretary about the Federal air marshals program.
    I know we can't talk about that in open court here too 
much, but I would appreciate a report, confidential report, for 
the record for me and for whomever wants it about the operation 
of the Federal air marshals--the number, the effectiveness, the 
preventions, if any, that they may have expedited--and just an 
analysis of where we are with the FAM program and whether or 
not we need them.
    Secretary Johnson. Mr. Chairman, I am happy to provide that 
report to you, with the suitable safeguards that--I know we can 
trust you and your staff with the appropriate safeguards, so I 
am happy to provide that to you. I think that it is something 
you should have if you ask for it.
    [The information follows:]

    Rep. Rogers: I would appreciate a report, confidential report, for 
the record for me and for whomever wants it about the operation of the 
Federal air marshals--the number, the effectiveness, the preventions, 
if any, that they may have expedited--and just an analysis ofwhere we 
are with the FAMS and whether or not we need them.
    Response: As the material requested contains Sensitive Security 
Information, it will be provided to the Committee under separate cover.

    Mr. Rogers. Anything that spends money we want to know 
about.
    Secretary Johnson. I am sorry?
    Mr. Rogers. Any program that spends money we want to know 
about, we are entitled to know about, and demand to know about. 
And so I want a good analysis of the FAMs forthwith, pretty 
quick, before we mark this bill up.
    Secretary Johnson. I am not disagreeing with you, sir.
    Mr. Rogers. Thank you.
    Mr. Carter. Ms. Lowey.

                    URBAN AREAS SECURITY INITIATIVE

    Mrs. Lowey. Thank you again, Mr. Secretary.
    The explanatory statement accompanying the fiscal year 2014 
omnibus included language directing the Department to focus the 
Urban Areas Security Initiative, UASI, on urban areas that are 
subject to the greatest terrorism risk and allocate resources 
in proportion to that risk.
    As you know, the purpose of this language was to focus the 
resources of the Department and FEMA on those urban areas at 
the highest risk of an event, rather than spread this money 
around from region to region and State to State, rather than 
put it to good use where it matters most.
    How does the Department plan to implement this language for 
the fiscal year 2014 UASI allocation? And when can we expect 
the fiscal year 2014 allocations under the more focused 
standard?
    Secretary Johnson. I made an initial review of the proposed 
allocations last week. I believe we are on track, pursuant to 
the timetable that we hope to adhere to, to get that 
information out.
    I agree with the statement about how the grant money should 
be prioritized to the communities most at risk. As someone who 
was in Manhattan on 9/11, I appreciate the challenges that we 
in the New York area have, and in other communities.
    So we expect to have that information for fiscal year 2014 
out very soon.
    I have heard from enough Members of Congress about the UASI 
grants program and how we allocate risk. I think it is 
incumbent upon me as Secretary to make sure that we are 
allocating this in the proper way and that we occasionally 
reevaluate it to make sure we are getting it right. So for 
fiscal year 2015 I am committed to do that, as well.

    DOMESTIC NUCLEAR DETECTION OFFICES' SECURING THE CITIES PROGRAM

    Mrs. Lowey. Thank you very much, Mr. Secretary.
    The budget request would also cut $10 million from the DNDO 
Securing the Cities Program. This program has been invaluable 
in outfitting law enforcement in areas of critical 
infrastructure in New York with radiological and nuclear 
detection capabilities to identify, respond to, and altogether 
prevent a radiological or nuclear attack in cities.
    Could you discuss with me what accounts for the proposed 
reduction of $10 million to this program? Has the Department 
coordinated with New York City's new chief of police to ensure 
that the proposed reduction to the Securing the Cities Program 
would not harm the New York Police Department's detection 
capabilities?
    Secretary Johnson. Well, I have a pretty good working 
relationship with the NYPD and its leadership. I knew 
Commissioner Bratton before I took this job. I have met with 
him, I think, two or three times since. And I have a dialogue 
with the New York City Police Department.
    You are correct that there is, in our submission, $10 
million less. Again, this reflects hard choices. And I asked 
specifically about this one in particular. And it is my hope 
and expectation that we can leverage this through other means, 
through other grant programs, for New York City and for other 
communities. That is my hope and expectation. But, again, it 
reflects hard choices.

                TRANSPORTATION SECURITY OFFICERS, FEMALE

    Mrs. Lowey. I thank you very much, because I did work 
closely with Commissioner Kelly, and I hope that we will be 
able to discuss this with the new commissioner.
    Lastly, I would just like to discuss some matter of 
importance regarding TSA. I recently met with transportation 
security officers who relayed that female TSOs are finding it 
more difficult to be promoted because they are held at the 
passenger checkpoints for pat-downs rather than gaining 
experience at other stations. Approximately 33.8 percent of 
TSOs are women, and as only female TSOs are permitted to 
conduct pat-downs of female travelers, as well as being the 
preferred choice for pat-downs of children and the elderly, the 
result is that 33 percent of TSOs are responsible for over 50 
percent of all the pat-downs.
    Having female TSOs conduct pat-downs of female passengers 
is certainly a well-intentioned policy, but I have heard 
continuing problems about its implementation. Due to the 
increased demand for female TSOs at passenger checkpoints, they 
tell me they are not rotating positions, per TSA policy, 
because of insufficient number of TSOs on duty at passenger 
checkpoints. The result is that female TSOs are not getting the 
experience in other stations to be considered for a promotion 
and are being denied shift and position bids because they are 
disproportionally kept at the checkpoints.
    In addition to making an effort to hire more female TSOs, 
could you discuss with us what steps should TSA take to ensure 
that female TSOs have equal access to training, shift bids, 
promotions as their male counterparts?
    And the tragic shooting at Los Angeles International 
Airport last year, which resulted in the murder of Gerardo 
Hernandez, shined a bright light on the need for checkpoint 
security. So if you can tell us, what steps is TSA taking to 
improve checkpoint security? How will it train its employees to 
handle an active shooter event so that events like the attack 
at LAX will not happen again?
    If you could just address briefly those two issues, I would 
be most appreciative.
    Secretary Johnson. On the first issue, I had not heard that 
before, but I am not surprised, given the basic statistics. If 
33 percent of TSOs are women and we want TSOs who are women to 
conduct the pat-downs of women passengers, who are probably 
about 50 percent of aviation passengers--and if you add kids, 
that is in excess of 50 percent. And I wouldn't want to see 
male officers doing that with regard to women.
    That need, therefore--there is a certain logic to your 
question--requires that they be on the front lines of aviation 
security. I wouldn't want to see that deprive them of promotion 
opportunities. So I will look into that. That is an interesting 
comment, which I had not heard from the women in the force who 
I have chatted with at LAX and Dulles and elsewhere. It doesn't 
mean it doesn't exist; they just didn't raise it to me 
directly.

                     CHECKPOINT SECURITY, IMPROVING

    With regard to LAX, I was there. I spoke with the officers 
who had worked with Officer Hernandez on that day. I asked them 
about their security. I don't think that the answer is to 
create a security perimeter around a public airport. I think 
that would create all kinds of backlogs, and I know 
Administrator Pistole agrees with me.
    There is a review that is out that I am due to get soon on 
promoting security for our officers. And that is a top priority 
for me, the safeguarding of our men and women. And I look 
forward to the results of that review.
    Mrs. Lowey. Thank you.
    Thank you, Mr. Chairman.
    Mr. Culberson. Thank you, Mr. Chairman.
    A point I want to quickly follow up on. Ms. Lowey has quite 
correctly, identified a real problem with the ability of the 
employees at airports to get access to identification 
documents, and I hope that she will continue to work on that.
    And, Mr. Secretary, I am trained as an attorney as well. I 
did civil defense work in Houston defending businesses, 
individuals that got sued, engineers, professional people, and 
I see that is your background as well, sir, as an attorney.
    Secretary Johnson. My last trial was in Houston.
    Mr. Culberson. Was it really?
    Secretary Johnson. I won't tell you the result.
    Mr. Culberson. Well, you were the general counsel, I see, 
at the Department of Defense.
    Secretary Johnson. Yes.

                             DETENTION BEDS

    Mr. Culberson. And just as a point of curiosity, do you 
think that the individuals picked up by our soldiers overseas 
on the battlefield that are held at Guantanamo are entitled to 
constitutional protection, equal protection, due process, the 
protections guaranteed in the Constitution?
    Secretary Johnson. That is a very interesting question that 
we wrestled with extensively. I will give you the current state 
of the case law.
    Mr. Culberson. Your opinion.
    Secretary Johnson. My opinion, well, as a lawyer and legal 
advisor, my opinion is whatever the Supreme Court tells me to 
think. And so the current state of the case law is that with 
regard to the right to habeas, they have that and certain other 
limited rights. There has been no determination by the courts 
that detainees at Guantanamo enjoy the full panoply of 
constitutional rights. The courts have tended to say, we are 
not there yet, or we don't have to rule on that. And so that is 
the current state of the case law.
    Mr. Culberson. Right.
    Secretary Johnson. It could go in that direction depending 
upon the particular issue.
    Mr. Culberson. Yes, sir. I was particularly interested in 
what you as the general counsel of the Department of Defense 
that you had been involved in advocating for a different 
result.
    Secretary Johnson. I agree with the comment made earlier, 
which is I am not in the business of enforcing the law as I 
wish it existed. I do my best job of enforcing the law as I 
believe it currently exists.
    Mr. Culberson. There you go. So as a good lawyer, when the 
law says ``shall,'' shall means shall.
    Secretary Johnson. Generally, that is true, yes, sir.
    Mr. Culberson. And since 2002 this committee has had in 
statute a provision that Chairman Carter, with the strong 
support of Chairman Rogers, and the final bill that the 
President just signed, provides--this is in H.R. 3547--that 
funding made available under this bill shall maintain a level 
of not less than 34,000 detention beds. And you are quite 
correct, you are, as the secretary, have sworn an oath to 
uphold and defend the Constitution, the laws of the United 
States, you can't deal with the law as you wish it would be, 
you are dealing with the law as it is.
    So therefore, if you could, sir, what possible 
justification is there for the Department of Homeland Security 
to refuse to obey that law? And why would you request a cut to 
detention beds by 10 percent? But first of all, what is your 
legal justification for ignoring that law, and not complying 
with that ``shall''?
    Secretary Johnson. I dealt with similar provisions when I 
was the lawyer for the Department of Defense, and the 
Department of the Air Force when I was general counsel there. I 
believe that in the executive branch, when we have a legal 
obligation to make a budget submission to Congress, we owe the 
Congress our best effort at what we think the budget priorities 
should be.
    Mr. Culberson. Recommendation.
    Secretary Johnson. As a recommendation. And it is your 
prerogative to agree with it or disagree with it. And I am sure 
that the Congress will do so in this instance as well.
    But with regard to that particular provision, we believe we 
owe you our candor and our best effort----
    Mr. Culberson. Certainly.
    Secretary Johnson [continuing]. At what we believe is the 
appropriate level for detention beds given our current demands. 
And so that is what you have from the administration.
    Mr. Culberson. Right. But you are not filling all those 
beds today? That is my concern.
    Secretary Johnson. We are not filling all those beds today.
    Mr. Culberson. That is my concern.
    Secretary Johnson. Well, actually today, I believe, we are 
somewhere just shy of that, shy of 34,000, based on our best 
judgment about who should be detained and who can be bonded or 
paroled.
    Mr. Culberson. But the law is mandatory, you agree, 
nondiscretionary, mandatory, shall.
    Secretary Johnson. The clause reads as it reads. We have 
given you our best submission based on our honest assessment of 
what we think we need.
    Mr. Culberson. Sure. You, I am confident, can detect from 
the committee all of us on this committee are committed to 
enforcing the law as it is written. And my good friend Henry 
Cuellar, who I had the pleasure of serving with in the Texas 
House, one of my nearest and dearest friends, his constituents, 
who live there right on the river, there is no one more 
committed to enforce the law than Henry's constituents, because 
those poor folks are on the front line. I mean, they deal with 
it every day. And they want safe streets and good schools and a 
strong economy.
    Laredo is the largest inland port in the United States, I 
think, Henry, and a beautiful city. I used to be able as a kid 
to go to Nuevo Laredo. You can't go there anymore. It is like a 
ghost town.
    It is critical, and I hope you detected it from all the 
questions that you have seen in this hearing, that you enforce 
the law as it is written. It is not, as you said, what you 
would like the law to be. You are following the law as the 
Supreme Court gave it to you, but you are also following the 
law as given to you by the United States Congress.
    And this is not optional. It is not discretionary. There is 
no prosecutorial discretion on the part of a police officer or 
your detention folks as to whether or not you are going to fill 
34,000 beds. You shall fill 34,000 beds.
    Would you, if you could, please take that message back to 
the agency? And I know that the chairman and all the 
subcommittee members will be keenly interested in helping you 
obey the law as it is written. Thank you, sir.
    Mr. Carter. Ms. Roybal-Allard.
    Ms. Roybal-Allard. Mr. Secretary, I just want to comment on 
that, on the bed mandate. As the law is written and is being 
interpreted by my colleagues in saying that you must fill 
34,000 beds, what that does is, if I am correct, takes away the 
discretion of professional ICE personnel who may determine that 
someone who is arrested, could be an elderly person, whoever 
that happens to be, that you would not be allowed to use that 
discretion and put them in an alternative means of detention 
because of health or for other reasons if those 34,000 beds 
were not filled. You would be in a position of having to fill 
those beds every night whether or not you believed a certain 
number of the people that were arrested could be put into an 
alternative situation.
    Is that how, I mean, the law is being interpreted by my 
colleagues, that those 34,000 beds have to be filled regardless 
of the merits, of the need, of the conditions of that person, 
and that the discretion is taken away from ICE professionals if 
that 34,000 number of beds isn't filled? I am just trying to 
understand the logic in how this law applies here, because it 
is very, very costly to have people in detention, $125 a night 
as opposed to, I forget what the figure is, something like 30 
cents per day to put them in alternative measures.
    So could you explain to me----
    Secretary Johnson. Well, I don't have the statute in front 
of me. I have no doubt it says the word ``shall'' in it. And I 
don't know that the interpretation here--and feel free to 
disagree with me--is that we must maintain 34,000 detainees at 
any one time. It is that we must maintain the capability for 
34,000 detainees. But, Congressman, you will correct me if I am 
wrong.
    Mr. Culberson. It is just real simple, straightforward.
    Secretary Johnson. Okay.
    I mean, the other comment----
    Ms. Roybal-Allard. So the capability is one thing, but if 
it is that you must fill them, that means that there is no 
discretion, those beds have to be filled every night regardless 
of who it is that you are arresting, whether it is elderly or 
otherwise. That is what I am asking for clarification on.
    Secretary Johnson. Well, the statute says, the language 
says, funding made available under this heading shall maintain 
a level of not less than 34,000 detention beds through 
September 30, 2014. So reading that, I would interpret that to 
mean that we have to maintain 34,000 detention beds. Some of 
those beds might be empty at any given time. But we have to 
maintain 34,000 detention beds.
    We believe that is not the best and highest use of our 
resources, given our current estimates of who we need to 
detain, who we regard as public safety, national security, 
border security threats. Our best estimate is that the number 
is something south of 34,000, particularly when we have what we 
think is a pretty good alternatives-to-detention program that 
we have also asked for funding for. So we have asked for 
something around 30.6 thousand to detain whom we believe needs 
to be detained.
    Ms. Roybal-Allard. Okay. So your interpretation then is 
different than previous interpretations. Those beds do not have 
to be filled, they have to be available, and the discretion as 
to whether or not to detain someone or put them into an 
alternative situation remains at the discretion of the ICE 
professional?
    Secretary Johnson. Well, I am reading the statute, and----
    Ms. Roybal-Allard. The reason I am asking is because I 
think there is a little bit of a disagreement between us.
    Secretary Johnson. The lawmakers here can correct me if I 
am wrong in my interpretation of the statute.
    Ms. Roybal-Allard. Okay.
    Do I have time for another question.
    Secretary Johnson. Chairman, may I make a comment, please?
    Mr. Carter. Yes, you may.
    Secretary Johnson. When I was general counsel of the Air 
Force we used to get language every year, not exactly like 
this, that said you shall budget for 94 B-52s. And it wasn't 
just you shall have 94 B-52s, you shall submit to me a budget 
for 94 B-52s. And the chief of staff of the Air Force would 
have this conversation with me every year, do I have to really 
submit a budget for 94, because I think I only need 76? And I 
said to him, well, I think you owe it to Congress the candor to 
tell them you think you only need 76. They would disagree with 
you every year and you would get 94.
    But as part of that process, which we are engaged in right 
now, I think we owe it to you our best estimates of what we 
need and how we think we should spend the money. It is your 
prerogative to disagree.
    Mr. Carter. And if the gentlelady would yield, I think she 
has about 30 seconds, can I make a comment? Would you yield?
    Ms. Roybal-Allard. Yes, I will.
    Mr. Carter. I agree that you have to have available 34,000 
beds under this law. You don't have to have anybody sleeping in 
them every night, but they have to be made available. I think 
that is what this says. And we give a dollar amount in there 
for how much we will pay to maintain those things. I think that 
is a call of the detention folks.
    Now, the concern I have about reducing that number is that, 
from my experience as having one of the bad jobs I had when I 
was a judge, was keeping our jail overflow from killing us. And 
when you run out of space, the space you have to hire to meet a 
crisis is about five times or more expensive than the space 
that you maintain. And I think the numbers track that we have 
been closer to 34,000 than any other number most of all the 
year, and it is not because we are filling beds with people 
that don't need to be there. It is because the need actually is 
there.
    But we will see. We will find that out as we investigate 
this.
    I yield back. I believe your time is up.
    Ms. Roybal-Allard. Yes.
    Mr. Carter. Who is next?
    Mr. Frelinghuysen.
    Mr. Frelinghuysen. Mr. Chairman, I was late, and I think 
might be, if I may, yield to those who were here earlier and 
more promptly. I was here early, but if that is all right with 
you.
    Mr. Carter. That is fine.
    Mr. Dent.

                     SCREENING PARTNERSHIP PROGRAM

    Mr. Dent. Thank you, Mr. Chairman.
    Good afternoon, Mr. Secretary.
    Mr. Secretary, as you know, the Screening Partnership 
Program, or SPP, allows airports to apply for private screeners 
rather than the Federal screeners. Administrator Pistole is on 
the record opposing the SPP concept, and to date I believe 14 
airports actively participate in the SPP program. Again this 
year the TSA budget proposes to cut funding for the Screening 
Partnership Program. So I have a few questions I would like to 
have you address, if you could.
    First, what level of oversight is DHS conducting to ensure 
that the cost comparison process being conducted by TSA is 
accurate and has DHS validated TSA's cost comparison process?
    Secretary Johnson. The level of oversight with regard--I am 
sorry, should I go now, or----
    Mr. Dent. Yes. Go right ahead.
    Secretary Johnson. Okay. The level of oversight that we are 
providing to the components with regard to programs like that 
one is, I would say, in transition. We are conducting a top-
down efficiencies review, including creating a new budget 
process and the like, that I hope will lead to greater 
efficiencies and weeding out inefficiencies with regard to that 
particular program.
    Mr. Dent. Okay. And second, is DHS satisfied with the 
amount of time it takes TSA to award an SPP contract and to 
transition that airport once an application has been approved?
    Secretary Johnson. For what program? I am sorry.
    Mr. Dent. The same program, the Screening Partnership, SPP.
    Secretary Johnson. I am sure there is room for improvement, 
sir.
    Mr. Dent. Thank you.
    And the third point I want to make on this, TSA bases its 
Federal cost estimate on TSA's starting wages rather than the 
actual wages being paid by the TSA, preventing bidders from 
meeting the parameters of the bid without paying incumbent 
employees at TSA starting salary, rather than their current 
wages.
    Mr. Secretary, Chairman Carter and I agree that in this 
budgetary environment cost efficiency is absolutely critical. 
But has TSA set the bar unduly high for private screeners to 
compete with federalized screening?
    Secretary Johnson. That is a good question. I would like to 
take that one for the record, if I may, so I can give you a 
full answer.
    Mr. Dent. Sure, not a problem. Thank you.
    [The information follows:]

    Rep. Dent: Has TSA set the salary bar too high for private 
screeners to compete with federalized screening?
    Response: No. The Aviation Transportation Security Act requires 
that private contractors provide wages and benefits to contract 
screeners at least at the level or wages and benefits of federal 
screener personnel. Approximately 90 percent of the estimate is 
attributed to salary cost and the Transportation Security 
Administration makes public its estimated cost of operations to 
prospective bidders when it issues a Request for Proposals. The 
Transportation Security Administration has held industry briefs and 
congressional staff briefs on the details of its cost estimating 
methodology concerning salaries and is confident in its estimates. The 
Transportation Security Administration uses actual salary and benefit 
data in developing the federal cost estimate for salaries at the 
specific airport where the screening operations are conducted by a 
federal workforce. For example, if the minimum salary and benefits for 
a D Band Transportation Security Officer at a given airport was 
$31,000, but the Transportation Security Administration paid the 
average D Band officer at that airport $32,000, it would use $32,000 in 
developing the Transportation Security Administration's cost estimate. 
However, a prospective private sector contractor could pay a contract 
screener filling such a position an amount down to the minimum in the 
example, $31,000.

                      PERSONNEL SCREENING PROGRAMS

    Mr. Dent. And then I want to quickly move to the Personnel 
Surety Program, Mr. Secretary. Given that there are individuals 
who are being vetted for security clearance for DHS programs 
similar to the Personnel Surety Program, or PSP, under CFATS, 
why should people have to go through that same process twice?
    Secretary Johnson. I believe that we are looking for ways 
to consolidate our screening programs. This is an issue that 
has been raised to me, and I believe we are looking for ways to 
consolidate our programs.
    Mr. Dent. I appreciate your help with us on that, because 
at one point in this deliberation over the development of the 
PSP consideration was being given to the use of the TWIC card 
by individuals for vetting. Is this still on the table, TWIC? I 
mean, many people have come to me and said they thought----
    Secretary Johnson. Yes, it is. I believe TWIC 
(transportation worker identification card) is an important 
program. My understanding is that we are on track to be in a 
position to mail to people their TWICs and get to the one-stop 
system where you only have to go once to get your card and then 
you get it mailed to you.
    Mr. Dent. Right. Well, my staff and I would love to work 
with your folks on that issue.
    Secretary Johnson. I would be happy to work with you on 
that.
    Mr. Dent. Thank you.
    Secretary Johnson. I would note that I personally have to 
go to the DMV (Department of Motor Vehicles) to get my new 
license plate.
    Mr. Dent. And I have to yield back my time. I just want to 
say I have a question I will submit for the record at some 
point with respect to the motor coach industry and intercity 
passenger transportation.
    Thank you. And I will yield back.
    Mr. Carter. Mr. Cuellar.

                 COUNTERTERRORISM: PERFORMANCE MEASURES

    Mr. Cuellar. Mr. Chairman, thank you so much.
    Mr. Secretary, it is good seeing you again.
    What I want to do is focus on performance. This last 
omnibus appropriation bill we added some language that applies 
to all agency heads, including yourself, that says that as you 
prepare your funding requests as part of the President's annual 
budget and in consultation with the GAO, you should directly 
link your performance plan under the GPRA tied into that 
performance measures, and in there you have got to show that 
those performance measures, that we give you $1, what do we get 
for that bang for $1. Then it goes on, and particular 
performance measures should examine outcome measures, output, 
everything as defined under GPRA.
    One of the things that I would ask you to do is, when we 
were looking at the Performance.gov and looked at your 
performance goals--and there is a handout, Members, if you will 
look at the handouts that we handed out--and I think we gave 
you a copy also, Mr. Secretary--I would ask you to look at, for 
example, your budget last year was, at least the general 
purpose discretionary, was $39.2 billion.
    Secretary Johnson. Uh-huh.
    Mr. Cuellar. How much money do you think out of that is 
used to prevent terrorism, which is your number one goal, 
preventing terrorism, roughly, just a rough estimate?
    Secretary Johnson. There is probably a number that we 
attribute out of that 39.2 to counterterrorism someplace. It 
depends, obviously, on what aspects of our mission you consider 
could be potentially counterterrorism, what aspect of the 
Secret Service's budget goes to counterterrorism. But I suspect 
there is a number assigned to that and I just don't have it 
offhand.
    Mr. Cuellar. If you can get that to us later on, just 
roughly.
    [The information follows:]

    Rep. Cuellar: How much of the $39.2B in FY 14 was used for 
preventing terrorism?
    Response: The Department expects to devote approximately $8.7 
billion of the FY 2014 net discretionary appropriation to programs and 
activities devoted to preventing terrorism.

    Mr. Cuellar. But I would venture to say it is billions and 
billions of dollars that we put in terrorism. Is that correct?
    Secretary Johnson. That is probably correct, yes, sir.
    Mr. Cuellar. Okay. And then your number one goal--you set 
different goals, and I am just taking everything you have in 
Performance.gov--your number one goal is to prevent terrorism. 
And then there are measures tied into that, Mr. Secretary.
    Now, would you venture to say--and I am looking at, 
Members, I would ask you to take a look at this--if we spend 
billions of dollars and your number one goal, your number one 
goal, your first performance measure is the percentage of 
intelligence report rated satisfactory or higher and customer 
feedback that enable customers to understand the threat.
    And then you go on, the second one, the percentage of 
intelligence report rated satisfactory or higher in customer 
feedback that enable customers to anticipate emerging threats. 
And I think you retired that performance measures and then you 
go into some other ones.
    Now, would you say that for members of the Appropriation, 
that if we appropriate billions of dollars, that the number one 
measure you should have is how satisfied are those people that 
get those intelligence reports? Is that what we should be 
measuring? Again, I took everything out of Performance.gov, and 
I assume all of that is correct.
    Secretary Johnson. The way your question is stated, I would 
have to say no.
    Mr. Cuellar. Okay. And then I would venture to say, I mean, 
I would ask you to go back with your folks and look at this 
language that we added to the omnibus bill and ask you to look 
at what outcomes. Because I think the outcome we ought to be 
looking after we put billions of dollars should be numbers of 
terrorist acts committed in the United States should be zero. I 
mean, I think that is the result or the impact that we are 
looking at.
    I would ask you to look at that because you all are looking 
at activities, and again, I would ask your staff to look at the 
definition of what an outcome measure is, which is results or 
impact, what output is, and all of that. I would also ask you, 
I don't have this, but if you look at one of the things that I 
am very familiar with since I breathe the air and drink the 
water in the Rio Grande, and I live there, on securing the land 
ports, for example, I mean, I think we should have much better 
measures than what you have here.
    So again, I would ask you to just look at that, work with 
us, work with GAO.
    And, Members, I would ask you to take a look at that.
    Mr. Chairman, you are familiar with what we did in Texas 
with the state legislature. We have different measures. And 
again, we would love to sit down and look at this, because we 
are just measuring activity. After billions and billions of 
dollars for your number one goal and the number one measure is, 
are you happy with the report we gave you? I think we can do 
better than that.
    But, Mr. Chairman, I would like to yield back the balance 
of my time. Thank you so much.
    Mr. Carter. Thank you, Mr. Cuellar.
    Mr. Fleischmann.

                     AIRPORT WAIT TIMES, DECREASING

    Mr. Fleischmann. Thank you, Mr. Chairman, Mr. Secretary.
    Mr. Secretary, as you know, customs processing in our 
nation's busiest airports during peak travel times remains a 
problem. This deters international tourism to the United 
States, costing our economy billions of dollars annually. As 
you are aware, the fiscal year 2014 omnibus appropriations bill 
included funding for an additional 2,000 CBP officers.
    What is your plan for mitigating and eliminating excessive 
customs and immigration wait times at our nation's airports? 
And specifically, approximately how many of the 2,000 
additional CBP officers do you plan to deploy at our airports?
    Secretary Johnson. Congressman, I agree with much of the 
premise in your question. I agree that one of my missions as 
Secretary of Homeland Security is promoting and expediting 
lawful travel and trade. So wait times at airports is a big 
issue. I will observe that, in a lot of major airports, wait 
times can spike up and down depending on time of day, because 
very often international flights come in all at once. I have 
seen this myself. I am sure you have experienced the same 
thing.
    Mr. Fleischmann. Yes.
    Secretary Johnson. You are correct that in the fiscal year 
2014 budget, we have 2,000 additional CBP officers, many of 
whom will be devoted to airports and lessening wait times at 
airports. We have made some preliminary estimates of where 
those officers should go, but it is still a work in progress. 
We haven't finalized it yet. We want to make sure we are making 
the best allocation of that. But an important goal is reducing 
wait times, facilitating lawful travel. And I think we will be 
able to accomplish that with the additional resources that you 
have given us.

                  AIR CARGO ADVANCED SCREENING PROGRAM

    Mr. Fleischmann. Thank you.
    An additional question. Mr. Secretary, since the attempted 
bomb plot with cargo coming out of Yemen in 2010, CBP and TSA 
have worked closely together, and with industry, to create the 
Air Cargo Advanced Screening pilot program. It is my 
understanding that a draft rule to convert this pilot program 
into a mandatory program has been in discussion for over a 
year. Can you provide any updates on when we can expect to see 
a published notice of proposed rulemaking please, sir.
    Secretary Johnson. Not specifically. I am happy to take 
that question for the record and get back to you. I agree with 
you that port security and port screening of inbound cargo 
should be a top priority. It is certainly a top priority of 
mine, as the Secretary of Homeland Security, for the very 
reasons you have cited. But I will get back to you on the 
timing on the report.
    [The information follows:]

    Rep. Fleischmann: When can we expect to see a published Notice of 
Proposed Rulemaking (on the Air Cargo Advanced Screening Pilot 
Program)?
    Response: A rough estimate for publication of the Air Cargo 
Advanced Screening Notice of Proposed Rulemaking is 19 months. We 
estimate that it will take about 10 months to get this document out of 
CBP (this includes continued analysis of the pilot, drafting the 
proposed rulemaking, preparation and review of economic impact 
analysis, and CBP review). We estimate that it will then take another 9 
months to complete the DHS and OMB review process and rollout. CBP 
(OFO) has been coordinating with TSA on this project.

    Mr. Fleischmann. Yes, sir. And as a follow-up, assuming 
this rule does get published and goes into effect in the near 
future, does DHS have sufficient funds to staff the National 
Targeting Center that analyzes and targets these international 
inbound cargo ships based on risk?
    Secretary Johnson. I will have to get back to you on that, 
on whether we do.
    [The information follows:]

    Rep. Fleischmann: Does DHS have sufficient funds to staff the 
National Targeting Center, if the draft rule does go into effect?
    Response: Cost estimates associated with the implementation of the 
rule are being developed. As CBP is defining the scope of the rule we 
will be in a better position to develop solid cost estimates.

    Mr. Fleischmann. Mr. Chairman, I am going to yield back. I 
have some more questions for later.
    Mr. Carter. Thank you.

                             CYBERSECURITY

    Mr. Frelinghuysen.
    Mr. Frelinghuysen. Thank you, Mr. Chairman.
    Mr. Secretary, it is a pleasure to welcome a fellow 
northern New Jersey resident before our committee. We share a 
common experience having lived the New York/New Jersey region, 
remembering quite acutely September 11, 2001. And I know in 
your testimony before the authorizers you sort of expressed 
some very heartfelt views as to why this new assignment is so 
important to you.
    Part of your new assignment, I guess this is a presidential 
directive, is to focus on the whole issue of cybersecurity. I 
note that in your written statement here, in the 2015 budget, 
you have $1.27 billion for Department of Homeland cybersecurity 
activities. Can you talk a little bit about those, what your 
priorities are for the use of these dollars?
    Secretary Johnson. Yes. I am determined to advance the ball 
on cybersecurity. DHS is the coordinator of the Federal 
Government's efforts in this regard. I am very aware of the 
cybersecurity threat that this Nation faces on the basis of my 
experience in national security, and I think we have got to do 
a better job. I think this subject matter in general is, 
because of the terms we use, impenetrable for a lot of people. 
And so one of my missions is to state the threat more clearly, 
in plain terms, so that the average American understands that 
this has to be a top priority.
    The $1.2 billion is across DHS, so that covers not just 
NPPD [National Protection and Programs Directorate], our 
national directorate, which has the core mission, but it also 
includes the components. So, for example, the Secret Service is 
the lead investigator in the Target store issue with the credit 
cards at Target. That is also cybersecurity. And so across DHS 
in its entirety there are a number of components invested in 
cybersecurity, which is how you get to that number.
    A large part of that number is the EINSTEIN System, where 
we protect the dot-gov world, which is about ready to deploy. I 
believe the request includes about $375 million for that, as 
well as response in the private sector and diagnostics, rapid 
response.
    Mr. Frelinghuysen. Can you talk a little about the private 
sector with all of the things that are happening out there?
    Secretary Johnson. Yes.
    Mr. Frelinghuysen. Issues of privacy. Certain carriers I 
think in many ways doing some courageous things. Where do you 
sort of stand? You have to penetrate, using your own terms----
    Secretary Johnson. Yes, you do.
    Mr. Frelinghuysen [continuing]. And educate the public, but 
in many ways we need working relationships with these entities 
here, some of whom have rightly grown suspicious and others of 
whom have been participants, perhaps not too willing. How do 
you handle yourself and your Department in terms of your work 
in this area, and how it is going?
    Secretary Johnson. The best we can do, I think the biggest 
thing we can achieve on behalf of the American public is 
building relationships, raising the trust with the private 
sector, with private business, with the average American, 
interfacing with best practices and the like. And we are doing 
that. I am personally committed to that. I am engaging with 
business leaders myself to talk to them about this problem and 
lowering some of the barriers.
    I agree that, with some of the unauthorized disclosures 
last year, there has been a lot of suspicion raised about our 
government's national security surveillance practices and a lot 
of public confusion about what we are doing and not doing, and 
we have got to restore some of that trust. So that is a big 
personal priority of mine.
    There have been efforts in this Congress at cybersecurity 
legislation, which I by and large support. I outlined in a 
speech a couple of weeks ago what I think our goals should be. 
I am glad to know that our authorizing committees are taking a 
renewed interest, because cybersecurity legislation will help 
to clarify for the private sector what we can do in support of 
its efforts and raise the trust factor.
    So I would like to work with the Congress on cybersecurity 
legislation to try to get us in a better place. But best 
practices, information sharing, rapid response, diagnostics, I 
think those are the keys with the private sector.
    Mr. Frelinghuysen. Thank you, Mr. Chairman.
    Mr. Carter. Mr. Kingston.

                 CUSTOMS AND BORDER PROTECTION OFFICERS

    Mr. Kingston. Thank you, Mr. Chairman.
    Mr. Secretary, could you give me the breakdown of those 
2,000 Custom and Border Patrol officers by location.
    Secretary Johnson. We are in the process of doing that 
right now, sir.
    Mr. Kingston. All right. Not to be unfriendly here, but how 
could you ask for 2,000 if you don't know where you are going 
to put them?
    Secretary Johnson. It is an overall assessment of what we 
need.
    Mr. Kingston. But where did that come from? Why 2,000? Why 
not 1,753 or 2,162? How did you come up with 2,000?
    Secretary Johnson. Well, first of all, I wasn't----
    Mr. Kingston. You inherited it. I understand.
    Secretary Johnson. I am responsible for it, obviously. My 
sense is that we are able to make an overall estimate based on 
where we know we have a need nationwide to get to that number.

                          PRECLEARANCE OFFICES

    Mr. Kingston. Okay. So it would be domestic then. You are 
saying nationwide. So they would be not overseas in 
preclearance offices, is that correct?
    Secretary Johnson. By and large, but some are and should 
be, in my judgment, devoted to preclearance overseas. I think 
that is very important.
    Mr. Kingston. How big do you think that number is?
    Secretary Johnson. Offhand, I don't know. We just opened a 
preclearance capability, as I am sure you know, in Abu Dhabi, 
and I think we need to continue to work in that direction.
    Mr. Kingston. So how many preclearance offices would we 
have in the Middle East?
    Secretary Johnson. We would like to have more. It depends 
upon an assessment of the security at each airport. And this is 
not something that will occur overnight, but I believe it is 
the general direction we should work in.
    Mr. Kingston. Where are the non-Middle East preclearance 
offices?
    Secretary Johnson. You mean airports?
    Mr. Kingston. Yes.
    Secretary Johnson. Doha comes to mind, for example.
    Mr. Kingston. No, non-Middle East.
    Secretary Johnson. Oh, non-Middle East. In Europe.
    Mr. Kingston. Are we not worried about placing so many in 
the Middle East?
    Secretary Johnson. The level of security at last-points-of-
departure airports tends to vary. Some are better than others. 
So I think we need to focus our preclearance resources in the 
airports that need a little more help and where the host 
government is willing to support us. So, for example, what we 
hope to have is a situation where the host nation, the host 
government will support our efforts and help pay for it. But it 
depends on the ability to work out an arrangement with the host 
government.

                             AVIATION FEES

    Mr. Kingston. And you proposed a fee for this, correct, to 
pay for this?
    Secretary Johnson. We propose that CBP, our customs efforts 
be funded in part--well, this is largely TSA [Transportation 
Security Administration]--through the increases. That is 
correct.
    Mr. Kingston. And the fees would go on an airline ticket, 
or where do the fees go?
    Secretary Johnson. Well, if you are talking about TSA, 
there is a fee that we propose that would be paid by the 
airline, and then there is the 9/11 security fee, and I think I 
am getting the terminology a little bit wrong, that is paid by 
the passenger who flies and who passes through TSA.
    Mr. Kingston. I think if I could get from you the breakdown 
of the 2,000, where they would go, and why, and the breakdown 
of the amount of money generated by the fees, and if that fee 
covers it, or if you are talking about fees partially covering 
it, and then how much money is already generated through other 
fees. I think that would be of interest. And I would also like 
to know what kind of congestion decrease there would be because 
of this.
    Secretary Johnson. Well, the allocation of the additional 
officers, my understanding, is still a work in progress, but we 
are almost done. The fees that I referred to a moment ago would 
go to helping to support TSA, not CBP. So the aviation 
infrastructure fee and the security fee would help to sustain 
TSA. Preclearance is a CBP function.
    Mr. Kingston. Okay. Well, thank you, Mr. Secretary, Mr. 
Chairman.
    Mr. Cuellar. Mr. Chairman, could I, just to make sure I 
understand the final question? When you said Border Patrol, you 
mean CBP, the men and women in blue. The men and women in green 
is Border Patrol. The men and women in blue is CBP officers. I 
just want to make sure.
    Mr. Kingston. I am talking about CBP.
    Mr. Cuellar. Okay, the men and women in blue, okay.
    Mr. Carter. Mr. Kingston, just for clarification, the Abu 
Dhabi preclearance facility is the only one anywhere in the 
Middle East. In Europe it is Dublin, Ireland--no, Shannon, 
Ireland. Shannon in Ireland, and then Canada, and some of the 
islands. But there are no others over on the European side 
except Shannon, is that correct? And the fee that they are 
talking about, the immigration user fee, on the Abu Dhabi 
issue, that is a fee that has been in effect since 1980. Now 
they are asking for an increase in that fee.
    Mr. Kingston. That is what I mean, the increase in fee.
    Mr. Carter. That has been a longtime established fee, just 
to clarify it.
    Mr. Kingston. Yes, sir, I know about the fee, but as I 
understand there is an additional fee that is being proposed.
    Mr. Carter. They are asking for an increase in that fee.
    Mr. Kingston. And do we know what that additional fee is?
    Secretary Johnson. It is to finance TSA.
    Mr. Kingston. But do we know what the fee is and how much 
it generates?
    Secretary Johnson. Well, the aviation security fee----
    Mr. Carter. Yeah, we know what they are, and we do know the 
increases. We have already explained to them we are not real 
excited about fees. These are not authorized. One of them is an 
authorized fee, immigration, but they all require 
authorization.
    Secretary Johnson. Correct.
    Mr. Kingston. Thank you.

                              LATE REPORTS

    Mr. Carter. You know, I talked earlier about the reports 
that we are supposed to get. There is about 20 of them. One of 
them, Mr. Secretary, is for the Coast Guard Capital Investment 
Plan or the Department's comprehensive acquisition status 
report. We don't have that. I am not trying to gotcha, but I 
would like to know when you are going to get that to us, 
because I have got a hearing tomorrow.
    Secretary Johnson. I have directed my staff to give you 
what we owe you and not delay. I think Congress should have 
what you need to help me.
    Mr. Carter. I ask that question strictly to make the 
point----
    Secretary Johnson. Yes.
    Mr. Carter [continuing]. That it is helpful to have that 
kind of information as we go into a hearing. It saves time.
    Secretary Johnson. Understood.
    Mr. Carter. It makes for more accurate questions.
    Secretary Johnson. Understood.

                         BUDGET PROCESS REFORM

    Mr. Carter. Going on to something else which you and I 
talked about when we first met. Mr. Secretary, we all note with 
interest the section of your testimony stating the need to 
reform the Department, namely, budget reform.
    Secretary Johnson. Uh-huh.
    Mr. Carter. First, I would like your opinion why you 
believe DHS' budget process needs reforming. Explain more in 
detail where you intend to start. I think that is very 
important. I, too, have an interest, as does Mr. Price, in this 
subject. We think we can always do better. And so I look 
forward to working with you on this. So I would love to have 
your information, and what your vision is, maybe for the 
benefit of the rest of the committee.
    Secretary Johnson. My impression is that the DHS budget 
process is too stovepiped. It is developed at the component 
level. We get the components' budget request and we react to 
that at the DHS level. We give it to OMB, and OMB gives it to 
you. And there are certain respects in which DOD cannot be a 
model for DHS.
    But I think we ought to start with defining what our 
overall mission is with regard to counterterrorism, border 
security, aviation security, maritime security. Define your 
mission at the DHS level, early in the process. And once you 
have defined the mission, you figure out the resources you need 
to fulfill a mission, and then you expect the components to 
meet those resource needs, paying attention to potential 
overlaps, gaps, inefficiencies.
    So I know from personal experience if you plan at the 
Department of Defense to have the capability to fight two major 
conflicts at once around the world, that is done at the Joint 
Staff level. You don't ask the Army, Navy, Air Force, Marine 
Corps to develop their own sense of what they need themselves, 
and then you react to that. So I think that we need to have a 
more centralized, mission-focused budget process that starts 
earlier in the budget cycle, that originates at the DHS level, 
and we are building that process now.
    And I want to work with the committee and get your advice 
on this as well, Mr. Chairman, because I do think that we can 
identify better efficiencies and inefficiencies if we do this.
    Mr. Carter. Well, I look forward to working with you on 
that because I have a real interest in that. You know, to be 
trite, we are the Congress and we are here to help. But 
seriously, we do want to work with you on it. We need to know 
what your needs are to help do this. And I think there is an 
interest among all of the members of this Committee, we have an 
interest in this.
    I will yield back my time.
    Mr. Price.

                          IMMIGRATION: REFORM

    Mr. Price. Thank you, Mr. Chairman.
    Mr. Secretary, as I said when we started, you have a tough 
job, and I would say that one of the toughest challenges is 
immigration enforcement. And it is tough because there is a 
significant amount of disagreement on this issue among the 
American people, and it is really one of the few issues where 
the members of this subcommittee don't regularly see eye to 
eye. I mean, we do have differences on this. And if you think 
it is bad on the subcommittee, wait until we get to the House 
floor. That is where we really see some of the differences 
emerge.
    So this discussion here today, we have focused on the 
detention bed mandate. I think that a mandate of this sort is 
very unwise. I have made this very clear. It conceivably forces 
ICE to detain individuals, at a significant cost to the 
taxpayer, who don't otherwise meet the criteria for detention.
    And then there is the question about the enforcement of 
immigration law, deportation. How do you prioritize, as any 
prosecutorial office would have to do, how do you prioritize 
your cases, your most dangerous individuals to focus on, and 
make the best use of limited resources?
    I would like to just invite you to reflect on this. How 
much, if at all, these dilemmas might be made more tractable, 
more resolvable if we had better data, more comprehensive 
information. We are working, as you know, at the staff level on 
this right now to get more detailed data on exactly how 
detention is working and how deportation is working, how we are 
enforcing immigration law. I don't think the best data in the 
world will bring us perfect consensus.
    On the other hand, we do find ourselves wondering. The 
example that Ms. Roybal-Allard brought up, how typical is that? 
I mean, is that really what we are dealing with in substantial 
numbers in terms of these specific decisions that are made on 
detention?
    I certainly wonder about deportation. We all hear about the 
anecdotes, about people who should have been deported who 
weren't, and even more, those who probably shouldn't have been 
prioritized who were, families that were broken up 
unnecessarily, the situation with these. I mean, some people go 
so far as to suggest, I don't think anybody on this 
subcommittee, but some of our colleagues go so far as to 
suggest there is really no difference, shouldn't be any 
difference between a DREAM Act student and a hardened criminal; 
that if you give priority to the latter, then that really is 
declaring amnesty. I mean, that is absurd, obviously. But there 
still are important differences.
    And here, too, we are not exactly certain what we are 
dealing with. The Department has data that suggests there has 
been an increasingly sharp focus on dangerous people for 
deportation, but we all know that that case is something less 
than airtight, and the reality is somewhat messy, and probably 
we would be better served by more precise data and more precise 
information about exactly what we are dealing with.
    I guess I am just asking you to reflect on that. How much 
would better data help you? I certainly think it would help us. 
And we might see disagreement narrowed if we knew exactly what 
we were dealing with here. So I do want to ask for your help in 
getting better information on this area, and particularly in 
this area of prosecutorial discretion, or the analogy to 
prosecutorial discretion in terms of the enforcement, the 
deportation decisions you are making, the decision about whom 
to go after, what you think improved data is going to show us 
in terms of how far you have come and how far you still need to 
go.
    Secretary Johnson. Mr. Price, I agree that informed 
judgment is always better than uninformed judgment. I would 
rather arm you with information so that we can have an informed 
discussion about the correct approach to immigration reform. As 
the immigration reform debate advances, I have had a number of 
Members of Congress, House and Senate, express similar 
sentiment to me, and I am committed to giving you the 
information you need. I had this discussion of a similar nature 
as recently as earlier today with some Members of the Senate.
    So if there is a specific request that this committee has 
with regard to data, with removals, priorities, I am happy to 
consider it, and I have pledged numbers of times to be 
transparent with the Congress on issues of this nature. 
Sometimes we have certain law enforcement sensitivity, so I 
might ask you to accept the information with certain 
protections and the like. But in general I agree with the need 
to provide the Congress with information of this type so that 
we can all make informed judgments.
    Mr. Price. Thank you, Mr. Chairman.
    Mr. Carter. Mr. Culberson.

                        DETENTION BEDS, REMOVALS

    Mr. Culberson. Thank you, Mr. Chairman.
    To follow up on the subject we have all been keenly 
interested in, of course, is the number of detention beds and 
the folks that you have here in the country that are not 
legally present. In 2013, Mr. Secretary, ICE deported 368,644 
convicted criminals and noncriminal immigration violators, all 
of whom met the definition of mandatory detentions. You have 
got a tremendous number of people here in the country who 
were--I was just looking for that number--folks who have, for 
example, that have been accorded due process, people who had 
entered the country illegally. They exhausted their appeal, 
they received a final order of removal, but they remain in the 
country in defiance of that order. At the end of July 2013, 
there were 872,000 individuals on ICE's docket in that 
category. They have gone through the whole process and they 
have been ordered removed, and the vast majority of those have 
just simply disappeared.
    So in light of that, what are the assumptions that you are 
making that would justify the agency recommending that you only 
need 30,539 detention beds since you obviously have plenty of 
customers?
    Secretary Johnson. A couple of comments. Obviously, not 
everyone among the 368,000 who were removed in fiscal year 2013 
had been held in detention for the entire time they were in the 
United States. A large part of that population was at liberty 
for some period of time, and then they were subject to our 
process and they were removed.
    The other point I would make is that a very large fraction, 
I don't know the number offhand, but a very large fraction of 
that 368,000 are basically border removals where they are 
apprehended in or around the border.
    Mr. Culberson. And the Border Patrol just takes care of it.
    Secretary Johnson. And they are given over to ICE, because 
either they can't be sent right back to Mexico or some other 
reason, so a lot of these are border removals where they are in 
the country for a very short period of time.
    We are criticized by some for the very high number of 
removals that are taking place right now. And so the end result 
of a process where somebody is detained who is not lawfully in 
this country who meets our priorities is a removal. And as you 
know, we managed to remove 368,000 people last year, and my 
understanding is that 98 percent of those fit within our 
removal priorities. So that is pretty effective.
    Mr. Culberson. But under the Obama administration more than 
half of those removals that were attributed to ICE were 
actually a result of Border Patrol arrests. They wouldn't have 
been counted in prior administrations.
    Secretary Johnson. Right.
    Mr. Culberson. So you really can't actually use that number 
in terms of when you say ICE has removed that number of people. 
Half of those, of course, were Border Patrol removals and they 
were never counted before. In fact, I think there is even a 
quote I saw from President Obama in 2011 that these statistics 
on removal are, in fact, I am quoting directly from his 
statement, ``These statistics are a little deceptive because 
what we have been doing is, with the stronger border 
enforcement, we have been apprehending folks at the border and 
just sending them back.'' That is counted as a deportation, 
even though they may have only been held for a day or 48 hours, 
sent back. That is counted as a deportation.
    That has never been done before in previous 
administrations. I have been on this subcommittee since shortly 
after it was created, and I know that the Bush administration 
never counted folks that were removed by the Border Patrol as 
being deported by ICE. And you have vast numbers of criminal 
aliens as well.
    So again, I just want to be sure for the record, if I 
could, and I appreciate the time, Mr. Chairman, would you 
please tell the committee what are the assumptions that DHS 
made that you believe justify reducing the number of detention 
beds from 34,000 to 30,539.
    Secretary Johnson. Two things. First, it is my 
understanding that 368,000 is the number removed by ICE. Now, 
it is the case that for various reasons, including reasons 
involving logistics, a larger number of people who were 
apprehended in or around the border then go to ICE custody. But 
the number 368,000 reflects those removed by ICE.
    The number 30,006 is our best judgment about where 
detention bed levels should be given who we believe needs to be 
detained in this process. That is our best assessment based on 
what our removal priorities should be, based on what we believe 
are national security, public safety threats. The number tends 
to hover around that number. I think it is a little higher 
right now as we speak, but it goes up and down. But that is our 
best assessment of who should be detained at any given moment 
in time.
    Mr. Culberson. You will provide that to the subcommittee 
and to the chairman and the staff, those assumptions, those 
numbers, to justify your request?
    Secretary Johnson. I believe we can do that.
    [The information follows:]

    Rep. Culberson: What were your assumptions to arrive at the 30,539 
detention bed funding level?
    Response: ICE began with the assumption that the use of costly 
detention beds should be based on operational need rather than an 
annual statutory mandate to detain a minimum number of individuals on 
average, regardless of need. ICE's operational need is generally based 
on two factors: 1) the number of individuals requiring detention 
pursuant to mandatory detention provisions (mandatory detainees), and 
2) the number of non-mandatory indivuduals who may present a risk to 
public safety if not detained. The detention of individuals that would 
otherwise not be detained (and who can be placed on alternatives to 
detention programs), except to meet the minimum statutory bed 
requirement, results in higher average daily costs to the government.
    Based on these assumptions, ICE reviewed the historical average 
number of aliens apprehended who were either mandatory detainees or 
non-mandatory individuals that presented a risk to public safety. 
Funding for an average of 30,539 detenition beds would meet ICE's 
operational needs, allowing ICE to maintain beds for mandatory and 
higher risk aliens, and providing flexibility to detain a level of non-
mandatory individuals that may present a risk to public safety.

    Mr. Culberson. Thank you very much.
    Thank you, Mr. Chairman.
    Mr. Carter. Ms. Roybal-Allard.

                            BORDER SECURITY

    Ms. Roybal-Allard. Mr. Secretary, one of the reasons that 
we are given for not passing a comprehensive immigration reform 
is that the majority believes that President Obama can't be 
trusted to enforce our laws. Yet, in the little over 4 years 
President Obama has been in office projections are that around 
early April deportations will have reached 2 million. And that 
is more deportations than during the entire 8 years of the Bush 
administration, and actually that 2 million deportation number 
exceeds the sum total of all deportations prior to 1997.
    Another excuse for delaying the passage of comprehensive 
immigration reform is that our borders must first be secured. 
And the fact is that under President Obama's leadership, and, 
frankly, the thoughtful work of this subcommittee, remarkable 
progress has, in fact, been made in securing our borders. We 
now have more than 21,000 Border Patrol agents, 651,000 miles 
of fencing, more than 300 remote video surveillance symptoms, 
and at least six drones deployed along our southwest border.
    In addition, due in part to these investments, the number 
of illegal entries into our country is at a 40-year low. And 
according to a 2012 report by the Pew Research Center, net 
migration from Mexico has fallen to zero.
    I have a three-part question. First of all, what does this 
record number of deportations tell you about the President's 
commitment to obey our laws? And what is your assessment of our 
border security? And based on that assessment, do you believe 
that we need to spend tens of billions of dollars more on 
border security before we can begin fixing our broken 
immigration system?
    Secretary Johnson. First of all, I agree with everything 
you said in the first part of your question. We are enforcing 
the law. We are enforcing the law vigorously and effectively, 
which results in the removal of more than 300,000 people per 
year over the last several years. We are using the resources 
Congress gave us to remove those we believe are threats to 
national security, public safety, and border security, and they 
result in the numbers that you see.
    At the same time, you are correct, the apprehension levels 
at the border have been going down recently. They have begun to 
spike up again slightly for various reasons. I suspect maybe 
because the economy in this country is getting a little better, 
they are beginning to spike up again.
    All of this to say that we are enforcing the law at 
unprecedented levels with the resources Congress has given us. 
And I believe that when it comes to border security, you have 
to be agile, it is an evolving task, in that border threats, 
challenges to border security, tend to migrate different 
places. If you focus resources one place, you have to be agile 
and be able to move your surveillance resources, your manpower, 
to another part of the border, the southwest border in 
particular.
    And so we have got to be vigilant. We have to be 
continually vigilant. I don't believe that we should have a 
standard of border perfection before every other aspect of 
comprehensive immigration reform kicks in because I believe as 
a matter of Homeland Security those who are here in this 
country undocumented should be encouraged to come out of the 
shadows, be accountable, pay taxes, and get on an earned path 
to citizenship, which as contemplated by the Senate legislation 
would take 13 years. So it is not going to happen tomorrow.
    But I believe that we should do that, we should continue to 
work on border security, which we are doing at unprecedented 
levels right now, as a part of an overall comprehensive 
package, and proceed on all of those fronts at the same time. 
So I agree with you.
    Mr. Carter. Mr. Frelinghuysen.

                          DISASTER RELIEF FUND

    Mr. Frelinghuysen. Thank you, Mr. Chairman.
    Mr. Secretary, in the past, I asked of your predecessor 
about the Disaster Relief Fund over the long term. And let me 
give a shout-out to Craig Fugate, a really good guy, 
nonpolitical person, who has done a really good job working 
with FEMA.
    The Disaster Relief Fund, pretty important to those of us 
in the Northeast and wherever there has been a major disaster. 
Your fiscal year 2015 budget includes $7.8 billion in the FEMA 
Disaster Relief Fund, including $2.9 billion for the cost of 
disasters that have already occurred, such as Hurricane Sandy.
    Based on the Disaster Relief Fund Annual Report, which I 
have a copy of here, which was submitted Friday, this is what 
the Department needs to respond to disasters during the fiscal 
year 2014 budget based on current spend plans and what we call, 
as you are aware, the 10-year averages.
    Your monthly report, which I have, states that you will 
carry over $4.6 billion into fiscal year 2014. Is the 
requirement of $7 billion for fiscal year 2015, or is it 
significantly higher? In other words, there are two reports, 
both submitted by your department, which seem to be somewhat in 
conflict. Can you provide a little bit of clarity?
    Secretary Johnson. Congressman, I would have to study the 
reports specifically that you are referring to to answer that 
question.
    My general understanding is that the request we made with 
regard to the Disaster Relief Fund, which is multiyear money, 
is sufficient to meet what we believe will be the disaster 
relief challenges. But I will take a look at those two reports 
to see whether there are any inconsistencies in that regard.
    [The information follows:]

    Rep. Frelinghuysen: Please review submitted reports (referenced by 
Rep. Frelinghuysen) on DRF funding levels and see if there are any 
inconsistencies.
    Response: The President's FY 2015 DRF request is consistent with 
the Budget Control Act requirements and available data. No known 
inconsistencies exist between reports that the Department has provided.
    While FEMA is currently reflecting a projected end of FY 2014 DRF 
balance, this balance is not carried into the FY 2015 budget request, 
based on previous, expected Hurricane Sandy projects costs related to 
the original Sandy supplemental funding. Thus, this carryover is 
expected to be used beyond the amount included in the FY15 Budget for 
the DRF ($7.033B).
    In the FY 2015 budget request, we included $3.912B for non-
catastrophic disasters (based on 10 year average), $2.871B for expected 
costs for previous catastrophic events; $1B for a disaster reserve, and 
a $596M appropriation request for the Base (in addition to recoveries).
    For the base request, we used the 10-year average for Surge, 
Emergencies, and Fire Management Assistance Grants, and our estimate of 
Disaster Reserve Spending (DRS) requirements.

    Mr. Frelinghuysen. During a debate on the floor on 
Hurricane Sandy, and it was my amendment, I took quite a lot of 
flak. One of the issues was--and this is understandable--FEMA 
is still working on programs and rebuilding from storms that 
occurred before Sandy.
    In the event of another disaster, considering Sandy and 
others that we are still cleaning up from, how would you 
prioritize spending between, sort of, immediate needs, Sandy 
projects that are under way, and past projects? Because there 
was quite a lot of angst and anger that we in the Northeast 
were getting this and other parts of the country weren't 
getting, shall we say, the remainder of what they needed to do 
their cleanups.
    How do you view that situation?
    Secretary Johnson. I think you have to--it obviously 
depends on the circumstances. Living in an area affected by 
Hurricane Sandy myself, and in a neighborhood--and there was a 
lot of damage done to my own yard--I know that there is a lot 
of angst about how slow that money has been in coming. A lot of 
that depends beyond a certain point on what the States are 
doing with the money, not the Federal Government. And how fast 
we are able to push out money like that, you know, it obviously 
depends on the circumstances.
    Could we do a better job? I suspect the answer is yes. 
There is always room for improvement. How you prioritize old 
needs versus new needs, I think, depends on the circumstance. 
And that is one of the reasons why it is multiyear money.
    Mr. Frelinghuysen. But do you still have carryover money 
which needs to be----
    Secretary Johnson. Yes.
    Mr. Frelinghuysen. Yeah, put to use. And that is something 
which you are committed to expediting its use to meet the needs 
of the people?
    Secretary Johnson. Yes, that is correct.
    Mr. Frelinghuysen. Thank you, Mr. Chairman.
    Mr. Carter. Mr. Cuellar.
    Mr. Cuellar. Thank you, Mr. Chairman.
    Secretary, again, I know you are new. And I have a lot of 
high hopes for you; you are smart. And we really appreciate 
looking--working with you.
    A couple points----
    Secretary Johnson. At some point, that excuse won't work 
for me any longer.
    Mr. Cuellar. At least for this appropriation hearing, it is 
going to work for you.
    But let me just say this----
    Secretary Johnson. I hope the newness hasn't reflected too 
much.

               CBP OFFICERS, PUBLIC-PRIVATE PARTNERSHIPS

    Mr. Cuellar. First of all, on the CBP officers, the men and 
women in blue, you know, for us on the border, we appreciate 
all the work that the men and women in green do, but, you know, 
having ports of entry, as you know, those men and women in blue 
are very important.
    And keep in mind, Members, that over 80 percent of all the 
goods and people that come into the U.S. come through land 
ports. And sometimes we don't tend to put that much attention. 
But in Laredo, my hometown, we handle 45 percent of all the 
trade between the U.S. and Mexico. That is over 12,000 trailers 
a day. So we appreciate the men and women in blue.
    Number two--and even though we have them there at the 
bridges, we appreciate that professionalism campaign. I think 
they were supposed to start that in Laredo and extend it out. 
As you know, if there is a bad apple comes in, you all do what 
you need to do. But the majority of those people coming over 
are coming over to spend money in the U.S.
    And I would ask you to--and I have been working with your 
office and Thomas Winkowski, a good person. But we have to make 
sure that they know if they are here to spend money, they are 
here, we have to treat them with a little dignity and respect, 
instead of thinking that everybody is a bad apple on that. And 
I would ask you to just check up on that.
    I would ask you to check up on something that the chairman 
and I and the committee worked on, and Senator Mary Landrieu on 
the Senate side, is the public-private partnerships on the 
infrastructure. I know there are five pilot programs for the 
service over time, but I am also asking you to look at the 
infrastructure. Because the Federal Government is not putting 
the money in. I think we need probably about $5 billion on 
infrastructure. I think that is one of the studies. We probably 
need 5,000 CBP officers. You know, we start off with 2,000; 
that is a pretty good start. But I would ask you to look at the 
public-private partnership, because we want to see men and 
women in blue, and also the infrastructure.
    The last point I would ask you to look at: Canada and the 
United States. I know we worked with Candice Miller on this. 
You know, on the northern border, the U.S. and Canadians work 
together, they do joint operations, and they do a lot of stuff 
together. And I am going to be sitting down with the chairman 
and the ranking member, Mr. Price here, and the committee to 
see if we can look at something similar with Mexico. I know 
that you are all doing a lot, and I am very familiar. But I 
would ask you to do that, to look at some of the joint 
operations. And I am familiar, they are doing some. But I would 
ask you to look at that, whether it comes to trade, tourism, 
even on the infrastructure, what they do, SENTRI lanes, fast 
lanes, what we do over here.
    And we have to make sure that we sit down with them on the 
other side. The head of customs, the Mexican customs, Alejandro 
Chacon, was here last week, and I am sure he met with you all. 
And, again, we need to do more coordination.
    So what we are doing with the Canadians I think would help 
us expedite trade, tourism, but at the same time secure the 
southern border also. And I know we have been working with the 
chairman and the ranking member, and we appreciate your 
support.
    Secretary Johnson. Thank you.
    Mr. Cuellar. Thank you.
    Mr. Carter. Mr. Kingston.

             STATE DEPARTMENT DIPLOMATIC SECURITY TRAINING

    Mr. Kingston. Thank you, Mr. Chairman.
    Mr. Secretary, the State Department requested from GSA a 
Foreign Affairs Security Training Center at the Army's Fort 
Pickett in Blackstone, Virginia. And, as I understand it, the 
authorizing committee were the ones who at first waved the flag 
on this. But the cost, the original cost, was $935 million. 
However, if they used the existing Federal Law Enforcement 
Training Center facilities, it would have been $272 million, 
you know, over a $600 million savings or difference. And then 
the scope of the operation was reduced, but it still is almost 
half to do it at the Federal Law Enforcement Training Center 
that is in existence, up and running and fully capable of doing 
this, than it is to create the new facility and training center 
at Fort Pickett.
    OMB, as you know, is looking at this right now. Do you know 
what their timeline is? And do you have any comments on the 
difference?
    Secretary Johnson. I don't know their timeline.
    This exact issue is something that I have talked to the 
director of FLETC about. The numbers you have cited are the 
numbers I understand to be the case, that we could support the 
State Department Diplomatic Security training mission at FLETC 
for about--by an expenditure of about $275 million, which is a 
lot less than a billion.
    Mr. Kingston. Yes.
    Secretary Johnson. And, frankly, that is--the purpose of 
FLETC is to be a training center for law enforcement protection 
services across the Federal Government. So this is, in my 
judgment, a perfect example of why you have a training center 
like FLETC.
    Additionally, if we bring a Diplomatic Security training 
capability to FLETC, that will work to the benefit of other 
Federal law enforcement agencies and departments.
    Mr. Kingston. Uh-huh.
    Secretary Johnson. I fully support having the State 
Department bring that mission to that center.
    Mr. Kingston. Do you know when OMB is going to make their 
final decision?
    Secretary Johnson. I don't know offhand, but I can find 
out.
    [The information follows:]

    Rep. Kingston: What is OMB's timeline for a final decision on FLETC 
conducting the State Department's Diplomatic Security Training?
    Response: OMB has been working with the Department of State to 
ensure that State's diplomatic security training requirements are met 
and to determine the best path forward to expand that training 
capacity, including assessing whether training capacity exists at other 
federal facilities. We expect a final decision on plans to expand 
training later in the spring.

                             BIGGERT-WATERS

    Mr. Kingston. Okay.
    Also, I wanted to submit--and I know we are all coming up 
on votes, Mr. Chairman--I wanted to submit a few questions on 
Biggert-Waters for the record. And some of it is past-tense now 
because we have another bill that has taken its place. But 
there was a requirement for FEMA to do a feasibility study on 
it before they implemented Biggert-Waters, and for some reason 
they bypassed that study. And I am not really clear as to why 
they would have.
    And I don't expect you to know offhand, so I would like to 
submit that to you for the record, Mr. Chairman, and a couple 
of other little follow-ups.
    Secretary Johnson. Just my understanding is that the money 
appropriated to do the study was not sufficient, which is why 
we couldn't do it.
    Mr. Kingston. Okay. Well, I may want to flesh that out a 
little bit, but I appreciate your sensitivity of that, because 
you know what it did to the coastal areas.
    Thank you very much, Mr. Secretary.

                       MORALE, FILLING VACANCIES

    Mr. Carter. Mr. Secretary, we are going to conclude this 
hearing today. Before we do, I am going to point something out 
to you. There are several suggestions about morale, and you and 
I had a conversation--you and I and Mr. Price had a 
conversation about the vacancies. I want to commend you for the 
vacancies--in that you have built a fire under the White House 
to get these done. I hope you will keep that fire burning. I 
think the leadership of having permanent people in positions--
and I think you agree on this--is very, very important to the 
morale of the people.
    I commend you also for being a man who says, ``I take 
responsibility.'' That is rare before this Committee, in many 
instances, and I appreciate that. And that is the kind where we 
are going to call on these new people that get these 
appointments to be responsible for the leadership position that 
they have been awarded. So thank you for that, and I hope you 
are going to stick with that because we need it.
    Secretary Johnson. Yes, sir.
    Mr. Carter. Thank you for this hearing and for being here. 
Your candor was much appreciated. And we look forward to 
working with you in the future.
    Secretary Johnson. Thank you, sir. Thank you.
    Mr. Carter. Unless there is anybody who has any other 
business, we will adjourn.
    Secretary Johnson. Thank you.

[GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]


    
                                         Wednesday, March 12, 2014.

                       UNITED STATES COAST GUARD 

                                WITNESS 

ADMIRAL ROBERT J. PAPP, JR., COMMANDANT, UNITED STATES COAST GUARD

                     Opening Statement: Mr. Carter

    Mr. Carter. All right. This subcommittee will come to 
order. Today we will have a conversation with the Coast Guard.
    Admiral, thanks for testifying before us today. As you 
prepare to retire from the United States Coast Guard this May, 
no one can doubt your dedication to the service, nor that 
Active Duty military civilians that you command honor and 
respect you. Thank you for your service, and thank you for 
being with us with what could be your last time to appear 
before this committee.
    Admiral Papp. Yes, sir.
    Mr. Carter. We have personally enjoyed very much working 
with you. And we wish you, as they say, fair winds and 
following seas.
    Admiral Papp. Yes, sir.
    Mr. Carter. So that your retirement may be a joy to you.
    But before we wish you these greetings, it is time for us 
to talk about this budget request.
    The budget request for this fiscal year is a proposal that, 
one, cuts almost 750 Active Duty full-time positions; 
decommissions 2 high-endurance cutters, 8 patrol boats and 
numerous air assets; reduces operational flight hours and 
cutter hours; and squanders $30 million in savings per year by 
dragging out the acquisition of the Fast Response Cutters. 
Instead of supporting frontline operations or maintaining and 
supporting mission requirements, this budget submission 
severely diminishes current and near-term as well as future 
capabilities.
    Admiral, this budget is one that we cannot accept. We fully 
understand the challenge you face in balancing a shrinking 
budget while also trying to take care of Coast Guard families, 
sustaining operations with aging assets, and recapitalizing for 
the future. This is no small task in today's fiscal 
environment, but the Congress and this Subcommittee in 
particular has never supported a plan that so bluntly guts 
operational capabilities and that so clearly increases our 
Nation's vulnerability to maritime risk, including more illegal 
drugs.
    Admiral, we know you have a tough job. That is precisely 
why we are relying on you to explain how this budget meets our 
Nation's needs for both fiscal discipline and robust security, 
and, perhaps more importantly, how it doesn't.
    Before I turn to the Admiral for his statement, let me 
recognize my distinguished Ranking Member for any remarks that 
he may have. Mr. Price.
    [The information follows:]

[GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]


    
                      Opening Statement: Mr. Price

    Mr. Price. Thank you, Mr. Chairman.
    Admiral, let me add my word of welcome. We are glad to have 
you before the subcommittee today to discuss the Coast Guard 
budget request for fiscal 2015. And we know this may well be 
your last appearance, at least in this format, before this 
subcommittee, so I want to add my thanks for your service. You 
have rendered first-rate service, and you have certainly been a 
pleasure to work with as we have gone through numerous funding 
and policy issues over these recent years, so your service is 
exemplary to the Coast Guard, to our Department of Homeland 
Security and to the Nation.
    Your budget request is for $8.1 billion in discretionary 
funding. That is a cut of $364 million, as you know, or 4.5 
percent from your current year appropriation. The proposed 
funding level does improve on last year's request, but it is 
still far below what is needed, and I suspect you may feel the 
same way.
    In addition, we have still not received the 5-year Capital 
Investment Plan, which is supposed to be submitted along with 
the budget request. This late submission of the CIP has become 
a perennial problem, and it appears to reflect a continuing 
mismatch of expectations between the Coast Guard and the 
administration regarding the Coast Guard's future.
    Admiral, I suspect you have done your due diligence on the 
CIP, but to those who are here representing the White House and 
OMB, we cannot continue this game of underresourced budget 
requests that requires to divert funding from other parts of 
the bill to make the Coast Guard acquisition budget reasonable.
    And I say that as someone who is sympathetic with the 
administration's larger dilemma in terms of the occasions 
that--the things we have been through in budgeting in recent 
years with sequestration, with shutdowns, with these 
unreasonable appropriations cuts again and again. This has left 
the administration with a lot fewer options than it should 
have. At the same time, for the Coast Guard to bear the brunt 
of this, or to bear such a disproportionate share of this, I 
think, can't go on. We have really got to do better, and so our 
subcommittee is going to be tasked with doing better both on 
the acquisitions side and on the personnel side.
    The acquisition budgets are long-term propositions; they 
require long-term budgeting. We can't have a reasonable 
discussion this morning about recapitalizing the Coast Guard 
fleet without the CIP. There is no excuse for withholding, the 
administration withholding, the 5-year budget for Coast Guard 
acquisition until after the Coast Guard hearing.
    Now, we have withheld $75 million from the Coast Guard 
Headquarters budget until the CIP is submitted, but that is 
apparently not applying leverage in the right place. The 
underlying problem is that the Coast Guard's mission needs as 
they are currently defined are not supported by the acquisition 
budgets the Coast Guard is allowed to put forward. Either the 
budget requests need to increase, or the missions needs to be 
rescoped. We need to resolve that disconnect sooner rather than 
later.
    The fiscal 2015 request for acquisition, construction and 
improvements is $291.4 million, or 21 percent below the fiscal 
2014 level. Compared to fiscal 2010, the proposed fiscal 2015 
funding level would represent a nearly 30 percent reduction in 
ACI funding.
    Admiral, you said before that in order to properly 
recapitalize the Coast Guard fleet, you would require at least 
$1.5 billion a year, yet here we sit again with a request that 
obviously does not address the known needs of the Coast Guard.
    In addition to recycling a flawed acquisitions budget, this 
budget request repeats another proposal from last year to 
significantly reduce the Coast Guard workforce. Under the 
fiscal 2015 budget request, you would be down to 49,093 
positions by the end of the fiscal year. That is a reduction of 
nearly 1,200 positions below fiscal 2013, more than 800 
positions below the current year. Perhaps the proposed 
attrition is justified by the more efficient use of personnel 
and assets, but we want to know that. We want to know how these 
personnel losses would affect your operational capacity.
    Admiral, we know the Coast Guard is committed to doing its 
part to find savings in these lean budget times. We also know 
you are committed to ensuring that the Coast Guard is able to 
do more with less. But the Coast Guard has a critical set of 
missions that require a certain level of resources. We need to 
know if fiscal pressures have up-ended the balance between 
them.
    As you can see, we have a number of topics that need to be 
explored in depth this morning. I look forward to our 
discussion.
    Thank you, Mr. Chairman.
    Mr. Carter. Thank you, David.
    [The information follows:]

[GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]


    Mr. Carter. And, Admiral, we have your written statement, 
and we are going to have that entered into the record, and we 
ask you in the next 5 minutes to give us a summation of your 
position on this budget.

                    Opening Statement: Admiral Papp

    Admiral Papp. All right. Well, thank you, Mr. Chairman. I 
do have just a few comments and thoughts to expand upon some of 
the details in the written statement. And first of all, let me 
thank you for the very kind remarks, and to Mr. Price as well 
for your kind remarks, and outlining all the challenges that we 
face. And to the other distinguished members of the 
subcommittee, thank you for having me up here this morning.
    It has been an honor for me and a privilege to represent 
the men and women of the Coast Guard for the last 4 years, and 
in particular before this subcommittee, because you have done 
something that is near and dear to my heart. You have provided 
support for my Coast Guard people, and I will be eternally 
indebted to all of you for the hard work that you have done 
behind the scenes to make sure that our Coast Guard people are 
taken care of.
    I want to thank you also for the support that you provided 
in the Consolidated Appropriations Act of 2014. That act helped 
to relieve the erosive effects that we were suffering under 
sequestration. It restores frontline operations, it gives us 
badly needed training hours, and it eases some of the personnel 
management restrictions that we had to place on our people over 
the last year.
    I would also like to take this opportunity to thank 
Secretary Johnson publicly. Even in the short time he has been 
our Secretary, he has gone in feet first, hit the deck running, 
and I think, as you probably saw yesterday, he has fought for 
the Coast Guard to make sure that our people get the right 
tools and that we continue with our recapitalization, and that 
battle will continue. And it has to, because America is a 
maritime Nation. We rely on the safe and secure and free flow 
of goods across the seas and into our ports and waterways. And 
I have always firmly believed that a measure of a nation's 
greatness is its ability to provide safe and secure approaches 
to its ports. And we need this system of uninterrupted trade, 
because it is the lifeblood of our economy.
    And you can see it in the great work that our Coast Guard 
is doing today on the Great Lakes, where our cutters have been 
working in some of the heaviest ice in 30 years on the lakes. 
The icebreaker Mackinaw recently completed almost 2 straight 
months of continuous icebreaking in the passages of the Great 
Lakes, providing escorts and direct assistance to commercial 
traffic, and validating a decision made by Congress 15 years 
ago to build that icebreaker.
    You can also see it in the work that we do to secure our 
maritime borders. During 2013, the Coast Guard interdicted over 
2,000 migrants attempting to illegally enter our country, and 
we deterred countless others. Our new Fast Response Cutters, 
the FRCs, which you had so generously supported, are becoming 
the workhorses of our interdiction operations in the approaches 
to Florida and Puerto Rico, and they continue to be delivered 
on time and on budget.
    Every day our Coast Guard acts to both prevent and respond 
to an array of threats that, if left unchecked, would impede 
trade, weaken our economy, and create instability. And these 
threats disrupt regional and global security, the economies of 
our partner nations, and access to both resources and 
international trade. All these are vital elements of our 
national prosperity and in turn, then, our national security.
    In previous testimony I used the term ``layered security'' 
to describe the way the Coast Guard and DHS counters maritime 
threats facing the United States. This layered security first 
begins in foreign ports and then spans the high seas, because 
the best place to counter a threat is before it reaches our 
borders. It then encompasses our exclusive economic zone, the 
largest exclusive economic zone at 4.5 million square miles, 
and it continues into our territorial seas, our ports and our 
inland waters.
    Our Nation faces a range of risks and vulnerabilities that 
continue to grow and evolve. We continue to see persistent 
efforts by terrorists and transnational criminal networks to 
exploit the maritime environment. The global economy is 
spurring investment in even larger vessels to ship goods across 
the seas, and the Arctic is seeing exponential increases in 
traffic and human activity.
    The work to address these challenges is done by a committed 
Coast Guard, which faces these risks every day. Earlier this 
year I was reminded once again of the dangerous work that my 
people do as Deputy Secretary Mayorkas and I attended a 
memorial service for Boatswain's Mate Third Class Travis 
Obendorf of the cutter Waesche. Petty Officer Obendorf was 
mortally wounded during a rescue operation in the Bering Sea, 
and his death, as if I didn't need it, provided a fresh 
reminder that downstream of every decision we make down here in 
Washington, there are young men and women out there serving, 
who are often cold, wet and tired, who take the risks to make 
sure our country is secure.
    It is the Coast Guard's responsibility to detect and 
interdict contraband and illegal drug traffic, enforce U.S. 
immigration laws, protect valuable national resources, and 
counter threats to U.S. maritime and economic security 
worldwide, and it is often the most effective to do this as far 
as from our shores as possible. So a capable offshore fleet of 
cutters is critical to the layered security approach, and it is 
the area that gives me the most concern.
    Our fleet of major cutters has reached obsolescence and is 
becoming increasingly expensive to maintain. The average 
Reliance-class medium endurance cutter is 46 years old, and the 
oldest of them turns 50 this year. In fact, I sailed onboard 
one of these cutters, the Valiant, then home-ported out of 
Galveston, Texas, as a cadet at the Coast Guard Academy. By the 
time I received my commission, the ship was nearly a decade 
old, and due solely to the determination of our cuttermen, 
naval engineers, and a modernized mission support system, 
Valiant will still be sailing when I leave the service after 
nearly 40 years of service.
    So as good as our people and support systems are, this is 
no longer supportable. And I am fully aware of the fiscal 
constraints we face as a Nation, but we must continue to 
support recapitalization of our offshore fleet of cutters.
    Two weeks ago we awarded the preliminary contract design 
contracts for our offshore patrol cutter, and I am committed to 
working with the Department, the administration and you in the 
Congress to ensure we continue to provide safe and secure 
approaches to our ports in an affordable and sustainable 
manner.
    Over the past 10 years, we have rebuilt our acquisition 
force. It has become a model for other similar-sized agencies 
across government. In fact, it has been an award-winning 
acquisition for us, winning four of five awards from the 
Department of Homeland Security. This last year we are the only 
military, the first military service, to achieve a clean 
financial audit, which required at least a decade of hard work 
from my people.
    So we now sit at a critical point where we have the vital 
necessity to recapitalize the fleet, we have our financial act 
in order, and we have reformed all our acquisition procedures 
to be the best in government. All we need now to continue on is 
stable and predictable funding. Any acquisition expert will 
tell you you have to have this stable and predictable funding.
    So as the Nation's maritime governance force, the Coast 
Guard possesses unique authorities, capabilities and 
partnerships, coupled with capable cutters, aircraft and boats 
operated by highly proficient and dedicated personnel. We 
maximize those authorities and capabilities to execute a 
layered security throughout the entire maritime domain. We are 
a ready force on continuous watch with the proven ability to 
surge assets and our people to crisis events wherever they 
occur.
    So I want to thank you once again for this opportunity to 
testify today, and I look forward to all your questions.
    Mr. Carter. Thank you, Admiral.
    [The information follows:]

[GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]


    Mr. Carter. I am going to start off with the first 
question, and it shows how great minds work alike. David's 
comments in his opening statement basically consumed the vast 
majority of the first question I was going to ask you about.
    This issue of the CIP is very important to us, and we have 
raised this issue with the Coast Guard. When the full committee 
chairman was the chairman of this committee, Mr. Rogers went to 
war with the Coast Guard over this issue. We don't want to go 
to war with the Coast Guard over this issue, but we need to 
know why the Coast Guard has failed again to comply with the 
law and give us the CIP as is written in the law. Have you got 
any explanation for why? And then following on that, I want to 
know when we are going to have it.
    Admiral Papp. Sir, it is my fault, and you rightly hold us 
accountable for that. And if there is any delay, it is because 
I have been obstinate in making sure that the administration 
knows the needs of the United States Coast Guard. It is not my 
job at first to fit the Coast Guard within a budget; it is my 
job to look at what we need now and what we are going to need 
10, 20, and 30 and 40 years from now. There is only one person 
who has that responsibility, and that is me.
    So there is, I would say, a robust discussion that goes 
forth, first of all with the Department, and the Department has 
been very supportive, and then we work with the Office of 
Management and Budget, and at some point we come to an 
agreement. But what I would say is we have been fighting for 
everything that we need to try and get it in that 5-year plan, 
and there are disagreements. That is, I think, the most polite 
way I can put it. And at the end of the day, we will finally 
get to a point where we come to agreement, I am told this is 
what you are going to get, you have to fit your acquisition 
plan within it, and I think we are at that stage now.
    The Secretary has committed to making sure we get reports 
on time. We have forwarded it to the Department, it has been 
forwarded on to OMB, and we will work as hard as we can to make 
sure you get it as soon as possible.
    Mr. Carter. Well, we need a date. Can you give me a date?
    Admiral Papp. I cannot give you a date, no, sir. But we 
will find out.
    Mr. Carter. Try within the next couple of days to come back 
to me with a date.
    Admiral Papp. Aye, sir.
    Mr. Carter. Notify somebody and give me a date so we can 
have that. And if we have to go talk to others who are throwing 
up roadblocks, I think it is time for us to start considering 
that. Cutting your budget is a way we could do things, but we 
may be able to influence the budgets of others if they are not 
willing to comply, because, quite honestly, we are trying to 
run a very professional subcommittee here where we have all the 
information available as we start to consider each budget, and 
we are having very poor success with all the departments, not 
just the Coast Guard, in meeting this obligation.
    This is not a policy I established. This policy has been 
established for quite some time in this committee. When David 
was chairing this subcommittee, he was fighting this battle, 
and it is getting a little tiresome to start off every year 
with anybody that we meet asking the same question: Where is 
it?
    This is the policy. I am not just picking on you. This is a 
speech for every department head that fails in this mission. 
This is one of the missions we expect in order for us to be 
good appropriators. And I thank my colleague Mr. Price for 
raising this issue. And I want within the next couple days, 
let's say--what is today, Wednesday? The 12th? By the 14th.
    Admiral Papp. Aye, aye, sir.
    Mr. Carter. 15th at the latest. Okay? That way we have 
something to shoot towards. Then I want to know if there is 
something that has come up because this is something that we 
are trying to impress upon everybody. Everybody in the room 
that is involved in this, this is important to this 
subcommittee. It has been since I have been on it, and I have 
been on it a pretty good while. That is the first thing I 
wanted to talk about.
    Let's start talking about our gaps that may be in this 
bill. I don't have to tell you that the Coast Guard's efforts 
to interdict drugs being smuggled from the source in transit 
zones are vital to our security, however, this fiscal year 2015 
budget will actually diminish your current drug interdiction 
capabilities by cutting operational flying and patrol boat 
hours on our new assets, decreasing personnel, and 
decommissioning aircraft and cutters.
    Admiral, can you discuss how these cuts will reduce our 
current drug interdiction capabilities and how the Coast Guard 
will mitigate the impacts of the cuts?
    Admiral Papp. Well, yes, sir. You can see an example of it 
what happened this past year in fiscal year 2013. With the 
effects of sequestration, we placed a 25 percent operation 
reduction across the service. We kept up our search and rescue 
activities and our port security activities, but the bulk of it 
had to come out of the accounts that are the most expensive, 
fueling the ships and putting them out to sea, so that the bulk 
of the reduction was in the transit zone, drug interdiction 
operations and the migrant operations.
    And you can see when you look at the metrics, we did 
approximately 30 percent worse in terms of cocaine 
interdictions this past year because of the effects of cutbacks 
of sequestration, we did about 30 percent worse in marijuana 
interdiction, and our interdictions of migrants, even though 
the flow was up, we had fewer interdictions this year. So there 
is a direct correlation between the reductions in operations 
and more drugs and more migrants getting through.
    We will see an improvement in that, because we won't have 
sequestration, so we are able to restore most of our flight 
hours and our ship and boat hours, but still there is 
approximately a 3 to 5 percent reduction across all program 
areas this year because of what we call efficiencies across our 
operating accounts.
    Mr. Carter. Well, I am sure that you know this because you 
have experienced it, but as we have these ongoing national 
discussions on our southern border, as an example, but on all 
of our land borders, as in the State of California, we secured 
the border with double fencing, speed corridors and all the 
things we have requested in the San Diego sector. We secured it 
down to the waterline, and now they are in the water. These are 
determined people that are determined to smuggle drugs and 
people into the United States, and now they are out in their--I 
forget the name of those boats. What do they call them?
    Admiral Papp. Pangas.
    Mr. Carter. Yeah, pangas. They are out in their pangas, and 
they are running up and down the coastline and going way out 
and coming in in the State of California, because they refuse 
to be denied this market of people and drugs. And I don't know 
if the American people realize that the enemy in the drug wars 
never stops. They will find alternate sources, when we plug one 
hole, they find another one. And we can't lose our sea 
operations.
    And, yesterday Chairman Rogers pointed out to Secretary 
Johnson that we have a 5-year low in cocaine interdiction last 
year.
    Admiral Papp. Yes, sir. That is true.
    Mr. Carter. And that is what you just were talking about. 
You know, and we are a frontline-troops-oriented subcommittee. 
Mr. Price just made that statement. We want operations to work. 
And I agree wholeheartedly, and so does everyone on both sides 
of the aisle in this subcommittee. We are about making the 
Coast Guard have the capability of doing its job, and we will--
but we struggle with that, and that is one of the reasons we 
need this long-term look at the Coast Guard every time we have 
this hearing. And part of doing the work of making that report 
is to have others start to look into the future, as I know you 
do as part of your job, Admiral.
    Admiral Papp. Yes, sir.
    Mr. Carter. All right. I will yield back and yield to Mr. 
Price.
    Mr. Price. Thank you, Mr. Chairman.
    Admiral, I appreciate your account just now given in 
response to the chairman about the reductions in operations 
that you were forced to absorb as a result of sequestration, 
and of course you gave this by way of reference to some of the 
constraints, reductions that are contained in your present 
budget. All this is part of a bigger picture, and as you say, 
this budget this year is an improvement on sequestration, but 
you didn't say, I will say, it is not enough of an improvement. 
We are still constrained in ways that are really going to make 
it very hard for the Coast Guard to do its job.
    Now, as I said, in my opening statement, all of this traces 
back to this dysfunctional approach to budgeting that has 
become the norm in the House especially, going to 
appropriations again and again and again while we leave the 
main drivers of the deficit, namely tax expenditures and 
entitlement spending, leave those things largely unaddressed. 
And although we are happy to have a bipartisan agreement that 
for at least 18 months gets us back to something like the 
regular order of appropriating, you are locking in levels here 
that still are inadequate, and that are very, very 
disproportionate in terms of the comprehensive approach to 
budgeting that we should be taking in this country.
    Now, having said that, the question remains, what is the 
Coast Guard's relative position within this larger budget 
picture? And while the larger budget picture gives us some 
understanding of the constraints and difficulties the 
administration is facing, it by no means absolves the 
administration of the kind of responsibility we have talked 
about here this morning for getting this long-term plan in 
place and also sending a budget up here that is commensurate 
with your responsibilities and your needs. And so let me just 
ask you to focus in a little further on the personnel side of 
this.
    The budget request proposes 49,000 positions by the end of 
the fiscal year. That is a net reduction of nearly 1,200. It is 
800 below the current year; 1,200 below 2013, 800 below the 
current year. Now, most of those are military positions, as I 
understand. There is some mitigation with nearly 500 new 
positions, but you can tell us how all that nets out. The 
budget justifications identifies 451 of the lost positions. 
More than a third is associated with efficiencies. I wonder if 
you could tell us what that means. They are spread among the 
vessel-boarding and search teams, fixed-wing aircraft, H-2 
navigation, and the decommissioning of certain assets.
    What do those efficiencies look like? What will that mean 
in terms of your ability to carry out key missions, key 
activities; what are we going to be doing less of, in other 
words? What about those other lost positions? Some of this is 
attributable to the more efficient crewing of newer assets, for 
example. So let me stop there and ask you to elaborate on these 
personnel numbers.
    Admiral Papp. Yes, sir. You used a great term when you had 
your opening statement. You suggested that perhaps missions 
will need to be rescoped. And what I would suggest is we are 
rescoping missions all the time. Many times when I have come up 
before this committee, we talk about a patrol boat gap. Well, 
we have a gap because what we do is across all our mission 
areas for all our assets, we do something which--I got this 
theme from Vince Lombardi. Vince Lombardi when he talked to his 
teams said, we will pursue perfection knowing full well we will 
not catch it, but in the process we will catch excellence.
    So what we do is we go across all our mission sets, look at 
our assets, and we determine how many hours we need for 
aircraft, boats and ships; but at the end of the day, we can 
only provide so much, so that creates a gap across all 
missions. And throughout the year the operational commanders 
take those scarce resources; they may have to switch them 
between missions. For instance, you can take the same ships and 
use them for drug interdiction, the ones that we are using for 
migrant interdiction, but you are always going to have a gap 
out there, because we set our goals based upon an unconstrained 
environment, and then we have to deal with the realities.
    The realities are as we have progressively--I think our 
high-water mark was fiscal year 2012. As we have been squeezing 
down over the last three budget cycles, we take what we call 
efficiencies. What it means is we have fewer people out there 
to do the jobs, and we either have to cut back jobs, or we make 
the remaining people work harder.
    In the case of the vessel-boarding search-and-seizure 
teams, the VBSS teams that are distributed, those are something 
that we created because of needs after 9/11 to go out and 
inspect vessels at sea before they come into our ports. We can 
train them to become highly proficient, because that is what 
they do.
    As we squeeze down and we lose budget authority, we look 
for places where perhaps other people can do that job. So we 
will take some of our conventional organic forces from our 
stations, and we will put together teams that will go out and 
do that, but it means taking them off other duties or perhaps a 
team that is not quite as qualified and not quite as 
proficient. We might be able to take our deployable specialized 
forces teams, which are used for security in the ports, and put 
together teams and send them out.
    It is just going to make it a little more difficult for us 
to provide the service that we think--and we fall further below 
those program goals that we set for ourselves. It is the same 
with our ships and our aircraft as well. As the budget squeezes 
down, as we decommission units, it means that across our 
mission set, we fall a little further behind. Where Lombardi 
talked about perfection and achieving excellence, we shoot for 
perfection, but we might be just achieving very good instead of 
excellent across those mission sets.
    So that is what this gradual squeeze-down is doing to us. 
It doesn't become readily apparent early, but we will have 
lagging indicators of squeezing down, because in the future, 
and one of the things I am very concerned about is my highest 
priority has been a focus on proficiency and making sure our 
people are prepared to do their jobs in dangerous conditions. 
We lost a number of people before I came in as Commandant, and 
my goal was to turn that around. We have done that, but now we 
are going back in the other direction where we perhaps won't be 
able to focus on that proficiency.
    Mr. Price. Thank you, Mr. Chairman.
    Mr. Carter. Mr. Fleischmann.
    Mr. Fleischmann. Thank you, Mr. Chairman.
    Admiral, it is a great privilege and honor to have you 
before us today. As you and I spoke earlier, Chattanooga has a 
great history of celebrating our Armed Forces Day and Armed 
Forces parade, many years going on unbroken. And last year I 
had the privilege to be there when we honored your great 
branch, the United States Coast Guard, and it was just an 
outstanding day, sir. So I thank you for your service, and 
thank you for the Coast Guard and for your great presence in 
our district, particularly in the inland waterways, which are 
so important. So I thank you for that, sir.
    I have some questions. My understanding is that the High 
Endurance Cutter fleet is over 25 years old, sir, and it is in 
dire need of replacement. I understand the President's budget 
includes funding for the eighth and final National Security 
Cutter. Is that correct, sir? And what is the status of the 
cutters that are under contract, and when will they deliver, 
sir?
    Admiral Papp. Just a slight technical correction. They are 
not 25 years old. The High Endurance Cutters are 45 or older. 
They are approaching 50 years of age. And just as a means of 
comparison, the Navy generally decommissions ships after about 
25 years. They figure 25-year service life. We tend to get 
double that out of our Coast Guard cutters, not because we want 
to, but because we have to.
    And you are correct. This budget would provide the 
construction for the final National Security Cutter, the 
eighth. Those eight ships replace 12 that we have had in 
service since the late 1960s, early 1970s. And the budget also 
calls for decommissioning two of those older ships this year.
    The eight cutters, we are just about to take delivery on 
the fourth, and that will be commissioned in December. The 
fifth is going to be christened this summer and then will be 
brought into commission in fiscal year 2015. And then six and 
seven, they are all construction activities going on. I don't 
have the exact date, but we can provide that for the record for 
six, seven and eight.
    Mr. Fleischmann. Thank you, sir.
    [The information follows:]

    General Question Asked: Provide the status of the Coast Guard's 
National Security Cutters currently under contract, as well as their 
projected delivery dates.
    Coast Guard/Admiral Papp response: The U.S. Coast Guard's National 
Security Cutters (NSCs) 4, 5, and 6 are currently under construction. 
NSC 4 is scheduled for delivery in the fourth quarter of FY 2014. NSC 5 
is scheduled for delivery in the third quarter of FY 2015 and NSC 6 is 
scheduled for delivery in FY 2017. The U.S. Coast Guard awarded the 
production contract for NSC 7 on March 31, 2014.

    Mr. Fleischmann. I understand that NSCs number one and 
number two are operational on the west coast. What do the 
capabilities of these cutters bring to the Coast Guard, and how 
do you see these being used in the future?
    Admiral Papp. Actually, one, two and three are fully 
operational, Bertholf, Waesche and Stratton. They are our high-
end cutter. They are the ones that are capable of operating in 
the Bering Sea, in the far reaches of the Pacific.
    A lot of our people from our country don't realize that 
that 4.5 million-square-mile exclusive economic zone surrounds 
the Hawaiian Islands, it surrounds our trust territories 
throughout the Pacific. We have the United States' sovereign 
responsibilities throughout the entire Pacific. We need ships 
that have long range, good seakeeping capabilities, can launch 
and recover helicopters and boats, and provide safety and 
comfort for the crews that operate them. And they have to range 
from the South Pacific all the way up to the Arctic Ocean, 
which is another topic which we could expand upon.
    Our mission space is not getting smaller, it is getting 
bigger. As the arctic ice recedes, we have to be up there every 
summer now because of the increase in human activity. National 
Security Cutters are the ones that will carry out that mission 
in those most harshest of environments. And they are also 
equipped and prepared to be interoperable with the United 
States Navy. They serve as an auxiliary force that can 
complement the Navy. The Navy provides weapons and sensors 
through their budget process, and we maintain them onboard.
    Mr. Fleischmann. Chairman, do I have time for another 
question, sir?
    Mr. Carter. No. Time is out.
    Mr. Fleischmann. I yield back. Thank you, Admiral.
    Mr. Carter. Ms. Roybal-Allard.
    Ms. Roybal-Allard. Commander Papp, I want to join my 
colleagues in thanking you for your outstanding service to our 
country.
    Admiral Papp. Thank you.
    Ms. Roybal-Allard. And I would like to commend you for your 
groundbreaking efforts to combat sexual assault in the Coast 
Guard. Under your leadership, the Coast Guard created the 
Special Victims Counsel and Advocacy Office staffed with 
trained attorneys dedicated to supporting and representing 
victims of this horrific crime throughout the entire process of 
holding the perpetrator accountable. In fact, it is my 
understanding that the Department of Defense is following the 
Coast Guard's lead and establishing similar victim advocacy 
programs across the military services.
    Can you please elaborate on the impact that this program 
has had on the Coast Guard and its shipmates, and what is being 
done to institutionalize these efforts as a top priority so 
that the Coast Guard will continue to be a safe and supportive 
workplace for women not only now, but in the future?
    Admiral Papp. Yes, ma'am. This has been probably my highest 
priority, particularly over the last 2 years, but I was 
actually starting to see indications of it 4 years ago when I 
became Commandant. Whether it is discrimination, sexual 
assault, hazing or other activities, I have had emphasis on 
making sure we take care of our shipmates.
    We put together a special group of flag officers, admirals, 
to lead this. We came up with a Sexual Assault Prevention 
Response Strategic Plan, and we created actually a military 
campaign office with a captain in charge that is overseeing the 
implementation of all the things in our strategic plan.
    More importantly, however, I believe I have spoken to 
almost the entire Coast Guard face to face, almost 35-, 40,000 
people, during all-hands meetings over the last 18 months or 
so. My sole theme has been talking about sexual response, 
making sure that we take a preventative approach to it rather 
than having to react to it. But we are also setting up to react 
to it with our victims' advocates, with our special victim 
counsels, and we are devoting not just people, but money to 
make sure that we take care of our folks.
    I think anecdotally I am seeing improvement and trust in 
the system, starting with myself. I have been contacted by a 
captain, a woman captain, who was assaulted 26 years ago and 
finally felt that she could come forward. She came to me and 
trusted me with her story. I brought her in and talked to her, 
and then we had it investigated. Even though it was 26 years 
old, it was investigated fully by Coast Guard Investigative 
Service, and we came to a satisfactory resolution with her. And 
I have had a seaman apprentice stand up in an all-hands meeting 
and say that she was a victim of sexual assault, and we took 
care of that. And there are other stories I can tell you, but I 
am also now getting stories from people in the field who tell 
me about how well the Coast Guard treated them when something 
was revealed.
    So even though we are seeing some numbers of reports go up, 
I feel that is because they are trusting the system now, they 
are coming forward, and it allows us to take the action, and we 
are vigorously prosecuting those that perpetrate this and 
making sure that they don't remain in our Coast Guard.
    Ms. Roybal-Allard. Well, thank you for that. And also I 
think it is important in terms of even trying to recruit the 
young people to go not only to the Coast Guard, but into the 
other services, because one of the concerns that is often 
raised by my constituents is they have concerns about their 
daughters going into the service because of this, and I think 
this will be very, very helpful in being able to tell them that 
something is being done about this.
    Admiral Papp. Absolutely, yes, ma'am.
    Ms. Roybal-Allard. I would like to talk just a little bit 
about an issue that seems to be a problem. And I don't know if 
you are familiar with the report that was published last month 
by the Vietnam Veterans of America that alleges that the Coast 
Guard routinely violates its own procedures and regulations 
when discharging guardsmen with certain mental health 
disorders. And the report states that in 90 percent of the 
cases reviewed, this was over a 12-year period, the Coast Guard 
did not provide guardsmen with documentation advising them as 
to why they were being discharged or their rights and remedies, 
including their right to consult a military attorney and submit 
a written statement. And I am wondering if you are looking into 
this, what changes you are considering making so that--you 
know, to address these issues?
    Admiral Papp. Yes, ma'am. That was equally troubling to me 
to hear something like that, because we should be taking care 
of our veterans and assisting them in any way possible, 
obviously.
    We are looking into it. I have not got any results from the 
inquiries we have been making. It has been very difficult to 
track down information, but we are on it. And I can't give you 
any means that we are using to correct the situation right now, 
because we have not determined the extent and the depth of the 
problem.
    Ms. Roybal-Allard. Okay. Thank you.
    Is my time up, Mr. Chair. My time is up?
    Mr. Carter. You have about 30 seconds.
    Ms. Roybal-Allard. A few seconds. Okay. I will wait until 
the next round then. Thank you.
    Mr. Carter. Mr. Frelinghuysen.
    Mr. Frelinghuysen. Thank you, Mr. Chairman.
    Admiral, thank you for nearly 40 years of dedicated public 
service. And let me also salute your close working relationship 
with our other services, joint operations. I think sometimes 
people don't recognize that the Coast Guard has been doing some 
remarkable things around the world side by side with our other 
sailors and soldiers and marines. So I just want to acknowledge 
on behalf of our defense appropriations committee, even though 
you are not under our jurisdiction, now that Judge Carter is a 
member of our committee, I can say on all of our behalf, we are 
so proud of the work that often goes unrecognized that Coast 
Guard men and women do on behalf of our country. You have an 
international presence, and you are working with other navies 
and doing things that sometimes don't get the public eye, but 
on all of our behalf, thank you.
    Admiral Papp. Yes, sir.
    Mr. Frelinghuysen. We are back to regular order. Goodness 
knows that the numbers are pretty low, but at least give us, as 
I am sure you did, some credit for getting back on track, and 
hopefully there will be some stability and predictability.
    I would like to follow up on Mr. Fleischmann's area that he 
initially started on on these Fast Response Cutters. I just 
want to get a little more meat on the bones. Your budget 
request funds only two; is that right?
    Admiral Papp. Yes, sir.
    Mr. Frelinghuysen. That is a decrease of four from last 
year; is that right?
    Admiral Papp. Yes, sir.
    Mr. Frelinghuysen. And seven have been commissioned. Are 
nine in production in Louisiana?
    Admiral Papp. Actually we just commissioned the eighth.
    Mr. Frelinghuysen. Yeah.
    Admiral Papp. We will take delivery of the ninth here very 
shortly. There are 18 or 22 under production, but we have 
received funding. Through the 2014 budget we have received 
funding for a total of 30 so far, so that is over half the 
production run.
    Mr. Frelinghuysen. So your goal is still to add 58 of those 
vessels to your fleet?
    Admiral Papp. Yes, sir, that is our ultimate goal.
    Mr. Frelinghuysen. And by dropping from six to two cutters, 
how much will the budget request add to the per cost vessel?
    Admiral Papp. That is a little difficult to determine right 
now. Actually the contract, the initial contract, has run out, 
and we have been working on a new request for proposal. We 
always planned to recompete this after the first 30 boats. We 
just bought the rights, and we are in the process of rewriting 
a request for proposal. It has actually taken us a little bit 
longer than I had anticipated, because what we are trying to do 
is do a real good scrub on it to see if there are potential 
other savings we can get on the final run of the ships. And 
then why the two? The two is because that is all I could fit 
within the----
    Mr. Frelinghuysen. Budget.
    Admiral Papp [continuing]. The ultimate----
    Mr. Frelinghuysen. Number.
    Admiral Papp [continuing]. Top line that I got. That is all 
we could fit in and keep all our other construction projects.
    Mr. Frelinghuysen. So the timeline is----
    Admiral Papp. It will be pushed to the right.
    Mr. Frelinghuysen. Pushed to the right. And will you be 
able to sustain the current fleet while awaiting for the final 
ability to reach 58?
    Admiral Papp. Well, we could sustain the current fleet of 
Island class patrol boats, but this budget calls for 
decommissioning eight of those. I feel like that is the right 
way to go, because we do have eight of the new ships in. They 
provide us with more operational hours than the older boats 
that they are replacing. It is time now as we try to fit into 
that top line, it is time to start decommissioning the older 
patrol boats, which allows us to get a little bit more 
headspace under the top line that we are given.
    Mr. Frelinghuysen. And lastly, all of us across all of our 
services were concerned about the industrial base, the 
shipbuilding base. As you exit the stage, and we thank you for, 
you know, many years of dedication, do you have any comments on 
shipbuilding, industrial base and--maybe this is a softball--
the need to make sure that we sustain it?
    Admiral Papp. Yeah. I may be a little biased, but as I 
said, this country depends, our economy, our prosperity depends 
upon free and safe and secure access to our ports. That is 
nothing new. Hamilton wrote about it back at the beginning of 
our country. We are a maritime Nation; we are going to depend 
upon maritime trade. Ninety percent of the goods that come in 
and out of this country come in ships. You want to have the 
ability to protect those waterways and also prevent against 
threats. You can't do that by sitting on a beach. You have got 
to have ships that can go out there to sea and----
    Mr. Frelinghuysen. And we need an industrial base, too.
    Admiral Papp. Absolutely.
    Mr. Frelinghuysen. To put a point on the----
    Admiral Papp. When you go down to places like Huntington 
Ingalls or Bollinger where we are constructing our ships, and I 
have visited many of the other shipyards around the country, 
these are dedicated, highly skilled craftsmen. The more that 
they can be put to work, it has got to be good for our economy. 
They have tremendous skills, and we will lose that over time as 
we build fewer and fewer ships in this country. And the end 
result is the ships that we do build are more expensive, 
because you have less competition, you have got a higher 
overhead at the yards because they are building fewer ships. I 
am deathly afraid that the Navy is going to build fewer ships, 
because then the yards----
    Mr. Frelinghuysen. So are we.
    Admiral Papp. And the yards charge their overhead against 
my ships and make my ships more expensive, so----
    Mr. Frelinghuysen. We need more ships rather than less.
    Thank you, Mr. Chairman.
    Thank you, Admiral.
    Mr. Carter. Mr. Owens.
    Mr. Owens. Thank you, Mr. Chairman.
    Thank you, Admiral.
    I come from the northern part of our country, and I am 
curious as to what impact the current budget will have, if any, 
on your operations along the entire northern border stretching 
from Maine to Washington.
    Admiral Papp. Well, from Maine to Washington, the major 
part that I am concerned about from a Coast Guard point of view 
is, of course, the St. Lawrence Seaway coming in from the gulf 
and in through the Great lakes, and then--most people don't 
realize, but then the boundary waters of northern Minnesota, 
which we have responsibilities for as well.
    The operational efficiencies that we gain by reducing 
things 3 to 5 percent means there will be boats out there fewer 
hours patrolling the border. There will be fewer people out 
there. We know there is an awful lot of smuggling and other 
things that go across that international border out there, and 
we will just have fewer Coast Guard people out there trying to 
interdict it.
    Mr. Owens. As you evaluate and analyze the threats, if you 
will, whether they be smuggling or terrorist activity that 
originates in the cells that exist in Canada, how much does 
your reduced operations increase the likelihood that a threat 
will become an activity or an action in the United States?
    Admiral Papp. My concern is not having the operating forces 
out there to be able to interdict it when we know there is a 
threat. And sometimes you just interdict a threat or you 
disrupt a threat because you are out there and you have 
presence.
    I served in that district. I was the District Commander for 
our Ninth Coast Guard District that goes from New York all the 
way out to Minnesota. The Coast Guard is actually a great tool 
for our country in terms of maintaining relationships with 
Canada. For the Coast Guard we deal not only with the Canadian 
Coast Guard, but the Canadian Navy, the Royal Canadian Mounted 
Police, Transport Canada. We deal with about 9 nine or 10 
agencies up there that are all associated with border security. 
We have great relationships, working relationships, with them. 
We share information. We put people in the command centers on 
the Canadian side, their Maritime Command Center for the 
Atlantic and also one in Niagara.
    So I think a lot of it is taken care of by making sure that 
we are communicating with our Canadian partners as well, but 
when there is a threat, or there are things that we don't know 
about, you always have to have presence out there. And that is 
part of what people need to understand is that we need to have 
a sovereign presence out on the water on a regular basis to 
enforce the laws and to also deter other people from trying to 
act. And if we have fewer hours, we are just not going to be 
out there as much.
    Mr. Owens. Thank you very much.
    Mr. Carter. Mr. Culberson.
    Mr. Culberson. Admiral, I, too, want to thank you on behalf 
of the people of Texas and the country for your service to the 
Nation. It is a real privilege to have you, sir, here with us 
today. The committee supports what the Coast Guard does, 
supports you with everything we can to enhance what you can 
present to the committee in the budget that the President and 
the White House has put forward, but we are here to help you, 
sir. We admire what you do, and we want to do all we can to 
support you.
    I think it is very important what you just said a moment 
ago quoting Alexander Hamilton for the committee as we move 
forward, as Judge Carter--how many years were you on the bench 
there in Williamson County?
    Mr. Carter. Twenty-one.
    Mr. Culberson. Twenty-one years. Judge Carter was one of 
our great district judges in Texas, enforcing the law, keeping 
the streets of Williamson County safe, and that is really our 
responsibility on this committee is to ensure that the laws are 
enforced and the country is safe.
    And I particularly enjoyed your quote of Alexander Hamilton 
that the economy of a maritime nation depends on safe and 
secure access to our ports, and that means enforcing the law 
and ensuring that free trade can take place, that people can 
move freely back and forth. And that is true not only of our 
maritime ports, but also of our inland ports.
    Our friend Henry Cuellar, who is not here today, represents 
the city of Laredo, and that is the largest inland port in the 
United States. There are more goods that travel through Laredo 
than any other inland port. So a fundamental part of our 
responsibility on this committee is to ensure that the law as 
it is written is enforced for the safety and security of the 
Nation and those communities that live and work along the 
border, and to, therefore, ensure the free flow of goods. As 
you just said, as it is true for the maritime ports, it is true 
for the inland ports as well. I really appreciate that.
    And I wanted to ask, if I could, sir, about the new program 
you are putting forward on these Offshore Patrol Cutters. I 
wanted to ask you, if you could, to walk the committee through 
how the Coast Guard would move forward with the acquisition, 
construction of these tremendously expensive--this hugely 
expensive new shipbuilding program with the limited requests 
that you have in this year's budget. Talk us through what your 
strategy is for acquisition of the Offshore Patrol Cutters, if 
you would, please, sir.
    Admiral Papp. Yes, sir. Well, we are trying to run the 
Offshore Patrol Cutter as wisely as possible. As I indicated 
earlier, we have gone through about a decade of acquisition 
reform, and I will stack my acquisition people up against 
anybody in Washington, D.C. We have true professionals, and 
that expertise is now matched with a need. We have nearly 50-
year old ships that need to be replaced.
    We have gone through a process now that has brought us to 
the point where we have great competition. We had a number of 
shipyards. We just down-selected to three to do the preliminary 
and contract design of three candidate ships. I have had a 
chance to look at all three ships. All three of them are great 
ships, but the thing that I have been stressing is 
affordability, because we are hopeful that we will be able to 
build these ships two a year at a certain point after we get 
through the initial construction, and we are hopeful that for 
about the price of one National Security Cutter, you can build 
two of these ships. That is what we have been shooting for.
    Mr. Culberson. Do you believe the budget recommendation you 
have made to the committee will enable you to build two of 
these Offshore Patrol Cutters a year?
    Admiral Papp. Well, that is what we have been struggling 
with; as we deal with the 5-year plan, the Capital Investment 
Plan is showing how we are able to do that. And it will be a 
challenge, particularly if it sticks at around $1 billion.
    As I have said publicly, and actually I have stated 
publicly before that we could probably construct comfortably at 
about $1.5 billion a year, but if we were to take care of all 
the Coast Guard's projects that are out there, including shore 
infrastructure--that fleet that takes care of the inland waters 
is approaching 50 years of age as well, but I have no 
replacement plan in sight for them, because we simply can't 
afford it. Plus we need at some point to build a polar 
icebreaker. Darn tough to do all that stuff when you are 
pushing down closer to $1 billion instead of $2 billion. As I 
said, we could fit most of that in at about the $1.5 billion 
level, but the projections don't call for that. So we are 
scrubbing the numbers as best we can----
    Mr. Culberson. Yes, sir.
    Admiral Papp [continuing]. Just to make sure we have got 
good competition so we can get the best price on the ship.
    Mr. Culberson. Based on the budget recommendation you have 
submitted to the committee, when would you expect to have, 
under the numbers you project in the President's budget, the 
first Offshore Patrol Cutter in the water?
    Admiral Papp. Fiscal year 2021 would have that first ship 
delivered as we project ahead, getting through--we have got 
about a year and a half now to go through the preliminary 
contract design, which then takes us up to about fiscal year 
2017 before we award the contract to the company that is going 
to get the construction. We build the first one, which will 
take about--by the time they get the yard set up and they get 
the first one in the water and we commission it, it is going to 
be about fiscal year 2021.
    Mr. Culberson. Well, you know the committee strongly 
supports what you do, and we are going to do everything we can 
to help you in your mission. We understand the importance of 
the need for the replacement cutters.
    And one other quick question, if I could, Mr. Chairman, 
about the icebreaker. During the Bush administration, they 
attempted to shift that responsibility onto the National 
Science Foundation, and it is not really something they are 
equipped to do and didn't have the money for. And I think Frank 
LoBiondo added language to an authorization bill that restored 
that responsibility to the Coast Guard. And the Coast Guard has 
responsibility for opening up channels in the ice for both 
Antarctica and in the Arctic?
    Admiral Papp. Yes, sir. That was one of our goals as I 
started as Commandant to get--it is actually the operations 
funding was transferred to NSF. We----
    Mr. Culberson. You got it back, though.
    Admiral Papp. We kept the icebreakers, and we depended upon 
them to feed us the money to operate them. And they chose to 
contract foreign icebreakers, which then we atrophied and had 
to lay up our icebreaker fleet. We have got Healy, which is our 
medium icebreaker. Healy's a little over a dozen years old and 
is in good shape. We restored Polar Star. Polar Star is on its 
way back to Seattle now.
    Mr. Culberson. How old are those ships?
    Admiral Papp. Polar Star is 35 years old. We have just 
restored her to active service, and she broke out McMurdo and 
is on her way across the Pacific now going back to Seattle.
    Mr. Culberson. But the NSF is contracting that service out?
    Admiral Papp. No, sir. We have the operating funds.
    Mr. Culberson. You do it now for the NSF?
    Admiral Papp. They are our customer now.
    Mr. Culberson. Okay. Good. That is the way it ought to be. 
You all ought to have the responsibility, and we will do 
everything we can to support you. Thank you, sir.
    Mr. Carter. Well, let's continue on the polar icebreaker--
--
    Admiral Papp. Sure.
    Mr. Carter [continuing]. Just for a minute. When I was in 
Alaska, I had some conversations when I was up at the Kodiak 
about the law of the seas and the claiming that the Russians 
are very active, as I understand, in the Arctic Ocean, and we 
are limited in our activity because of our icebreaker weakness, 
and that under the law of the seas, we could actually lose a 
claim to what would now be considered American waters if we 
don't show a presence, a continuing presence, over a period of 
time. And the icebreaker is a key to being able to show our 
presence, and the Coast Guard is basically our presence in the 
Arctic Ocean.
    Now, what does that mean, and who cares? Well, those of us 
who are in the petroleum-producing business should care a lot, 
because there are projections now worldwide that there is a 
large deposit of petroleum sitting under the North Pole. And as 
the ice recedes, and there are opportunities to go out and 
explore in that area, a lot of people see that as a real plus. 
And the Russians recognize it, and, of course, they are in the 
petroleum business now, too. That is one of the reasons they 
are showing such a presence in American waters. Is that 
correct?
    Admiral Papp. I have got no reports of them being in our 
waters, what we consider to be our waters. And actually within 
Alaska, we have got a great working relationship with the 
Russians, one of the few good working relationships with the 
Russians. We work with their border guards; we have frequent 
meetings with them, bilateral meetings; and we have multi-
lateral meetings with them in the North Pacific and North 
Atlantic Coast Guard Forum.
    So we get along with them pretty well, and we have pretty 
well-defined boundaries, at least where we both think they are. 
There are some shared waters, though. The Bering Strait is of a 
concern, because the amount of traffic going through the Bering 
Strait has quadrupled now. And while a lot of people worry 
about the potential for an oil spill due to drilling, I am more 
concerned about an oil spill or a disaster because of a ship 
losing power and running aground up there than I am anything 
else. And there is a huge increase of traffic in a very barren 
and not supported area right now.
    We need the icebreakers, because I can send our 
conventional Coast Guard cutters up there during the summertime 
when there is plenty of open water and when there is all the 
human activity, but there will be a time, date and time to be 
determined, where we have to have assured access during winter 
months, during ice months. We had a case like that 3 years ago 
when the city of Nome got iced in early. In spite of global 
warming, they got iced in early, and the oil tankers couldn't 
get in, and they would have run out of fuel supplies if we had 
not turned around our icebreaker and broke a path in there to 
resupply Nome.
    You can envision other reasons for having to get assured 
access into the Arctic during the wintertime, during ice 
conditions as well, and we need to have those icebreakers 
available so that we can do that, or there will be sometime 
when we won't be able to meet the country's needs.
    Mr. Carter. I was at the White House Christmas party, the 
year before last, and my daughter was accompanied by a Coastie 
as her date, and he was in his uniform. And the Senator from 
Alaska came all the way across the room to shake his hand and 
thank him for breaking the ice for Nome. And she just was full 
of praise for what the Coast Guard had done for the State of 
Alaska. So I am well aware of its importance.
    Admiral Papp. Yes, sir.
    Mr. Carter. But ultimately we have got to be able to have 
access up there. And I also heard stories that now cruise ships 
are making the Northwest Passage, and that our Coast Guard is 
the only potential rescue for a cruise ship that might get in 
trouble trying to make that Northwest Passage. And it is a long 
way away from the nearest----
    Admiral Papp. Everything there.
    Mr. Carter [continuing]. Anything when they get out there 
up in the northern part of Canada.
    Admiral Papp. Yes, sir.
    Mr. Carter. So you have got a lot of heavy responsibilities 
up there in the Arctic Circle. And I, for one, am a champion of 
trying to get us another icebreaker, but they are really 
expensive. But we have got to get to work on that, because we 
have to realize that we are talking about a vast amount of 
ocean that we are responsible for.
    That brings me to another issue that has to do directly 
with the aviation program. Admiral, this year's defense 
authorization provides the transfer of 14 medium-range aircraft 
to the Coast Guard, and the fiscal year 2014 Appropriations Act 
funded an initial stand-up for this program within the Coast 
Guard. What is the status of these transfers, and when will we 
have the aircraft operational? How will this aircraft increase 
our maritime capabilities?
    Admiral Papp. Well, I first have to start off by thanking 
the Congress and anyone who participated in the NDAA that 
transferred those aircraft to us. This was a windfall for us. I 
estimate we avoid about a half a billion dollars in future 
costs that we would have to spend on medium-range fixed-wing 
aircraft by obtaining these brand-new aircraft from the Air 
Force. It is a good deal for us.
    We will, in all likelihood, complete our purchase of the 
HC-144 aircraft, fixed-wing, which will give us a total of 18. 
We will take these 14. We now have 11 C-130Js that have been 
appropriated that will come into the service. So we are doing 
good in fixed-wing aircraft. Our challenge now is evaluating 
how we lay these aircraft down in an optimal arrangement.
    The C-27J gives us the added benefit as it uses the same 
engines as the C-130J. The cockpit is basically the same. So we 
gain some efficiencies in training and logistics by gaining 
these new aircraft also.
    We have set up a project office, an acquisition project 
office, which we were given the money in the fiscal year 2014 
budget, and there are some continuing funds in this budget. The 
amount escapes me, but there are some continuing funds to work 
bringing the aircraft in. We have had people out to look at the 
aircraft. And we are also making preparations for transferring 
some of our HC-130H models to the Air Force for renovation, and 
they will go to the Forest Service.
    Mr. Carter. Admiral, are you concerned about there is no 
recapitalization plans for the H-65 and H-60 helicopter funding 
for the sustainment of the current inventory? And how do you 
plan to solve this problem?
    Admiral Papp. Sir, I think we are in good shape in our 
helicopter fleet. We have done continuous upgrades on those. We 
have now converted the H60 to the H-60 Tango model. The reality 
is with our facility we have in Elizabeth City, you could 
bring--and we have, we have taken airframes from the Navy that 
they have cast away, and we have turned them into new 
helicopters. We can do that. And there is plenty of H-60s out 
there, and we are going to continuously upgrade the avionics 
and do improvements to the H-60s, and I am estimating we are 
probably good for 15 years before we have to recapitalize that 
fleet.
    The H-65 we have done the same thing. We have continuously 
upgraded them to the Delta model. Now we have the MH-65 Delta. 
We have continually upgraded those. My only concern about the 
H-65 is that we have lost three of them in crashes without 
replacement. We can't get them anymore. We take that out of our 
product line overhaul line to keep the frontline forces. So we 
have got enough to get by with right now, and I think we have 
got probably a good 10 to 15 years out of that aircraft as 
well.
    But at some point beyond the 5-year Capital Investment 
Plan, if we start looking at perhaps a 20-year Capital 
Investment Plan, we have to start figuring aircraft. The Air 
Force has gone to a new combat search and rescue helicopter 
that they are purchasing. Just like we did with the H-60, we 
are probably well advised to follow one of our sister services 
along so we get the economic order quantity for replacement 
after they have gone through the testing and evaluation and 
everything else.
    Mr. Carter. Thank you.
    Mr. Price.
    Mr. Price. Thank you, Mr. Chairman.
    Admiral, most of the questions today have focused on your 
acquisition, construction and improvements budget, and 
understandably so. This is a 1.1 billion budget item, and that 
number is 21 percent below what has been provided in the 
current fiscal year. So this budget is of great concern to us. 
It is going to occupy this subcommittee extensively, I think, 
over the weeks to come.
    Fortunately, the budget does provide for the construction 
of National Security Cutter number 8 to the tune of $638 
million. Unfortunately, though, that represents 59 percent of 
the ACI budget. And so these other assets that we have been 
talking about today are possibly at risk, or at least the 
schedule for delivering these assets could be at risk, and 
therefore you have gotten lots of questions about that, about 
the schedule for the Offshore Patrol Cutter, for example, the 
schedule we are anticipating there; the implications of 
constructing only two Fast Response Cutters; the timetable for 
this Polar Ice Breaker, which, of course, is in this year's 
budget--or in the proposed budget only to the tune of $8 
million in planning and design funds. What are the implications 
for all of these programs of this budget?
    As you have just testified in response to the chairman, the 
C-27 aircraft transfer appears to be a somewhat brighter spot. 
Remind me, what was your estimate of the cost savings 
associated with that?
    Admiral Papp. We estimate about $500 million.
    Mr. Price. All right. So that amounts to reduced pressure 
on the ACI budget.
    Admiral Papp. Yes, sir. We would have had to buy more of 
the HC-144 aircraft in future years. That relieves us of having 
to do that now.
    Mr. Price. Well, as you described this, you seem to have 
come out pretty well. The Coast Guard came out pretty well in 
this deal.
    Admiral Papp. In that particular deal, yes, sir.
    Mr. Price. In this particular deal, which, you know, we 
look for bright spots as well as problems in this budget 
picture.
    So let me shift. Having given the ACI budget a lot of 
attention, let me ask you to talk about another item of great 
concern: housing, the way you house your personnel.
    We received last year the Coast Guard's national housing 
assessment, and the assessment recommended a 4-year strategy to 
right-size the Coast Guard's housing inventory and invest only 
in needed housing. So we have had some follow-up on that. 
According to the most recent information we have, you are still 
in the process of developing a plan to address the 
recommendation of the housing assessment. The first step is 
going to be to reduce your inventory from 4,000 units to about 
2,700 units, more fully utilizing local home rental, which is 
what the assessment recommended.
    When is this response plan going to be finalized? Will it 
happen in time to affect our deliberations? And what about your 
deliberations in terms of reducing the housing inventory in the 
current year? When do you think the Coast Guard will reach a 
new steady state for its housing inventory?
    Let me ask you that first, and then I have a follow-up.
    Admiral Papp. We are getting very close right now. We had 
over 4,000 Coast Guard-owned homes. They all weren't filled, 
and I toyed with the thought of making mandatory housing, but 
then I had a chance to get out there and see some of the 
housing, and I wouldn't put my Coast Guard families in them. So 
we came up with this plan for an assessment.
    First of all, look and see what the economy in the 
localities demands. For instance, is there available housing 
that we can pay people a housing allowance? Are there places 
where we have too much inventory, and in trying to maintain it 
all, we are losing money?
    And we did a good assessment. I am very pleased with it. We 
narrowed it down to about 2,700 homes that we need at various 
locations. What that has allowed us to do--and we are in the 
process now of divesting those. We have been through the final 
reviews with all of our operational commanders to validate 
this, and we are in the process of divesting the homes. In 
fact, we just had a meeting about 2 weeks ago on the final 
homes, making some decisions in certain locations, and what I 
told them is if you get rid of the homes that we don't need in 
our inventory, we can keep the same maintenance money and 
spread it out across the ones that we need.
    So we have actually gone from annually we invest $3,000 per 
Coast Guard home; now we are able to devote $5,300 to each 
Coast Guard home that we are going to retain, which gives us a 
lot more opportunity to do improvements.
    And while we don't have any money for new housing in our 
AC&I funds this year, although the Congress has been very 
generous the last 2 years, giving us 10 million 2 years ago and 
18 million last year, we couldn't fit that in this year, but 
what we do is we are devoting probably close to $50 million, 
$40 million to improvements of the housing that we have, 
renovating our homes in Puerto Rico and in other locations so 
that when we do mandatory housing, they have good, decent 
housing to move into.
    So it is a multipronged attack: improving the Coast Guard-
owned housing that we have; finding other alternatives like 
Department of Defense leased housing, public-private venture 
housing, that we were able to take advantage of in numerous 
locations; and then when we have it available within our AC&I 
funds, building new homes at places where we can't find homes 
in the community for our people.
    Mr. Price. So although that is not in the budget for this 
year, you are following through on this 5-year plan for 
significant investments in new housing.
    When do you reach steady state on that? What are we talking 
about here likely in terms of a timeframe and the size of 
investments that you are going to need?
    Admiral Papp. Specific to housing, we are pretty much there 
in terms of the owned housing that we have. We know the number 
we are going to have, and we have projects in the works to 
continue the renovations. And we continue to take that out of 
our operating expenses, our maintenance money.
    In terms of new homes, that is a constant process. We have 
got a backlog. I will get you the exact backlog, but we have 
probably, in terms of ready projects, we have got about $25 
million of ready projects that could be executed where we have 
identified needs for new Coast Guard housing.
    Mr. Price. New housing. That is right.
    All right. Thank you very much.
    Thank you, Mr. Chairman.
    Mr. Carter. Mr. Fleischmann.
    Mr. Fleischmann. Thank you again, Mr. Chairman.
    Admiral, the 2004 Mission Needs Statement created specific 
requirements for patrol boats, major cutters, and fixed-wings 
operational hours. However, that was over a decade ago, sir, 
and subsequent budgets have never supported these requirements.
    Admiral, at what point does the decade-old mission 
statement need to become irrelevant since the budgets over the 
last few years do not support the requirement, sir?
    Admiral Papp. I think if I go back to one of the other 
questions I answered, the Mission Needs Statement is where we 
start. That is sort of where we look with an eye towards an 
unconstrained environment, what are those things that the 
statutes require us to do? And then what assets would we need 
to do all of those at 100 percent? And people have suggested it 
is a 10-year old Mission Needs Statement. We are going to redo 
the Mission Needs Statement this year. We have already embarked 
upon that to update it.
    Now, every study that we have done has always validated the 
need for at least the program of record that we are embarked 
upon. We will do the Mission Needs Statement, but given the 
fact that the Arctic has expanded, we have got increased 
mission space that we need to take care of, and increased 
missions that we have been given, I can't imagine any way that 
a new Mission Needs Statement would not come out saying we need 
more than the program record. But I have been satisfied as to 
the program record, because we are having a hard enough time 
just getting there.
    So the Mission Needs Statement, I would say the one in 2004 
is probably still valid, but we are going to revalidate that 
and update it now a decade later. And then it is my job to 
present that to the administration and say, this is what I 
need, this is what I would like to fit in there, and at some 
point they are going to give me a top line, and then I am 
forced to make those tough decisions within the limits of the 
budget.
    Mr. Fleischmann. Okay. So the good news is a new mission 
statement is in progress, and we can expect to receive that.
    Admiral Papp. Yes, sir.
    Mr. Fleischmann. Thank you. I think that is very important.
    A follow-up to my colleague's question. And I certainly 
appreciate all that you and the Coast Guard are doing with your 
flag officers to address sexual assault. I want to thank you 
for the State of the Coast Guard Address. I think you addressed 
that there, as well as alcohol abuse issues.
    What can we do as legislators to help you implement that? I 
understand you have got these great laudatory goals which are 
out there, but what can we do?
    Admiral Papp. Well, I think what you can do is you use the 
bully pulpit. First of all, you hold our feet to the fire, 
people like me, and insist that we live up to those things that 
we talk about. And you have got a fully committed person in me 
in that respect.
    But we serve the people of the United States. You represent 
the people of the United States. If we are not serving the 
people of the United States and their sons and daughters that 
have volunteered to come and work within our services, then we 
need to have our feet held to the fire. And I appreciate it. 
Even though I disagree with some of the policies that were 
proposed, I respect the right and appreciate the fact that the 
Congress--and most notably over in the Senate--have come 
forward with proposals to assist us or make more stringent 
requirements.
    But at the end of the day, we have got to execute it, and I 
really appreciate the fact that we are going to allow our 
commanders to hold that responsibility. And I hold my 
commanders responsible and make sure that they are taking these 
on. And as you mentioned, it is not just sexual assault. I 
mentioned this in the State of the Coast Guard speech that we 
are putting out a revised alcohol abuse policy. I just got the 
final package on my desk last night and read it late, came in 
with a few alterations, but we will be putting out that policy 
over the next couple of days.
    Mr. Fleischmann. Thank you, Admiral.
    I yield back, Mr. Chairman.
    Mr. Carter. Mr. Culberson.
    Mr. Culberson. Thank you, Mr. Chairman.
    Admiral, I wanted to ask, if I could, a little bit more 
about the icebreaker program, which we all support and want to 
see you have that capability, because it is so vital, as the 
chairman has pointed out.
    As a Texan--and I know Judge Carter has heard this as well 
as a fellow Texan--Texas, I suppose, and Houston in particular, 
is to the oil and gas industry what Silicon Valley is to the 
computer industry. And companies that the judge represents and 
that I represent in the oil and gas industry have told us that 
they have discovered or gained access to more oil and gas in 
the last 10 years than has ever been discovered in the history 
of the United States. It is the largest mineral discovery in 
the history of the country. It dwarfs the Gold Rush of 1849, 
Spindletop, east Texas--you roll them all together--west Texas, 
all of it together. And what we have been able to gain access 
to with this new technology in fracking, in shale, and in the 
ways that we are able to open up these old wells that were not 
producing, it is extraordinary. They are producing oil out of 
shale formations that weren't even possible.
    So Judge Carter is exactly right. Particularly I wanted to 
ask you about two areas, about the icebreaker and also the Law 
of the Sea Treaty, because Bob Ballard, the discoverer of the 
Titanic, tells me that there are vast amounts of rare Earth 
elements that we as a country already have economic 
jurisdiction over and own on the flanks of the volcanoes that 
we took in the Pacific from the Japanese in World War II; that 
there is, under the Law of the Sea Treaty, if you can show that 
a geologic formation off the coast of your country is a part of 
the Continental Shelf, then you have the right under 
international law to develop all of those resources.
    So Judge Carter is exactly right. There is vast amounts of 
oil and gas out there underneath the Arctic Ocean, probably 
even more than we can imagine.
    By the way, they have also told me that they can make--the 
oil and gas companies--if we will just get out of the way, they 
can make America energy independent in less than 5 years if the 
government would just get out of the way and let them do what 
they do best, which is produce oil and gas safely, cleanly and 
in an environmentally friendly way. They can make us completely 
energy independent.
    So those icebreakers are critical, and I wanted to ask what 
in the $6 million in this budget that you are recommending to 
this committee, what is your acquisition strategy for the 
program? And when would we actually have a new icebreaker 
breaking ice? It is a concern. You are talking about a billion-
dollar-plus vessel, and how do you really make any headway 
building it with just a $6 million down payment? What is the 
acquisition strategy, and when will we have an icebreaker in 
the water under your projected numbers?
    Admiral Papp. A heavy polar icebreaker has not been built 
in this country for nearly 40 years now, so you want to be 
fairly circumspect about the way you approach that and make 
sure--particularly if you are only building one, and it costs a 
billion dollars, you better have the requirements right. So 
that is what we are doing right now.
    We could on our own decide how we want to build an 
icebreaker, but it would be big and tough, and it would be 
rough to live on. And it might break great ice, but it might 
not be compatible with all the scientists that our customers, 
or the Department of Defense, or the Department of Interior, 
NSF.
    So we are consulting across the interagency to make sure 
that we are coming up with the design that will meet the needs 
of the country since this is such a valuable asset, and that 
takes time. And you don't need a large amount of money in the 
beginning because you are working through that process of 
coming up with the requirements.
    What concerns me, however, is particularly as I am being 
constrained closer to the billion-dollar range in my 
acquisition projects, I don't know how you fit in a billion-
dollar ice breaker, because at some point you are going to have 
to take--even if you do it with a multiyear strategy, you are 
going to have to go 300- or $400 billion in a couple of years, 
which would displace other very important things.
    So we are having to take a hard look at this. One way of 
doing it is to say, okay, this icebreaker serves the 
interagency. The Department of Defense could call upon us, NSF 
certainly does, and other agencies. Why should that not be a 
shared expense? And, oh, by the way, if all of these companies 
are going to be making that much money off of oil exploration 
in the Arctic, maybe they could share in the cost of this 
icebreaker.
    Mr. Culberson. Free enterprise is a wonderful thing.
    Admiral Papp. Yes, sir.
    I don't see any way right now, and I know that the 
President has committed us to designing an icebreaker. We 
haven't committed to building an icebreaker yet. And if I am 
constrained at a billion dollars, I just don't know how you do 
it, because I have higher priorities to build within that AC&I 
money.
    Mr. Culberson. Well, GSA charges rent to Federal agencies, 
you know, in buildings that the GSA builds. No reason you 
shouldn't charge for the use of your icebreaker.
    Admiral Papp. Well, that is a creative solution that I 
would look forward to somebody proposing for us. But in the 
absence of that, I can only look at the conventional way that 
we do things.
    Mr. Culberson. I guarantee you that the oil and gas 
companies would help you pay for it, the scientific community, 
Particularly the oil and gas community, Because it is just 
unbelievable. In Houston, Texas, it is raining money in 
Houston, Texas, because they have actually figured out how to 
access--they are producing oil from pool table slate. 
Unbelievable.
    Admiral Papp. It would take some persuasion, sir, because I 
have been up to Alaska each of the last 4 years. I have talked 
to Shell and the other companies, and they are of the opinion 
that they already pay a lot of money in taxes right now, and 
that to put that extra burden on them, they believe, would be 
unfair.
    Mr. Culberson. I mean just in terms of renting the ship and 
getting access to the ship, in order for them to get access out 
there, because the judge is right.
    Thank you very much, Mr. Chairman.
    Mr. Carter. Admiral, as we discussed with the Secretary 
yesterday and other times, we need to look for efficiencies. 
Have you considered working with CBP and the Air and Marine 
Division about leveraging the capabilities at Elizabeth City? 
Also, could you commit to working with CBP to further utilize 
their Air and Marine Operations Center?
    Admiral Papp. First of all, yes. I believe there are 
efficiencies to be gained. They fly H-60 helicopters; we have a 
product line down there that does very good work. We have the 
capability for doing that. I don't know if we have got the full 
capacity to be able to do all of that work, but certainly we 
could adjust that. And I think we have done an aviation 
commonality study with CBP under the direction of the former 
Deputy Secretary, and we are continuing to work towards that. I 
think since we already have a world-class facility down there, 
I don't know why CBP would be sending their aircraft somewhere 
else to be maintained.
    Mr. Carter. Well, that is kind of the thinking we had. 
There is no reason to have duplication. We ought to be able to 
work together to maintain these various airframes.
    Admiral Papp. Right.
    Mr. Carter. And in operations, as our mission requires 
teamwork, we want to encourage that teamwork.
    Admiral Papp. Yes, sir. And there is plenty going on out 
there, sir. I have seen numerous ways. In my recent travels I 
was out in San Diego just a couple of weeks ago, and we have a 
command center out there that brings together Customs and 
Border Protection, the Border Patrol, and Air and Marine, in 
addition to State law enforcement agencies and the municipal 
law enforcement agencies. And we are leveraging all of those 
assets to take on this challenge that you talked about earlier 
with the Mexican pangas coming across the border.
    Mr. Carter. Okay. I have one more question. We all know 
this budget does not fund the Coast Guard this Nation needs. If 
we can find additional funds, where do we start? What are your 
unfunded priorities?
    Admiral Papp. Well, probably in a less constrained 
environment, I certainly would have put more of the Fast 
Response Cutters in the budget. You are absolutely right, we 
gain efficiencies by keeping the production line running full 
down there. I think with building two, because it would be an 
extension of the current contract, we can could probably come 
up with a pretty good price, but we come up with the best price 
if we are doing the full loading of six per year, which is what 
the shipyard can handle. That plays towards the 
recapitalization that is so important to us.
    If I had the wherewithal, I would restore our operational 
efficiencies, our operational reductions. We need to have our 
people out there doing their mission. We have to have the 
presence. The biggest driver for dissatisfaction for Coast 
Guard people is not being able to do their job. And if they 
know they are getting fewer boat hours, fewer aircraft and ship 
hours, not only does it reduce our mission effectiveness, but 
it doesn't allow them to do the things that they have been 
trained to do. And it also hurts our ability to keep them in 
their highest playing form, their best state of proficiency, so 
that they are safe when they go out there and do this dangerous 
work that we send them out to do. So restoration of operations 
is always important.
    Maintenance funds. We are forced to squeeze down 
maintenance funds, and any time we get extra maintenance funds, 
it helps us to take care of those housing units that we talked 
about. It helps us on some of the renovation projects on some 
of our older cutters that we are doing. It helps to keep moving 
them along.
    So operations and maintenance are, sir, the holy grail for 
us. And then, as I said, it is tough to live within the 
constraints of that AC&I budget, so I would turn towards 
increasing that, but it has got to be balanced across the 
board. And that is really what I tried to do for 4 years is 
maintain balance, not cutting back on mission support fully or 
dumping it all on operations. Whatever we have done has been a 
balanced approach. But we are down to the point now where we 
just can't squeeze anything more out of this rock without 
losing significant numbers of people.
    And I would say that is probably the thing, if I have any 
regret at all at this 4-year point, when I look and I see that 
from a high-water mark in fiscal year 2012 in the middle of my 
term as Commandant, we have lost a thousand Coast Guard people 
due to efficiencies and squeezing down. We face the prospect of 
losing other 800.
    I have always known from the start that people are the most 
important thing, because the fewer people we have, the less 
Coast Guard you have, the less operations we have. And, sir, I 
want to give you one little anecdote, the little prices we pay 
along the way as we squeeze down.
    My Master Chief Petty Officer of the Coast Guard has been 
pushing a physical fitness program. We are finally to the point 
where we have tested it, and we are almost ready to implement 
it, and they come in to give me the briefing, and at the end of 
the briefing they said, but of course in the fiscal year 2015 
budget, we have had to cut all of our health-promotion 
specialists across the Coast Guard because we have noplace to 
go to gain efficiencies. So, I mean, it is only 13 people, but 
they are 13 people that were located at each one of our bases 
to supervise health-promotion programs that services my people.
    Special pay. I am having to cut back on special pay for 
those people who go out and do those hazardous assignments.
    And that is what hurts me. I want to provide the best for 
my people. I want to retrain my people, because I know we need 
them. And this gradual squeezing down, it is nibbling away, and 
at some point we just won't be able to do it anymore, and we 
will just have to do some sort of major cut.
    I lived through it in the 1990s where we had to lose about 
6,000 people in the Coast Guard, and it took us a long time to 
recover from that. I was talking to Admiral Kramek the other 
night, he was the Commandant at the time, and it was terrible. 
And I know it was terrible because I was a more junior officer 
at the time.
    If there is anything I can leave you with it is taking care 
of the people and making sure we got enough people to do the 
job, because even though I say we will cut back on the work, 
coasties just, if they lose the person next to them, they will 
just work twice as hard. Even though we tell them not to, they 
will work twice as hard to get the job done. So it breaks my 
heart to have to let people go.
    Mr. Carter. Well, Admiral, this subcommittee thanks you for 
your service. Coming to the conclusion, I will tell you that I 
have got a lot of old Marine friends who will tell you that the 
Marine Corps likes to brag they fight their wars with other 
people's leftovers. I think the coasties can use the same 
argument, that they fight their part of this war with other 
people's leftovers and do a good job. And we will continue to 
do our best to make sure that the Coast Guard has its needs 
filled. Thank you for your service.
    Admiral Papp. I am deeply indebted to all of you. Thank 
you. It has been an honor.
    Mr. Carter. No further questions?
    Mr. Price. No further questions. Thank you.
    Mr. Carter. At this time we will stand adjourned. Thank 
you. 

[GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]


                                          Thursday, March 13, 2013.

           UNITED STATES IMMIGRATION AND CUSTOMS ENFORCEMENT

                               WITNESSES

DANIEL RAGSDALE, DEPUTY DIRECTOR
PETER EDGE, DEPUTY ASSOCIATE DIRECTOR, HOMELAND SECURITY INVESTIGATIONS
THOMAS HOMAN, EXECUTIVE ASSOCIATE DIRECTOR, ENFORCEMENT AND REMOVAL 
    OPERATIONS

                     Opening Statement: Mr. Carter

    Mr. Carter. I am going to call this hearing to order.
    Let me just open up by saying there are multiple hearings 
today and people will be coming and going a lot, as they move 
from one subcommittee hearing to the other.
    We are pleased to get started. Our panel this morning is 
made up of three exceptional professionals who have almost 75 
years of law enforcement experience between them, Dan Ragsdale, 
ICE acting director; Tom Homan, executive associate director, 
Enforcement and Removal Operations; and Pete Edge, deputy 
executive associate director, Homeland Security Investigations, 
HSI.
    Before we begin, I want to thank all of you for what you do 
and for all the agents and officers that work with you and the 
investigative teams in the service. You do exceptional work. We 
are aware of your work and we are very proud of you. The 
subcommittee knows your efforts are essential to keep this 
Nation safe and we are very grateful for the effort that all in 
your department do.
    Our job today is to learn whether the President's budget 
request enables you to do your jobs taking down transnational 
criminal organizations, combating illegal border crossing 
activity, and enforcing immigration laws.
    Gentlemen, I am going to be blunt. As chairman of the 
subcommittee, I must be convinced the budget supports your 
operations. Unfortunately from what I have reviewed so far, 
cuts to operational accounts are not justified by the facts, 
analysis, or data.
    For example, I am not convinced the detention bed request 
is sufficient to detain level one, two, and three criminals, 
fugitives, and criminal aliens being released from prison.
    I am worried the cut in HSI salaries means fewer 
investigative hours and continued imbalance between the need 
for special agents and a team of wire tap specialists, intel 
analysts, and assistants.
    It upsets me that politically motivated policies and 
directives are creating an invitational posture at the border, 
and that this open invitation causes human suffering and law 
enforcement nightmares.
    I get even more agitated or irritated when these policies 
and directives undermine legitimate budgetary needs. Bottom 
line, ICE is not an organization that should be politicized. 
Its law enforcement mission is just too important to this 
Nation.
    Here are some cold, hard facts. From October through 
December, the Border Patrol apprehended 66,928 people in the 
Rio Grande Valley of Texas. This is a place we in Texas call 
the Valley. A total of 49,815 were ``other than Mexicans'' and 
18,555 were juveniles. And the juvenile issue is quite honestly 
a human suffering issue as far as I am concerned.
    When these folks were apprehended, they met ICE's mandatory 
detention criteria because they were all recent illegal 
entrants. But needless to say, they were not all placed in 
detention beds.
    What I would like for you to provide for the record is what 
happened to them once they were processed by CBP and turned 
over to ICE. Of the 66,928 people, how many were actually 
placed in detention? What happened to the people ICE did not 
detain? How many were removed, remain in detention, were placed 
on alternative initiatives to detention or claimed credible 
fear and are waiting for immigration hearings? Of the 18,555 
children, how many were delivered to their families?
    We would like to have the statistics to understand what is 
going on.
    Gentlemen, all too often this debate ends up focusing on 
stories of good, hard-working people who make this dangerous 
journey to care for their families.
    Well, what do we know about the criminal organizations that 
brought these migrants to the United States? From the stories 
that I hear on the Rio Grande border, no one now crosses the 
border in Texas that does not have the permission of the 
cartels that operate across the border. I would like to know 
what your thoughts are on that, but we will get to all that 
when we go to the questioning.
    How are they networked inside of our borders? Is the human 
trafficking business providing the capital they need to develop 
cyber pornography, sell drugs, or sell the kids they are 
transporting? These are the criminals ICE goes after. This is 
the evil ICE confronts and you deserve a robust budget to do 
this effectively.
    In closing, I know you mean well, but I would be 
irresponsible if I did not ask whether these very policies and 
directives creating this massive migration of people are 
contributing to an environment that supports criminal activity. 
This is my biggest frustration and constant worry.
    We have a common goal to keep the homeland as safe as 
possible. We are counting on you to give us the facts and the 
benefit of your professional judgment.
    Before we get to your testimony, however, I will turn the 
floor over to my distinguished colleague from North Carolina, 
the subcommittee ranking member, Mr. Price.
    [The information follows:]

[GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]


                      Opening Statement: Mr. Price

    Mr. Price. Thank you, Mr. Chairman.
    Gentlemen, good morning. Glad to have you here. We 
appreciate your appearing before the subcommittee. We 
appreciate your service to the country, particularly during 
this time of transition for U.S. Immigration and Customs 
Enforcement.
    I hope, of course, that an individual will soon be 
nominated to be the director of ICE. That is all the more 
important in light of the national debate we continue to have 
about reforming our immigration system.
    But for this morning, I am very happy to have the benefit 
of your expertise and experience, and the three of you bring a 
great deal to the table.
    Much of the discussion this morning will likely focus on 
ICE's role in detaining and removing aliens from the country, 
but I hope we can also pay attention to the other important ICE 
activities, many of which are as critical to homeland security 
as civil immigration enforcement and should be resourced 
accordingly.
    These activities include investigations to combat illegal 
cross-border trafficking and weapons, illicit drugs and other 
contraband, money laundering and other financial crimes, 
fraudulent trade practices, identity and benefit fraud, and 
human trafficking and child exploitation.
    ICE's efforts in these areas are not controversial in the 
way that immigration enforcement has become, but they are 
extremely important. Too few people understand this aspect of 
ICE's mission or give ICE enough credit for the good work it is 
doing.
    Having said that, the debate surrounding immigration 
enforcement is important, and I will have several questions in 
that area as well.
    As I said at the secretary's hearing on Tuesday afternoon, 
this is not only because of the fact that our immigration 
system is fundamentally flawed, but also because the politics 
surrounding immigration are so contentious, plagued, I am 
afraid, by exaggerations of both fact and rhetoric, as well as 
legitimate policy differences.
    I have to say the politics of this issue has been on full 
display this week on the House floor even as we are having this 
hearing. The republican majority has the House considering two 
bills as deeply misguided as they are unprecedented.
    Heaven forbid the House consider unemployment insurance or 
raising the minimum wage. Instead we are once again playing 
politics on immigration.
    My experience on this subcommittee ever since its creation 
has convinced me of the futility of approaching immigration as 
simply an enforcement issue or simply throwing money at the 
border or any other aspect of the problem. We must have 
comprehensive reform.
    One of the things the subcommittee would greatly benefit 
from and might help clear the air somewhat around the overall 
immigration debate would be more comprehensive and timely data 
about how the department is managing its border and immigration 
enforcement responsibilities.
    We do hear disturbing stories, as you know, about families 
being broken up when ICE deports a family member who, as far as 
we know, is not a criminal, poses no threat to the community. 
These are families in many cases who have been in the country 
for decades, working, paying taxes, attending church, 
contributing to their communities.
    So we need more information about who you are apprehending, 
detaining and removing, and how they fit into your enforcement 
priorities.
    We need to have more confidence that our detention 
resources are used for those who really are threats to the 
community or serious flight risks, and that alternative to 
detention programs, which are much less expensive, are being 
fully utilized as a detention alternative.
    Now, better information may not be the way to reach 
consensus on vexing questions of border and immigration 
enforcement policy, but surely it would help. It would help 
elevate the discussion to one based more on empirical evidence.
    The agency's budget request is for $5.36 billion. That is a 
reduction of $255 million or 4.8 percent below the current 
year. We want to hear from you regarding the rationale behind 
all the agency's funding proposals and how they fit into your 
overall strategy for prioritizing activities.
    I know some of my colleagues are very quick to attack the 
proposed reductions in ICE's overall budget, particularly the 
proposed reduction in the detention bed requirement and 
elimination of the detention bed mandate.
    But ICE's budget request simply has to be considered in the 
proper budget context. In an era of limited resources, we 
simply cannot do it all. If we want to fix holes we identify in 
the President's budget, we are going to have to find savings 
elsewhere in the bill and we are going to be hard pressed to do 
that.
    Of course, many of the other appropriations subcommittees 
have even bigger challenges than this one does under this 
constrained budget. And let me be clear. It is a good thing 
that we have an agreed upon top-line funding level for the 
coming fiscal year. It should help us get our work done. It 
should help us do what appropriations is supposed to do.
    But there are consequences to arbitrarily limiting 
investments in enforcement priorities, and we are experiencing 
those consequences right now. It is very easy to complain about 
individual items or individual functions, but they are part of 
this larger picture which we need to take responsibility for 
and ultimately to fix in this institution.
    Before I end, I want to reiterate what I and many others 
have said for years now. We are setting the department and 
ourselves up for failure by not enacting legislation to reform 
and rationalize our immigration system.
    According to a variety of recent polls, a clear majority of 
Americans want Congress to enact immigration reform and support 
a pathway to legal status and eventual citizenship for most 
unauthorized immigrants. We need to get on with that task.
    Gentlemen, thank you for joining us this morning. I look 
forward to our discussion.
    Thank you, Mr. Chairman.
    [The information follows:]

[GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]


    Mr. Carter. Thank you, Mr. Price.
    Before I start, we have received your written testimony. It 
will be entered into the record. And we want to ask you for 
your testimony.
    We are ready to go.

                    Opening Statement: Mr. Ragsdale

    Mr. Ragsdale. Well, good morning again, Chairman Carter, 
Ranking Member Price, and distinguished Members of the 
committee.
    I am honored to appear here today with two of my 
colleagues, Tom Homan, executive associate director of 
Enforcement and Removal Operations, and Peter Edge, deputy 
associate director of Homeland Security Investigations. Both of 
these men are long-time career enforcement officers and 
employees and they are a significant credit to our agency.
    Before I begin, I would like to start by expressing my 
appreciation for your support of the men and women of ICE. 
Carrying out our mission and achieving the law enforcement 
results our folks realize every day would not be possible 
without your strong support.
    ICE is the principal investigative arm of the Department of 
Homeland Security and is responsible for one of the broadest 
investigative portfolios among any federal law enforcement 
agency.
    Our primary law enforcement operations are carried out by 
the two offices these gentlemen represent, the Office of 
Homeland Security Investigations and Enforcement and Removal 
Operations. Their work is bolstered by the men and women of the 
Office of the Principal Legal Advisor, the Office of 
Professional Responsibility, and the key mission support 
personnel in management and administration.
    The President's fiscal year 2015 budget supports ICE's law 
enforcement programs and ensures ICE operates with maximum 
efficiency. The fiscal year 2015 request totals $5.359 billion. 
This is approximately a five percent reduction of our fiscal 
year 2014 level.
    As the principal investigative arm of DHS, ICE enhances 
national and border security by dismantling transnational 
criminal organizations that seek to exploit our border.
    In fiscal year 2013, HSI's special agents made 32,401 
criminal arrests and initiated 100,026 new investigations. We 
seized $1.3 billion in currency and 1.6 million pounds of 
narcotics and other dangerous drugs.
    ICE conducts national security investigations through 
interconnected investigative programs that prevent criminals 
and terrorists from exploiting our Nation's border control 
system.
    This includes investigating criminal and terrorist 
organizations, preventing the acquisition and trafficking in 
weapons and other sensitive or licensable technology, 
identifying and removing war criminals and human rights abusers 
from the United States.
    This budget request supports ICE's investigative efforts in 
the coming fiscal year by continuing our efforts against 
illicit finance by supporting our bulk cash smuggling center's 
efforts to add additional law enforcement partners.
    We will expand our commercial fraud efforts by expanding 
investigative support and leveraging enforcement operations 
with our state and local partners. We will continue to develop 
our illicit pathways attack strategy to focus on cross-border 
threats and global illicit pathways including contraband 
smuggling, arms trafficking, money laundering, bulk cash 
smuggling, and human smuggling and trafficking.
    In fiscal year 2013, ERO's officers and agents identified, 
arrested, and removed 368,644 aliens. One hundred and thirty-
three thousand of those removed were apprehended in the United 
States. Eighty-two percent of that number were criminal aliens.
    We conducted 235,000 removals of individuals apprehended 
along our borders for a total of 368,000. Fifty-nine percent of 
all ICE removals were aliens who had previously been convicted 
of a crime.
    To support these operations, ICE will also leverage IT 
solutions to increase our efficiency in screening, vetting, and 
recording Visa applications through our patriot system. This 
modernization effort will allow all ICE attache offices to 
perform Visa security operations.
    Further, to support our immigration enforcement efforts, 
our budget request, as the chairman said, 30,539 detention beds 
at a rate of $119 a day. This detention level will allow us to 
detain all aliens subject to mandatory detention provisions as 
well as other high-risk non-mandatory detainees.
    ICE will ensure the most cost-effective use of our funding 
by focusing detention capabilities on priority and mandatory 
detainees while placing lower-risk, non-mandatory detainees on 
lower-cost alternatives.
    The budget also proposes that a portion of our custody 
operations funding be available for five years. This will allow 
us to pilot and try to seek more favorable pricing for 
detention beds and using multi-year contracts.
    If approved, this change would empower ICE to negotiate 
more advantageous contract terms and realize efficiencies not 
available with current one-year funding.
    This budget also supports the alternatives to detention 
program as a cost-effective alternative from traditional 
detention that makes bed space available for those aliens 
posing the greatest risk to public safety or national security.
    ICE will continue to focus on identifying, arresting, and 
removing criminal aliens, recent border entrants, and other 
priority aliens to support DHS's national security, border 
security, and public safety mission.
    Finally, the budget supports some key investments. It 
continues an important automation project to replace our 
investigative case management system known as TECS at $21 
million to ensure we can deploy core case management in late 
2015.
    The budget also proposes $20 million in achievable 
reductions for IT contractor conversions, contract staff 
reductions, and our detainee to guard ratio at certain SBC 
facilities to bring our staff detainee ratio in line with our 
national detention standards.
    Let me thank you again for your support and we look forward 
to answering your questions. Thank you.
    [The information follows:]

[GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]


    Mr. Carter. Once again, the President's budget calls for a 
cut in funds for detention beds of about ten percent, taking 
the beds down from 34,000 to 30,539. Explain how this number 
was developed.
    Mr. Ragsdale. So we looked at our historical averages of 
the number of aliens we apprehend who are subject to the 
Immigration Nationality Act's mandatory detention provisions. 
And that number is roughly around 26 to 28 thousand over the 
last couple of years.
    So we can detain everyone who is subject to mandatory 
detention. This number also gives us some flexibility for other 
aliens not subject to mandatory detention but are nonetheless 
presenting a risk to public safety.
    The point that I would like to make sort of most 
strenuously the detention piece is only, I will say, a step in 
the process. The real key is getting folks through the 
immigration court system to get a determination about whether 
or not we can remove them or whether they can stay.
    So we are focusing on not the detention beds as a outcome 
but rather working with EOIR to make sure there are immigration 
judges to hear cases whether detained or not detained.
    In fact, from fiscal year 2014 into 2015, EOIR is going to 
add 65 immigration judges, so we are hoping to see our average 
length of stay in those beds fall so we can essentially remove 
increasing number of people with less beds.
    Mr. Carter. And I think that is good. Let's just talk about 
the 30,539 will you be able to detain all level one criminals?
    Mr. Ragsdale. I believe we will be able to detain all level 
one criminals assuming again----
    Mr. Carter. That is violent crimes. These are important 
crimes. These are felony crimes we are talking about.
    Mr. Ragsdale. They are.
    Mr. Carter. All right. How about all level two criminals?
    Mr. Ragsdale. I believe it will cover all level ones and 
level twos.
    Mr. Carter. How about all level three criminals?
    Mr. Ragsdale. I do not think it will cover all level 
threes. And, of course, as the chairman knows, you know, 
custody determinations are made on a case-by-case basis, 
balancing dangerousness and flight risk.
    You know, we use the levels for, you know, statistical 
record-keeping purposes. However, we would certainly say that 
every case is not created equally and we would have to use our 
resources appropriately to make essentially those individual 
case determinations.
    Mr. Carter. I have recently visited the ICE detention and 
work provided by ICE down in the Rio Grande Valley where I just 
gave you some statistics about what has happened the last four 
months, 60,000 people. Many of these people are being released 
on some form of some program, whether you put a monitor on 
them, whether you put extensive supervision of some sort, 
whether you have telephone call-in supervision, but you turn 
them loose.
    Mr. Ragsdale. So a couple things here. You know, we 
actually work obviously very closely with Customs and Border 
Protection on the front end in terms of the apprehension and 
Citizenship and Immigration Services on what is sort of the 
middle piece of the credible fear process.
    It is important, sir, to put this in context, that one of 
the sort of advantages after the 1996 bill with the expansion 
of expedited removal, that CBP without putting people in 
removal proceedings that need to go in front of immigration 
judges can order the vast majority of folks removed.
    So we receive the vast majority of apprehended aliens, OTMs 
and Mexicans from CBP with final orders of removal. There is a 
subset of that category who are placed in expedited removal 
that express credible fear.
    Those folks go to Citizenship and Immigration Services 
while they are being detained by ICE because they are subject 
to mandatory detention and then Citizenship and Immigration 
Services makes a finding whether or not that alien possesses a 
credible fear.
    ICE does not look behind that decision. Once a credible 
fear is found, the ER order, the expedited removal order is 
vacated and a notice to appear is issued. Once that notice to 
appear is issued, that person becomes eligible for bond. They 
can be eligible for bond from DHS as well as an immigration 
judge.
    All of those folks remain in immigration proceedings. But 
as I mentioned earlier, the challenge, of course, is again 
court hearing capacity. For folks that, you know, stay----
    Mr. Carter. Well, there is more than that. Do you know what 
the statistics are for no shows on hearings?
    Mr. Ragsdale. So we certainly had many discussions about 
this. The struggle with giving those numbers, first of all, 
they are maintained by the Department of Justice, but it is 
also a blended data set. There is not a year-to-year capture of 
folks that are put into proceedings in the same fiscal year and 
whether a case would be heard that same year.
    So you end up with someone who may have entered years ago, 
gets that final hearing several years later, and then is 
counted as a no show. So what I cannot do, at least from ICE's 
data, is tell you sort of one to one apprehensions versus no 
shows because the immigration court docket is sort of 
backlogged.
    Mr. Carter. The reality is if the court cannot get to them 
for two years, it just gives them an additional excuse for not 
showing up for court, but they could be in Bangor, Maine. I 
mean, they are not sitting down in the Rio Grande Valley 
waiting to go to court like good little citizens. They are off 
to anywhere in the 50 states.
    Mr. Ragsdale. That is exactly correct. What we really again 
sort of need to do is obviously work with our partners at----
    Mr. Carter. And 66,000 in four months is a shocking number 
in any criminal court in the land. Okay.
    Mr. Ragsdale. It is a considerable volume.
    Mr. Carter. Having been there, I can tell you I do not want 
any 66,000 criminals in my court in four months.
    Mr. Ragsdale. It is a challenge.
    Mr. Carter. So take that and average it over a two-year 
period of time. If we kept that kind of consistency of 
crossings, it is an overwhelming flood.
    And my real question is that if we do not have available 
detention beds that we can fill and we have a shortfall, aren't 
we, in effect, back to catch and release?
    Mr. Ragsdale. So, again, I think we are certainly sort of 
back to catch and release because, again, the folks do remain 
in proceedings. And from the ICE perspective, we cannot what I 
will say is re-arrest or remove anybody until an immigration 
judge makes a decision.
    Mr. Carter. Well, let's just take one of our best ankle 
monitors. Okay? There is a point in time, roughly 60 days would 
be my guess, when the cost to the government of that ankle 
monitor equals or exceeds the cost of incarceration.
    Mr. Ragsdale. That is exactly right. I mean, again, it goes 
back to the speed of the immigration docket.
    Mr. Carter. And the immigration docket is slow as a snail 
in the wintertime right now.
    Mr. Ragsdale. I am sure it did not operate with the speed 
of your court. That I am sure of.
    Mr. Carter. Yeah. Well, of course not, but we had a 
different world. And I do not mean any criticism. I was felony 
only, so I did not have to mess with misdemeanors and, yeah, we 
could move. But even then, a thousand felony docket a year was 
a hard job. You are talking about tens of thousands of people 
on people's dockets.
    And the whole question, and one of the things that we have 
to deal with as a reality, is that there is a vast number of 
people who know if you overwhelm the border--I mean, they know 
how many people can be processed in the Rio Grande Valley. The 
network of rumors on the border has been around for longer than 
I have been alive and I have been alive a while.
    And I have been down there. I live in this world and I know 
they know which sector is open, which sector is closed. They 
know what courts are overwhelmed, what are not. They know they 
have overwhelmed the Valley right now.
    That means your chances of going across and surrendering to 
the Border Patrol, your chances are pretty darn good, probably 
one in three that you are going to be released. And you are on 
your way.
    And the court date, if you are given a court date, the 
court date you are given is probably 18 months away, maybe 
longer. In 18 months, you could have held four jobs in five 
states, you know. I mean, we do not know where you are. And if 
you have to pick every one of those people up, the United 
States Army could not pick those people up. They got right now 
until they cut us again, they got 450,000 troops.
    So, I mean, at some point, the reality is the system is 
being intentionally overwhelmed and if we give up the one thing 
we know that can at least make them worry is that if you go 
across, you might end up in detention. If they know the odds 
have gotten so good that they are not going to end up in 
detention, then it is going to enhance the number of people 
coming across the border.
    So this is my whole issue. Whether we like it or not, 
criminal justice is about deterrence as well as punishment. And 
would you agree or disagree that the chance of being detained 
and put in some kind of lockup is a deterrent to people coming 
across the border?
    Mr. Ragsdale. Our custody authority does not equate to the 
criminal justice. There is no punitive function in our 
detention authority. Our detention authority is solely for the 
purpose of removal, so we are sort of again similar----
    Mr. Carter. I know that is your theory. If I go interview 
the people that are in detention, you think they are going to 
tell me it is not punitive?
    Mr. Ragsdale. Well, I would not want to speculate as to 
what they think.
    Mr. Carter. Right.
    Mr. Ragsdale. I will say that again as a consumer of the 
immigration court docket, I think as you correctly pointed out, 
speed of that docket is really the key.
    Mr. Carter. By the way, I forgot to ask you. Is this number 
sufficient to detain all criminal aliens identified in prisons 
and jails throughout the criminal alien program assuming all 
jurisdictions honored ICE detainers before they are released 
from incarceration?
    I happen to be from the world of crowded county jails in 
Texas. And is the number that you are telling me that you all 
came up with, the 30,000 plus number, is that sufficient to 
take care of level one, level two, no level three? Can you 
still pick up everybody that is needed to be picked up at every 
jail in the United States?
    Mr. Ragsdale. So I believe the level one and level two 
number covers all our enforcement programs in terms of our 
flows. I can defer to Mr. Homan if he----
    Mr. Carter. Mr. Homan, you got any comment on that?
    Mr. Homan. I think with 30,500 beds will, as Mr. Ragsdale 
said, we will be able to detain the mandatory cases and the 
high-risk community threat aliens. The rest will be going to 
the ATD docket. That is based on current population.
    But to your point, more and more jurisdictions do not honor 
our detainers.
    Mr. Carter. I know. I know.
    Mr. Homan. I think criminal population is down. So if that 
was to turn around, that would be a population that we are not 
dealing with now. So I do not know the answer to your question, 
but it would add to the criminal alien population that we would 
have to detain.
    Mr. Carter. Well, I cannot speak for every jail in the 
United States. I can only speak for the Williamson County Jail, 
especially before we built our new expanded jail. We had the 
Texas Jail Commission on our backs about our daily numbers in 
our jail. And we had to move people out of our jail.
    And the first people we called, and this was back under the 
old system, we called the immigration folks and said come pick 
your people up because we need them out of our jail. They came 
on Tuesday. If they did not show up on Tuesday, we would turn 
them loose on Wednesday because they were overpowering, 
overwhelming our jail population and causing us to be fined a 
daily fine for being over our numbers.
    Now, that is just Williamson County, one county out of 254 
counties in Texas. Do the numbers.
    Mr. Homan. Well, sir, almost every week another county is 
choosing not to honor detainers. I mean, the fact is for 
California alone after the passing of the Trust Act, our 
criminal alien arrests in California has dropped over 25 
percent. You are talking about tens of thousands of aliens.
    I mean, it has gotten to the point it is a community safety 
issue now because level ones and twos are walking out of jails 
without attention from ICE. So it is a concern of ours. It 
something we need to--we need some changes.
    Mr. Carter. Well, it should be a concern of the citizens of 
the United States that--and, once again, I am making the 
argument that the people we are trying to have a policy to 
prevent coming into our country illegally know that when you 
overwhelm--it is just like back in the old days when they get 
there and 500 people would run across the border at the Border 
Patrol. The border patrol could not catch 500 people and so 
they would have--400 would get in and 100 get caught. That was 
good odds.
    It is the same concept knowing what you can process and 
they know they overwhelm the process. Knowing what you can 
detain, and they know they overwhelm the detention. And at that 
point in time, the effectiveness of the overall criminal 
justice plan, and I use that term because that is a term I am 
used to, if you want to call it noncriminal, I do not know what 
to call it, justice plan, law enforcement, it is enforcement, 
the overall law enforcement plan is to set up a way where we 
are dealing with people who are coming into our country 
illegally.
    Whether they come in and they are the nicest people in the 
world or they are the baddest people in the world is irrelevant 
to the plan to do it. And I think there is a conscientious 
effort to overwhelm. And I worry if we reduce the number of 
available beds, because where I came from, if we had to keep 
somebody in jail and we did not have a bed, we had to go out 
and contract for that bed. I do not know whether you have to do 
that or not.
    Mr. Ragsdale. We do have contract vehicles in place that 
allows us to bring our detention up and down. And, again, we 
certainly are mindful of obviously the instruction of our 
appropriation language and we will obviously meet that goal.
    Mr. Carter. And the contracts cost more, doesn't it?
    Mr. Ragsdale. It varies by location. Sometimes they are 
less expensive, some they are more expensive. But, you know, 
again, having what I will say is the multi-year funds would 
hopefully help us sort of----
    Mr. Carter. And I have gone way too far. Mr. Price.
    Mr. Price. Thank you, Mr. Chairman.
    I would like to continue this discussion just to gain some 
further clarity, if we might, and turn to some other questions 
later in the hearing.
    If the circumstance Mr. Homan detailed developed, that 
really would affect the projections for the ability to take 
care of level one and two offenders and it might indeed call 
for more detention beds. In the meantime, it seems to me you 
have made a reasonable estimate based on your best projections.
    And while this is a real dilemma, I understand that, the 
system is overwhelmed with these people coming over and with 
the kind of claims they are making, the credible fear 
processing that has to go on. It just is not clear to me that 
the answer to this is more detention beds or for there to be a 
congressional requirement that a certain minimum number of 
detention beds be maintained.
    By the way, the cost comparisons I have seen with 
alternatives to detention are something like $119 a day to keep 
people in detention versus $5.00 a day for alternatives to 
detention. Does that sound right?
    Mr. Ragsdale. So it is a blended rate on alternatives to 
detention. While the unit cost of alternative detention is 
lower on its face, it is sort of the cycle time or the time 
spent in----
    Mr. Price. No, no. That is what I am getting to. I 
understand. The per day rate, though, is as I just stated it, 
right?
    So obviously if the docket is much more crowded and the 
time in ATD is much, much greater than the average time in 
detention, then obviously that differential is going to be 
less. I thought it was a good deal more than 60 days or 
whatever was said earlier. I am not sure at what point we cross 
that line in terms of the time in ATD.
    Mr. Homan. Our estimates on ATD when you hit the right over 
300 day mark, that is when it is less cost effective.
    Mr. Price. Three hundred days, not 60 days? All right. 
Maybe I misunderstood earlier. All right. So that is a big 
difference.
    Mr. Homan. And it varies on the level of ATD. It can be 
technology only or it can be the more expensive full service 
which is more expensive, up to $11.00 a day. But if you do the 
blended option, you average it out, it is a little over 300 
days where it becomes less effective, less cost effective.
    Mr. Price. All right. Well, let's say we have these 
additional detention beds and let's say we are putting more and 
more people in detention. Then you are going to clog the 
detention docket even more, right? I mean, is there a tradeoff 
there?
    Mr. Homan. Well, sir, as far as the 34,000 mandate, you 
know, it all depends on operational effectiveness. It depends 
on seasonally. There are times we are going to be above 34,000.
    Mr. Price. Yes.
    Mr. Homan. There are times where we are below 30,000. Like 
today I think we are at 31,000. It depends on what is going on 
on the border. There are a lot of issues surrounding this. So 
at the end of this year, I suspect to be fully near the 34,000 
average daily population.
    So I can tell you the detain docket, those that are in 
detention, the docket moves quicker than those that are 
released and put on the non-detained docket.
    Mr. Price. Right.
    Mr. Homan. They get hearings quicker. So as far as, you 
know, what----
    Mr. Price. Excuse me. But my point is if you are altering 
that balance and putting more and more people in detention, 
then you are going to have a commensurate slowdown in the 
detained docket, right?
    Mr. Homan. Yes, sir.
    Mr. Price. Yes. So there is a tradeoff there?
    Mr. Homan. Yes, sir.
    Mr. Price. And as I understand it, there is more discretion 
being exercised with respect to the bond that is required for 
people with this making these credible fear claims. Surely that 
is an important part of this, too, because there is some 
discretion here. And that would have the potential to make 
absconding less likely.
    There are plenty of things we need to work on here, but it 
does not seem clear to me that the major solution to this is 
simply to mandate more detention beds.
    I just do not get it. It seems to me that this is a work in 
progress. You are going to have to make estimates about your 
needs as we go along. But nothing that has been said here this 
morning makes me believe that the estimates you have given as 
to the need for detention beds--and, therefore, the 
recommendation that we not come in with a larger mandate--is 
not justified.
    Would you like to comment on that?
    Mr. Homan. Well, who sits in a detention bed and who gets 
released on some form of alternative detention or out on bond, 
it is a case-by-case analysis. I can tell you we cannot 
possibly detain everybody that is arrested. We will need 
100,000 beds.
    So on a case-by-case basis, we need to decide who sits in 
that bed. So the ones that are mandatory detention by statute, 
the ones that are a danger to community, they need to sit in 
those beds first. So the decisions have to be made. Some people 
have to be released on bond or, as I said, I would need 100,000 
beds. So that decision is made every day.
    As far as bonds, there is a lot of discretion. It is based 
on do they have a criminal history, do they have ties to--do 
they have any U.S. citizen relatives, do they have an address 
they can go to. So a lot of things are done in order to set 
that bond.
    But that is just a first step. We can set a bond for 
$10,000. Then they get a redetermination bond hearing from a 
judge who can lower that bond or hold the bond. So it has got 
to be a mix of both to make the system work.
    Mr. Price. Right. All right. Well, to be continued. The 
system is being overwhelmed right now. We all know that. We 
know we have got to do something about it. But we will no doubt 
continue to debate whether a detention bed mandate at X level 
is the solution or is even a major component of the solution.
    Let me in the time I have here this first round ask you 
about enforcement priorities. And I know that there is a 
difficulty here in dealing with anecdotes, dealing with 
individual cases. I understand that very, very well.
    But you understand, I am sure, that it does not take too 
many problematic anecdotes, based on real cases, to send waves 
of apprehension through the immigrant community and to raise 
real questions about the kind of priorities that we are setting 
and exactly what it means to be targeting in the way we 
supposedly are targeting dangerous people in our enforcement 
activities.
    Just the quick details of a case. We have a fellow named 
Jose Alfredo Ramos Gallegos who entered the country at age 
eight. At 16, he was deported--15 years ago--then illegally 
reentered to join his U.S. citizen wife and first child. He has 
been a resident of Ohio for 24 years, and is the father of two 
U.S. citizens. He was pulled over by a police officer in Ohio, 
apparently, who questioned him about his immigration status. He 
was a passenger in a car where there was an infraction. Now he 
has been indicted by a grand jury for illegally reentering the 
country 15 years ago.
    And I know that it is not your role to seek an indictment, 
but it does seem to me to be a good example. And I must say we 
hear a good bit of this. I assume ICE has been involved in the 
case so far. I am not asking you to comment on this individual 
case.
    But does someone like Mr. Alfredo fit ICE's enforcement 
priorities? How do they go from being a passenger in a car 
pulled over by law enforcement in Ohio to being prosecuted by a 
U.S. Attorney and put in ICE removal proceedings? And what is 
ICE's role in determining whether someone like this will face 
federal charges?
    Mr. Ragsdale. A couple things. First of all, as you noted, 
the charging decision is obviously made by the Department of 
Justice. What I think you see sort of at play here is if you 
look at the strict letter of what the Immigration Nationality 
Act requires, someone who has a prior order of removal and the 
government, you know, has obviously gone to some level of 
expense and effort to effectuate that removal, the provision in 
this case, a reinstatement or an illegal reentry, the act, the 
statute says it shall be reinstated.
    So from sort of a law enforcement perspective as the act is 
currently written, it is fairly black and white. Obviously the 
charging decision is going to be made based on the volume in 
that judicial district. And, again, as I said, the U.S. 
Attorney's Office will ultimately make that decision.
    But just in terms of the men and women at ICE that have to 
make that decision, that is sort of the case that puts us sort 
of in the most sort of difficult place in that public debate 
because it is a place where the law is fairly clear.
    Mr. Price. Well, that is really what I am trying to get at 
and we will not resolve it at this moment. But obviously this 
man would never be targeted by ICE or anybody else had he not 
been a passenger in that car pulled over for a traffic 
infraction.
    So once the man is in your sights, you are saying I suppose 
you have no alternatives or have very limited alternatives?
    Mr. Ragsdale. We would certainly, you know, take a look at, 
you know, the charging decision. Obviously we would do that in 
a circumstance like this obviously with the Department of 
Justice. But somebody in that factual scenario that had never 
been encountered by ICE would certainly not be one of our first 
priorities except, like I say, he does have a prior order of 
removal. That is the facts in this case that sort of makes it 
an aggravating factor.
    Mr. Price. All right. My time has expired. Thank you, Mr. 
Chairman.
    Mr. Dent [presiding]. Thank you. I think I will recognize 
myself for five minutes and thank you for being here. I am 
going to focus on the issue of secure communities. Last year 
this committee applauded ICE for finally achieving full 
deployment of Secure Communities providing ICE with awareness 
of illegal aliens booked in custody by state and local law 
enforcement across the country. However, increased visibility 
provides limited advantages if law enforcement is unable to act 
on this information. Several jurisdictions continue to ignore 
ICE detainers, releasing potentially dangerous criminal aliens 
into local communities. The administration has maintained a 
posture of inaction allowing these jurisdictions to continue 
this practice unchecked. As a result of this inaction the 
number of jurisdictions choosing to ignore ICE detainers has 
increased, further exacerbating the threat to public safety.
    If you could answer some of these questions. How many 
jurisdictions are failing to honor ICE detainers in your 
estimation?
    Mr. Homan. The last count was 22.
    Mr. Dent. Twenty-two?
    Mr. Homan. They do not honor them fully or have limited how 
they honor them.
    Mr. Dent. Do you have a list of those communities? I would 
appreciate it if you would share that with the subcommittee, if 
you would. How does this number 22 compare to last year?
    Mr. Homan. It continually grows. I mean, on average once a 
month another jurisdiction joins the list so it is increasing.
    Mr. Dent. Do you think that the administration's refusal to 
take action against these jurisdictions is causing this number 
to bump up, to increase?
    Mr. Homan. I do not know the specific reason why these 
counties choose not to honor detainers. But I do agree that it 
is becoming a public safety issue when criminal aliens are 
walking out of a jail and the jurisdiction does not honor our 
detainer when we have identified them as an alien and they have 
been convicted of a crime and we cannot get our hands on them. 
This also causes an officer safety issue. I have got 6,000 law 
enforcement officers that now have to go out and look for this 
person rather than pick them up in the safe environment of a 
jail. So it is impacting our morale, it is impacting officer 
safety, and I think it is impacting public safety.
    Mr. Dent. Thank you for that answer. How many individuals 
have been released before ICE can take them into custody, do 
you know?
    Mr. Homan. No, we are working on that number now. We just 
recently started tracking electronically. My instructions to 
the field offices that are dealing with these jurisdictions, 
that they continue to send the detainer to the facility. Even 
though they do not honor them we are going to track what 
detainers we send to the facility and what detainers are not 
acted upon. So in the very near future we are going to be able 
to determine how many criminal aliens hit the streets without 
our attention.
    Mr. Dent. Can you tell me how many of these individuals ICE 
has been able to track down and how many are at large?
    Mr. Homan. I do not have those numbers available. What I 
can tell you though is we are dedicated to seeking to those 
individuals that fall under our priorities. So the fugitive 
operation teams and the criminal alien teams are out looking 
for them. So I can tell you we expend a lot more resources, we 
expend more money looking for somebody out in the public when 
they could have been apprehended in a jail.
    Mr. Dent. And then finally, and then I will end, obviously 
this is clearly a major threat to public safety, as you have 
indicated. And it is alarming that the administration continues 
to stand by idly while criminal aliens are being set free in 
our communities. Does the administration plan to take any 
action against these jurisdictions, the 22 or so?
    Mr. Ragsdale. We would obviously, that is much greater than 
a DHS decision. We would obviously have to work with the 
Department of Justice. There is a whole range of issues, Tenth 
Amendment issues, some federalism issues that they are 
attending here. I think as Mr. Homan points out from our 
purpose, you know, we would like to have folks partner with us. 
We do think we support public safety and border security 
through our enforcement programs. And you know, we would have 
to sort of defer to the Department of Justice on the litigating 
position.
    Mr. Dent. Thank you. At this time I am going to recognize 
Mr. Cuellar for five minutes.
    Mr. Cuellar. Thank you very much, Mr. Chairman. And again, 
to all of you, I appreciate what your men and women do. And I 
appreciate all of the good work. And if you see my good friend 
John Morton, please say hello to Mr. Morton.
    Let me just follow up on what the chairman just mentioned. 
Can you provide us a list of, well let me ask you, do you have 
any counties in the State of Texas that are not honoring the 
detainers? And if you have a list in Texas, I would like to see 
that list. And I assume the state, because you mentioned some, 
I believe there are some states that do not honor it. But I 
assume the State of Texas does honor it, number one?
    Mr. Ragsdale. I think we have great partners in Texas.
    Mr. Cuellar. Okay. Any----
    Mr. Homan. I am not aware of any jurisdiction in Texas 
that----
    Mr. Cuellar. No jurisdiction? Okay, good. The second thing 
is let us talk about the AUOs, the administrative 
uncontrollable overtime. What is the impact of this AUO 
decertification on your men and women, morale, etcetera, 
etcetera, etcetera?
    Mr. Ragsdale. Well I am going to start and then I am going 
to let Mr. Homan finish. So at ICE as well as some other places 
in the Department of Justice there are several statutory 
schemes that compensate our folks for overtime work. And we 
certainly operate at a tempo that, law enforcement is not an 
eight-hour-day. It is just that simple. What we have seen is 
sort of the advent of technology, the way we sort of staff 
headquarters, and just sort of as the work has evolved over the 
last the last several decades that the statute that provides us 
with the administrative uncontrollable overtime has not really 
kept pace with operations. So we have had some concerns about 
sort of the implementation of the practices around AUO. For Mr. 
Edge's program there is a different program called law 
enforcement availability pay. So we are in a situation that we 
have a blended workforce with two different schemes, and one of 
whom, particularly whether it is full time training officers, 
folks at headquarters, are not, at least as we understand our 
current understanding of the way AUO must be administered, were 
not properly on that scheme.
    It does present a challenge for us. Mr. Homan cannot run 
his program at headquarters without officers in the field 
holding their hand up and volunteering to come in. So we are 
looking to make sure that there is a scheme that compensates 
work that must get done but in a lawful and a way that follows 
the law and regulation.
    Mr. Homan. I can tell you the AUO pay system that was set 
up over 50 years ago does not make sense anymore, not in 
today's law enforcement. We are law enforcement organizations 
and other law enforcement organizations have a better pay 
system. This issue, as Mr. Ragsdale stated, is causing a 
retention issue now. A lot of these people have been 
decertified at the Academy headquarters, they want out. Either 
out of the agency or out of those divisions. We cannot operate 
without an academy training new officers and we cannot operate 
without staff and headquarters. We need some sort of pay reform 
fix. I mean, there is a lot of things floating around. I know 
there is the border patrol pay reform option out there. I also 
know there is thought about, you know, LEAP, and should we be 
on LEAP. And our national labor union has a pay reform package 
they are pushing on the Hill. So I know there is a lot of 
options out there.
    What I ask for, I think it is important to everybody in 
this room that we get some sort of pay reform that protects the 
pay for my law enforcement officers. These people that, you 
know, get up everyday and strap a gun and badge to themselves 
and try to uphold these laws. And this is affecting them 
personally. It is affecting their families. There are officers 
that this is a huge impact. And whatever morale is left is 
diminishing with an issue like this being held above their 
heads.
    Mr. Cuellar. I hope we can work in a bipartisan way to find 
a solution to the men and women. Talk to me about the influx of 
unaccompanied alien children on the southwest border. I know 
that at one time you had a place in Nixon, Texas that I went to 
go visit. And it is sad, members, because you are talking 
about, here I have got two young girls. And I could never 
imagine myself to be in a situation that would send my young 
kids unaccompanied, put them in the hands of [speaking foreign 
language]. And we heard stories of what happened to those young 
kids. But young kids, young boys and girls are sent. It is a 
tragedy. But what are you all doing to address the issue? And 
how are you all handling that particular situation basically 
to, I guess in many ways to relieve your law enforcement from 
doing that work? I mean, it has got to be addressed. But what 
are your thoughts on that?
    Mr. Homan. Well the unaccompanied alien children, we call 
them UACs, issue is continuing to grow and it is at an all time 
high. And it is causing an effect on my operations. What have 
we done with the issue?
    First of all, you know, I know there has been a lot of 
questions. Should we legally be doing this? Are we committing 
some sort of criminal conspiracy? And the answer is no. One has 
got to review the Homeland Security Act of 2002 and the 
Trafficking Victims Protection Act of 2008, and that does 
several things. Number one, it took the care and custody 
responsibility for these UACs, they took it from legacy INS and 
gave it to Health and Human Services Office of Refugee 
Resettlement. Also it made it clear that ICE is required within 
72 hours to turn these UACs over to ORR. Also if you read the 
appropriations language, we are appropriated transport aliens 
and it specifically delineates funds to be used for the 
transportation of the UACs. So we are doing what we have to do 
within the statute, within the law. And it is tying up law 
enforcement officers to do those escorts. And do I think there 
is a better, there is more mission critical work that my law 
enforcement officers can do? Absolutely. Do my officers not 
like this type of work? Many of them do not. Because it, but 
right now according to statute, according to policy, according 
to the appropriations, this is work we must do.
    What we have done to decrease this, our involvement in 
this, is we work with Health and Human Services and they have 
opened up almost 2,000 more beds in Texas. That saves us money 
from transporting these juveniles across the country. We have 
also, HSI is, my counterpart on the other side of the table, 
they have initiated investigations into these organizations 
that smuggle UACs. You know, it is an unfortunate, and I was 
down in the Rio Grande Valley myself, it's a sad situation and 
we are out there dealing with it.
    Most recently what we are doing, because I think that my 
law enforcement officers need to be assigned to more mission 
critical law enforcement duties, is we just sent a request for 
information out try to contract some of this work out so it 
does not tie up my law enforcement officers.
    Mr. Cuellar. Well thank you so much. I have more questions 
but we will wait until the second round. Thank you so much, Mr. 
Chairman. Thank you.
    Mr. Dent. The chair recognizes the gentleman from Texas, 
Mr. Culberson.
    Mr. Culberson. Thank you very much, Mr. Chairman. One of 
the most critical things the committee has to do is have good 
data in order for us to make the decisions we have to make on 
allocation of these very precious resources, our taxpayers' 
hard earned tax dollars. And I wanted to ask if I could, could 
you tell us how many people are on the non-detained docket?
    Mr. Ragsdale. So again, we would sort of defer to the 
Executive Office for Immigration Review for the precise 
numbers. I think it is somewhere around 360,000-some. But EOIR 
in their statistical yearbook is the, sort of the repository of 
that data, the official number.
    Mr. Culberson. I am sorry, how many?
    Mr. Ragsdale. It is a little over 360,000.
    Mr. Culberson. And that is on the non-detained docket?
    Mr. Ragsdale. And I am doing this from memory----
    Mr. Culberson. Yes, sure. Just ball park.
    Mr. Ragsdale [continuing]. So what I will say is let us, I 
think it is somewhere around that number. Or that, actually 
that could be the number they completed last year. So I think 
it is probably better to get that number from EOIR and we will 
provide that to you.
    Mr. Culberson. The best number my staff was able to find on 
the non-detained docket was estimated to be about 1.8 million 
folks that have been given essentially a notice to appear. If 
you have been, if you are encountered within 25 miles of the 
border of course you are the responsibility of the Border 
Patrol. And if you are encountered inside the country you are 
the responsibility of ICE. And those folks that have been 
picked up inside the country or have been detained by some 
other law enforcement agency and brought to your attention, 
those that have been given a notice to appear, the best numbers 
my staff was able to find are about 1.8 million who are on the 
non-detained docket, those that have been given a notice to 
appear at some point in the future. You would not disagree with 
that?
    Mr. Ragsdale [continuing]. I will give you that number. I 
do not think that our, Mr. Homan, do you know that number off 
the top of your head?
    Mr. Homan. I think that is a close estimate.
    Mr. Culberson. But 1.8?
    Mr. Homan. Yes, sir.
    Mr. Culberson. Yes, the 1.8----
    Mr. Homan. I have seen 1.6 and 1.8. But again we would have 
to----
    Mr. Culberson. Yes, ball park. Because the point is, those 
who are in alternatives to detention the number is about 25,000 
according to the best numbers that we can find.
    Mr. Ragsdale. Right. And that does ebb and flow----
    Mr. Culberson. They ebb and flow.
    Mr. Ragsdale [continuing]. Yes.
    Mr. Culberson. But again, if you are looking at a 
population of approximately 1.8 million people who have a 
notice to appear, but only 25,000 are in an alternative to 
detention, that represents about 1.4 percent are on the 
alternative to detention. So that is basically somebody who has 
been given a notice to appear and they actually showed up.
    I remember going with, truly Henry is one of my best 
friends in the world, Henry Cuellar. Remember, Henry, we were 
down in Laredo and the officers were telling us that the 
smugglers would come across the border and actually look for an 
officer and, do you remember that? They called them a permisso 
slip. And they, I want you to find the officer and say, you 
know, I need my permisso slip for all my guys here. And they 
would hand out the notice to appear. And I guess as far as I 
could tell, a lot of those folks just make up a name. I would, 
too. And hand him the permisso and those boys, they were gone, 
never to be seen again.
    Mr. Ragsdale. Well I think we----
    Mr. Culberson. That is basically right, remember that, 
Henry?
    Mr. Ragsdale. Well there is some progress that has been 
made here. The expansion of expedited removal does allow 
Customer and Border Protection Officers and Border Patrol 
Agents to order folks removed on their own, never seeing an 
immigration judge. So in once sense, I mean from 2007 on, that 
number has decreased.
    Mr. Culberson. But to this, if we are looking at still 
about only 1.4 percent, 25,000 are in alternatives to 
detention. I always wondered what was wrong with those 25,000 
that actually show up, you know? Can you imagine the guys that, 
I mean----
    Mr. Ragsdale. Well----
    Mr. Culberson [continuing]. Would show up voluntarily to be 
deported, or to be given an alternative to detention.
    Mr. Ragsdale. If I----
    Mr. Culberson. The system is just, like Judge Carter said, 
badly overwhelmed. And we are all on this committee committed, 
we understand there is an absolute catastrophe, humanitarian 
catastrophe on the border. And again, my good friend Henry 
Cuellar and I, who served, we served together in the Texas 
House since '86, and Henry and I spent a lot of time together, 
I spent a lot of time in his district. And it will just break 
your heart to see these families. I mean, Nuevo Laredo had to 
be evacuated. I mean it is still like a ghost town, isn't it, 
Henry? Who wants to live down there? You cannot survive. And 
your heart goes out to these folks and their families. Any of 
us would do anything you can to help your kids get out of a 
situation like that.
    But I think Judge Carter really nailed it on the head. You 
know, what we have really got to focus on, and I know, I know 
that you, each of you are law enforcement officers and you are 
committed to, you know, take an oath to, preserve and protect 
the Constitution, and enforce the laws of the United States. I 
noticed Mr. Homan that you started out as a police officer in 
New York. And it is of deep concern to all of us. Because no 
matter where you live in the country you expect the law 
enforcement officers and the criminal, and again the law 
enforcement system to protect lives and property. And the folks 
that Henry represents on the border have tremendous, they 
support overwhelmingly to enforce the law. It is just a matter 
of public safety, safe streets, good schools, a good economy, 
Laredo being the largest inland port in the United States.
    And the reason I keep looking at Henry is really we are 
dear, good friends. But I mean, this is an area where we really 
have strong agreement. That if you just enforce the law as it 
is written you are protecting the community, you are 
strengthening the economy, you are making sure kids can play in 
your front yard, and to us, the Homeland Security Committee, it 
is our responsibility as appropriators to be sure that the law 
as it is written is being enforced. And this is a big worry. If 
you have got that many people on the non-detention docket, 1.6 
to 1.8 million, the law is not being enforced. Whether there is 
improvement or not, you have still got essentially only, what 
is that? 98.6 percent of the people that are picked up are 
given a notice to appear and they just vanish.
    Mr. Ragsdale. Right. The only thing I would just, just to 
make clear is the responsibility for managing the non-detained 
docket is the Department of Justice. That is beyond our 
control. We are a customer of that process.
    Mr. Culberson. I know. That is my other subcommittee, 
Commerce, Justice, Science. So I am helping to get ammunition 
for that hearing which I look forward to with Attorney General 
Holder.
    Mr. Ragsdale. Thank you, sir.
    Mr. Culberson. I recognize that. You guys are the ones in 
the street doing the best you can to enforce the law. I 
understand. And we also did give the committee, if I--wow, five 
minutes goes fast. I will be back. I will be back. Thank you.
    Mr. Dent. At this time I would like to recognize Ms. 
Roybal-Allard for five minutes.
    Ms. Roybal-Allard. Thank you very much, Mr. Chairman. I 
apologize for being late but I have another hearing happening 
at the same time.
    First of all, just going back to the questioning that we 
just heard, is it true also that the success rate of 
alternatives to detention is over 90 percent?
    Mr. Ragsdale. So it is again a blended number in the sense 
that folks do not always stay. It is not an intact number in 
the sense that someone could be detained, they could be placed 
on alternative detention, they could come off the alternative 
detention, and back on it. So it is also not, it is a blended 
number year to year. So what we really need to do is make sure 
that the folks that present a risk of flight are either 
detained or in an alternative to detention. And folks where we 
can actually get it, when there is a decision from an 
immigration judge and they need to surrender to be removed, 
those folks are either detained or in an alternative detention. 
But as we sort of had the conversation to the extent that folks 
that are still waiting for an immigration to make a decision 
that may take several years, having them on even a very 
inexpensive form of alternative detention is not cost 
effective.
    Ms. Roybal-Allard. From 2007 to 2011, nearly 200 women 
reported suffering sexual abuse while in ICE custody. And 
Secretary Johnson, as you know, has finalized new regulations 
to reduce sexual abuse against immigrant detainees. This is a 
very welcome thing and is a very critical first step towards 
protecting immigrant women in detention. But the key to the 
success will actually be its implementation. And this will be 
especially challenging since approximately 50 percent of 
detained immigrants are kept in jails and prisons that contract 
with DHS. So my question is that given the fact that so much is 
contracted out, I would like to know what plans are being made 
to ensure that not only in the DHS facilities but also in the 
contracted facilities that hold immigration detainees are, what 
are the efforts that are being made to inform and to implement 
and to train folks on these new regulations and procedures?
    Mr. Ragsdale. So we have obviously a cross sort of office 
team at ICE to implement the Prison Rape Elimination Act 
regulations. Our Office of Detention Policy and Planning, and 
Office of Detention Oversight will obviously work with our 
enforcement and removal operations. Our detention service 
managers, our contracting officers are all on notice to make 
sure that folks we do business with adhere to our standards.
    Ms. Roybal-Allard. But is some kind of a training, I mean, 
what, actually how are you making sure that this is being 
implemented and actually happening so that both with DHS and 
the contract facilities they know exactly what they are 
supposed to do? Is there some kind of a training? Or is it 
right now just kind of oversight and hoping that everybody does 
what they are supposed to do?
    Mr. Ragsdale. So the regulation is effective 60 days from 
the release, and obviously we will work with our folks through 
a blended approach, including some training, to make sure they 
meet our standards. But in most circumstances, you know, it is 
a requirement for them to meet our standards.
    Ms. Roybal-Allard. Okay. And----
    Mr. Ragsdale. I am sure Mr. Homan agrees.
    Mr. Homan. Yes, our Office of Detention Planning and 
Policy, which is run by Kevin Landy, this is one of his biggest 
priorities right now, to roll out that training, and to, right 
now our first priorities are SPCs, our large dedicated contract 
facility which holds most of our detainees. But that training 
and implementation is beginning.
    Ms. Roybal-Allard. Okay, great. ICE issued new detention 
standards in 2011 in order to improve safety and security 
conditions of confinement for detainees. However, three years 
later these standards have yet to be implemented at many of the 
approximately 250 facilities where ICE holds immigrants. This 
raises concerns about still inadequate medical care, 
insufficient hygiene supplies, limited contact visits with 
family, limited outdoor recreation, and verbal abuse by jail 
personnel in many facilities. What are your plans to fully 
implement the 2011 standards in all of the facilities used by 
ICE and the contract facilities, and what is the timeline to do 
that?
    Mr. Ragsdale. So we have obviously, what we have done is 
sort of covered our largest detention centers first. Our SPCs, 
our dedicated contract facilities, and we have sort of gone in 
descending order. Sort of the next traunch, as we have sort of 
done it on sort of an average daily population, I think that 
number is around 200? I am looking at Mr. Homan because I am 
not sure of the precise number but I think that it is around 
200. So we are focusing the next sort of traunch of 
implementation on folks that have, you know, they are actually 
regularly doing business with us. There are some of that number 
you just described that may have one or two folks over some, 
you know, intermittent period of time.
    As we go into negotiations with our providers there are 
some folks that can meet our standards rather easily. In fact, 
at almost little to no cost. There are other folks just for 
brick and mortar reasons will have to make some changes that 
are going to cost some money. So what I have actually asked our 
Chief Financial Officer working with our ERO folks is to give 
me sort of an execution plan so we know sort of, you know, what 
our costs are now, what our costs would be if we need per diem 
rates to meet this increased cost, and then we will see as we 
attack down that list to make sure those standards get 
implemented.
    Ms. Roybal-Allard. Is my time up? Okay.
    Mr. Dent. At this time I would like to recognize the member 
from Tennessee, Mr. Fleischmann, for five minutes.
    Mr. Fleischmann. Thank you, Mr. Chairman. Good morning, 
gentlemen. I apologize for my late arrival. I was at another 
subcommittee hearing down the hall. I am sure there has been 
some discussion about the issues of detention beds so I will 
not go into too much detail about the statutorily mandated 
level of 34,000 beds. I would like to follow up on a discussion 
we had when your agency testified before this subcommittee last 
year regarding cost comparisons between detention and 
alternatives to detention.
    The proposed budget makes a noticeable shift toward the 
latter of these in the name of cost effectiveness. Last year we 
were told that the average cost per day of alien detention was 
roughly $120, whereas alternatives to detention, ATDs, 
purportedly cost much less per day. However, the average length 
of stay for individuals in detention is much shorter than the 
average time individuals spend on the non-detained docket, a 
matter of days or weeks compared to a matter of years. The 
extreme difference in processing times translates to much 
higher total cost per individual for the use of ATDs compared 
to the cost of detention by the numbers provided last year.
    Mr. Homan, we had a three-part question, sir. Can you 
provide with, first, the current average processing times for 
individuals in detention and for individuals on the non-
detained docket? Second, the average per day cost for ATDs, 
which you plan to expand the use of? And third, your estimate 
of the cost of reapprehending individuals who have disappeared 
while on the non-detained docket? Thank you, sir.
    Mr. Homan. All of these answers are, they are hard. I mean, 
the average processing time for somebody, whether in detention 
or ATD, it depends on the specific case. It depends on if they, 
how quick they get in front of a judge. It depends on if they 
appeal to the Board of Immigration Appeals, the second layer of 
immigration proceedings, or if they even appeal the case to the 
appellate court, I mean to the district courts. So it depends 
on the specific case and how complicated those cases are. So 
some of them can be in detention for a long time. It depends 
how quick we can get a travel document to return that person to 
their homeland.
    An ATD docket, the same thing. It depends on how quick they 
get in front of a judge. In some areas of the country they may 
see a judge within 18 months. In some areas of the country it 
could be three, four, five years. So it is really a hard 
question to answer.
    What I can say is the average cost of a detention bed right 
now is $119.86. ATD, a blended cost is around $11 a day. So at 
some point, which we figure is a little over 300 days, that ATD 
becomes less effective. Because once you get over that 300, get 
to 400 days, then that cost of ATD does not equate to the same 
as they would have got if they would have been in detention. So 
that is a hard question to answer because there are so many 
variables, so many factors involved in this. I think the 
overarching, what we are trying to do is put the right people 
in those beds. And it is a community safety issue, as Mr. 
Ragsdale says, a flight issue. And we have got a limited number 
of beds, put the right people in those beds. People who are not 
a danger to the community, do not have the criminal history, 
and have, you know, maybe have U.S. citizen children, maybe 
they have been long time residents here. They would be served 
better on the non-detained docket on some form of ATD.
    Mr. Fleischmann. Okay. How about the third part of that, of 
reapprehending individuals, the cost?
    Mr. Homan. Again, there are so many factors involved. I can 
tell you it costs a lot more to seek, identify an alien in the 
public than it does to have that alien in detention. I mean, 
the same as I testified earlier, if we can get an alien in the 
jail, that is a lot cheaper than having the fugitive operations 
team spend weeks, maybe months looking for the individual in 
the general public.
    Mr. Fleischmann. Thank you, Mr. Chairman. I yield back.
    Mr. Carter [presiding]. Thank you, Mr. Fleischmann. Mr. 
Edge, Agent Edge, we have been giving you a rest here. But let 
me start first by saying I understand ICE played a considerable 
role in assisting the Mexican police in bringing down the 
world's most notorious drug lord, Joaquin ``El Chapo'' Guzman. 
Before I ask you some questions I want to congratulate you on 
your participation in that effective law enforcement activity. 
We are grateful for the men and women in your force that 
assisted in that. This is a very, very bad guy. I hope we can 
hold on to him. He escaped once before. I would like to see him 
in an American prison. But I am hoping that our Mexican allies 
will do a good job of sitting on this guy. Give us a brief 
sketch of what your participation was in that operation.
    Mr. Edge. Well, given the nature of the investigation and 
ongoing prosecution, I would prefer, sir, if we could do that 
under another----
    Mr. Carter. A secure situation? Okay, that is fair. But I 
know we are all aware that you were actively involved in that. 
And we commend you and the Mexican authorities for that take 
down. It is very good.
    Mr. Edge. Thank you very much. We are very proud of our 
agents who participated in that investigation.
    Mr. Carter. Now let us talk about the matter at hand, the 
budget request. The funds included in the fiscal year 2015 
request, can you maintain the same level of effort as you did 
last year? Can you maintain an effective and healthy rotation 
for your existing investigative teams? What are your plans for 
hiring staff with the additional funds provided by Congress in 
2014? How many agents and support staff will ICE be able to 
bring on board with the additional funding from Congress in 
2014? And can we expect to see an increase in investigative 
staffing or will funds be used only to backfill attrition? I'll 
stop there.
    Mr. Edge. Certainly. Thank you very much for the 
opportunity to answer that question. We had a record year as 
far as investigative hours, well over a couple of hundred 
thousand hours that we have been able to affect our border 
security responsibility. And we also will find ourselves with 
this year's budget being able to hire at least 24 special 
agents. We also hope to be able to backfill some positions due 
to attrition.
    Now the challenge for us will be to sustain those positions 
in the out years. But working with the Department of Homeland 
Security as well as your subcommittee we look forward to making 
sure that we will be able to continue some growth down the 
road. Over the past couple of years we have had to watch our 
pennies, so to speak, and have done a good job of that in 
preparing for, you know, leaner years. As the ranking member 
indicated, this is an era of limited resources. And we 
certainly recognize that at HSI and have done our due diligence 
to make sure that we are going to be in a good place moving 
forward.
    Mr. Carter. So we can get a picture of what your needs are, 
describe for us the template you followed for manning an 
investigative team? What are some of the support functions 
critical to an investigator who has to develop a water tight 
case? Compare HSI's template to the FBI, the DEA. And do you 
believe investigative hours are lost because agents are 
conducting administrative functions?
    Mr. Edge. Well certainly with our more than 6,000 special 
agents we would want all of those agents to conduct long term 
transnational border related investigative work. Unfortunately 
we do have a cadre of agents that do conduct administrative 
tasks but those tasks are necessary for us to move forward as 
an organization. We have numerous positions, for example, 
intelligence analysts. Right now our ratio is 15 to one. The 
ideal ratio would be nine to one for us. We require technical 
enforcement officers to assist us in our investigative work. 
And right now we have, we would like to get to a ratio of 50 to 
one. So we are definitely, we recognize that it is great to 
have special agents but it is also important for us to be able 
to hire those with other expertise.
    Mr. Carter. Well and your whole goal is to make your case 
solid and strong. And these investigative people, these 
associates that help you with these various templates are 
important to this overall picture of making your case to go to 
trial. We all watch the television and see what these support 
personnel do to help make the case.
    Mr. Edge. Absolutely. I mean, as you are well aware there 
is more to an investigative effort than just one case agent 
working the case.
    Mr. Carter. And your goal and my goal and our goal is to 
make sure that every special agent has all the tools he needs 
to be the most effective special agent he or she can be.
    Mr. Edge. Absolutely. And analyzing that information is 
also important, too. That is why the----
    Mr. Carter. Well that 50 to one ratio, and those ratios are 
important for us to know so that as we look at support 
personnel and so forth and make funding decisions we can try to 
come up with solutions to make sure that every special 
investigator is able to have the support necessary to make a 
very effective case. And that is why I ask these questions.
    How many more investigative hours would be possible if you 
had more adequate support staff?
    Mr. Edge. Well certainly if we had more adequate support 
staff we could increase our hours. We had a record number of 
hours this year and we certainly could better able, be in a 
better place to increase our hours in the future.
    Mr. Carter. And as I have told you when we have met before 
in my office, I think ICE does a heck of a job. They do a heck 
of a job with what they have got. And we want to reinforce it. 
Both David and I want to reinforce this effort so knowing what 
support staff you need, that kind of information is important 
to us. And I thank you for that.
    Mr. Ragsdale. Sir, if I may just add, one of the other 
things they have done sort of very well, it is not simply just 
about the volume of investigative hours, it is really driven by 
outcomes as we look at dismantling transnational criminal 
organizations as opposed to simply lower level cases. HSI has 
done a very good job in terms of prioritizing that work, and we 
would also like to share that with the committee in terms of, 
you know, bigger cases have bigger outcomes with bigger impacts 
on law enforcement.
    Mr. Carter. Certainly. And we appreciate that.
    Mr. Price. Thank you, Mr. Chairman. Mr. Ragsdale, I just 
want to take another minute with this case we were talking 
about and then turn to other matters. But I do bring up Mr. 
Alfredo, not because we want to revisit that case in detail but 
because of the light it might shine on some of these priorities 
that you are setting, some of the discretion that you have, 
some of the allegations that we hear about how enforcement 
authority is being exercised. I really think it is important 
for us and the American public to have a better understanding.
    Mr. Alfredo, I believe, fell under your priority three, 
according to the information I have, a very low priority 
normally. And you said that. You said this is not a guy you 
would go after in the normal course of things. It is low within 
priority three. This is a previously removed alien. He was 
removed 15 years ago, and has not been convicted of any crime.
    Now I wonder if you could walk us through how this would 
have happened, or how this seems to have happened? I would 
wonder why as a passenger in a car when the driver was pulled 
over for an infraction, why Mr. Alfredo would have been booked 
in the first place. But he was. And supposedly information was 
obtained on him that would have revealed this removal 15 years 
ago. At that point, what discretion does ICE have? Would ICE at 
that point have made the decision to detain or not to detain? 
How is that decision related to the decision to prosecute or 
not prosecute by the judicial officials? To repeat the question 
I posed a while ago, how would it happen that a passenger in a 
vehicle would have ended up where he has ended up?
    Mr. Ragsdale. So a couple of things. First of all, you 
know, every state and local law officer who stops a car by the 
side of the road, we want that officer to have as much 
information about who is in the vehicle, you never know who you 
are going to run up against. So that is obviously, you know, a 
question of identification documents. And then also by statute 
ICE is required to respond to inquiries from state and local 
officers, we use the LASC in Vermont to respond, and that can 
be done by phone, by radio, as well as there is an automated 
way to make those queries. So by statute we are required to 
respond to those inquiries.
    So, you know, once that gentleman's immigration history was 
made apparent either ICE or Customs and Border Protection, it 
would be a Border Patrol Agent, it could be someone from field 
operations, could also sort of bring, you know, get an 
Assistant United States Attorney on the phone to present that 
case for prosecution. Under the facts as you have described 
them, and again I do not know the precise facts of that case, 
but someone who has been ordered removed and has reentered the 
United States subsequent to being removed without the 
permission of the Attorney General or the Secretary is amenable 
for prosecution for a federal felony. Now----
    Mr. Price. Well he could be prosecuted.
    Mr. Ragsdale. As I said----
    Mr. Price. You established that. Obviously that is true. 
But it begs the question, doesn't it, of what kind of 
discretion you have. Whether you were compelled in this case to 
move forward?
    Mr. Ragsdale. Right. And again, since I am not familiar 
with the facts of the case----
    Mr. Price. Well----
    Mr. Ragsdale [continuing]. Don't know if it was an ICE case 
or a CBP case. But I will just tell you that, you know, I think 
that is one of the things that we, as we enter the, sort of the 
immigration debate is, you know, when we find folks that have, 
you know, been removed, been warned, you know, by an 
immigration judge not to reenter the United States, and then we 
find them again, for I think folks both from ERO, HSI, and I 
will say at CBP, that is not always the most easy thing to walk 
away from.
    Mr. Price. I am aware that it is not. And we will leave it 
at that. We may want to make sure we understand the details of 
this particular case for the light that it might shed on these 
broader issues. But surely something is amiss when a man, 
assuming that facts that we have are correct, is separated from 
his family, and shipped out of the country. That certainly is 
not what the kind of guidelines that you have been working with 
envisioned. Yes, sir.
    Mr. Homan. Sir, if I can address our prioritization. First 
of all, I did start my law enforcement career as a police 
officer. And there are times when depending on the 
circumstances you want to know everybody in that vehicle. It is 
an officer safety issue. But talking about prioritization, what 
ICE does, I have been in this game for over 30 years. You know, 
I have seen the entire life cycle of illegal immigration. I 
started out in the Border Patrol on the front line. I became a 
special agent investigating alien smuggling organizations, and 
traffic vendors. Now I am on the end of the game, I am on the 
detention and removal game. So I understand immigration 
enforcement. And I also understand the need for prosecutorial 
discretion and clear priorities.
    You know, we must operate, ICE must operate and execute a 
mission within a framework provided to me, whether that is 
policies, resources, money, whatever. Prioritization is 
important in what we do. And my officers out in the field, my 
agents out in the field who enforce these laws are doing almost 
a perfect job in executing the mission that was given to them. 
Last year, if you look at our removal numbers as Mr. Ragsdale 
testified earlier, 98 percent of the people we removed fell 
into one of the priority buckets. That is almost perfect 
execution within the framework provided for us. So there is a 
need for prosecutorial discretion.
    I have been a law enforcement officer for 30 years and we 
cannot arrest everybody, we cannot prosecute everybody, we 
cannot remove everybody. It only makes sense. And two years ago 
we had a record year, 409,000 removals. If you put that in 
contrast with 11 million or 12 million illegal aliens in this 
country, we have shown hitting on all cylinders, working within 
the framework provided for us, given the resources we have 
gotten, we are touching less than four percent of those people. 
It is my opinion those four percent need to count. Should it be 
the first 400,000 in the door, first 400,000 we encounter? I 
think it would be the first 400,000 that affects community 
safety. So prioritization when it comes to criminal aliens, 
fugitive reentries, and recent border incidents with Border 
Patrol, that is where we need to focus our prioritization. So 
me, I know that is not popular amongst many people. And my old 
boss had a favorite saying that 50 percent of the population do 
not like what we do 100 percent of the time. But I think the 
prioritization we do makes sense. I think it is the way we have 
got to do business. And I think we are very successful working 
within the framework that we are working within.
    Mr. Price. Well I appreciate that statement. And believe 
me, that has been a theme of this subcommittee for years. That 
there need to be priorities set in immigration enforcement. 
That we need to focus on the dangerous people, the people who 
are a threat to the community who need to be out of this 
country. And you know, we have had sometimes trouble on the 
House floor convincing our colleagues of the legitimacy of 
this. But as a matter of fact it is basic. And any prosecutor 
in the country is going to exercise their discretion, and 
certainly ICE needs to exercise discretion. So to the extent we 
are focusing more and more sharply and more and more 
effectively on the people who really pose that kind of threat 
and who need to be targeted, then that is exactly the job I 
think you are called on to do.
    The question I am raising today I suppose is a subset of 
that: how tight, how effective is this targeting? And are there 
ways in which some of these anomalous cases are being pursued 
that really should not be? But my intent here is to underscore 
the importance of discretion and of targeting, certainly not 
the contrary.
    Mr. Homan. Well I would say that 98 percent falling into 
priority buckets is almost perfect execution. I would say for 
those cases that come up where they may be a priority 
apprehension, we take a case by case consideration. The field 
officers have that authority. If you have U.S. citizen kids, 
you have health issues, if you have a U.S. citizen child 
serving in the U.S. military, these are all factors that come 
into consideration on prosecutory discretion.
    Mr. Price. And they most certainly should come into 
consideration. Mr. Chairman, do I have any more time to shift 
to another topic? Or should I wait until the next round? I'm 
out, all right. I will hang around. Thank you.
    Mr. Carter. Mr. Culberson.
    Mr. Culberson. Director Homan, if I could follow up on your 
point? I thought I heard you say, and I want to make sure I 
understood, that you only touch about four percent of the 
entire population of folks that are here----
    Mr. Homan. If you believe the estimate there is 11 or 12 
million illegal aliens in this country and we on our best year 
removed 409,000. We are removing a little less than four 
percent of the reported illegal alien population.
    Mr. Culberson. Okay. When you say removal, essentially 
these are folks that are deported, taken out of the country?
    Mr. Homan. Yes, sir.
    Mr. Culberson. And do you include in those numbers of 
deportations, the 400,000 that you are referring to, you are 
counting, as we learned, as I learned yesterday from the 
Secretary of Homeland Security, you are counting among those 
folks border patrol turn backs and turn arounds?
    Mr. Homan. Well----
    Mr. Culberson. That is part of the 400,000 that you are 
counting? President Obama said so publicly, and then yesterday 
the Secretary of Homeland Security confirmed that within that 
400,000 are included individuals who have been stopped by the 
Border Patrol and then they are immediately put back across the 
border?
    Mr. Homan. There is not a yes or no to that question. Let 
me explain something.
    Back in 1984, I became a Border Patrol agent. I told the 
president, we have always claimed removal for somebody that was 
arrested by the Border Patrol, that if we transported, detail, 
provided medical services, put them in front of the immigration 
judge and removed.
    What you are speaking about, sir, is what they call the 
alien--it is called ATEP program, that we worked with the 
Border Patrol on and I think it was good border enforcement 
strategy. What we were doing with the Border Patrol under the 
ATEP, Alien Transfer Exit Program, was that aliens that were 
arrested in Texas, we would take custody of those aliens, we 
would detain them and remove them to another state----
    Mr. Culberson. Sure.
    Mr. Homan [continuing]. Separating that alien from the 
smuggling organization.
    Mr. Culberson. Yeah. They are turned around, sent back 
across the border.
    But I mean you are--that 400,000----
    Mr. Homan. We detained them----
    Mr. Culberson. Yes, sir.
    Mr. Homan [continuing]. And we remove them. So we have 
always claimed those arrests.
    Mr. Culberson. Those that are removed and put back across 
the border in a completely different sector?
    Mr. Homan. Yes, sir.
    Mr. Culberson. But I understand from the secretary, 
yesterday in the numbers that we have seen, that you are 
counting among that 400,000, folks that are the put back across 
the--they are basically picked up by a Border Patrol agent at 
the border and returned to the other side of the border within 
that sector as well.
    Does that 400,000 include any of those?
    Mr. Homan. No, sir. As a matter of fact----
    Mr. Culberson. They have to be--the 400,000----
    Mr. Homan. Yeah, we suspended the ATEP program, flying 
these aliens to other states and separating them from their 
organizations, because we needed to use those airframes to 
increase Central American removals in Rio Grande Valley.
    We are still assisting the Border Patrol in moving the 
aliens from one sector to another. We do not claim those 
removals because we haven't detained them. We haven't 
transported them by airframe. So as that program remains, 
removing them from one sector to another--we do not claim those 
removals because we are not expending a mass amount of 
resources to do that work.
    Mr. Culberson. Okay. So the 400,000 then, those folks are 
actually being----
    Mr. Homan. The 409,000, approximately 54,000 of those were 
in the ATEP program where we took custody by somebody arrested 
by the Border Patrol. We detained them in one of our beds. We 
used our transportation assets either a day or two later to 
remove them to another state. My resources--my money, yes, 
those removals----
    Mr. Culberson. So they, then, could be put back across the 
border?
    Mr. Homan. Yes, sir.
    Mr. Culberson. Okay. If I could also, very quickly, ask 
about--because, obviously, you want to make sure that you are 
focusing on the right four percent, doing your best to handle 
the ones that are the most dangerous, I want to turn to 
something that you said in response to Chairman Carter's 
question on levels one and two, dealing with individuals who 
are convicted of a State criminal offense, they are here in the 
country illegally, and they serve their sentence.
    How many, if you could, again, just ballpark--and we will 
submit these for the record, as well, so you can give us a more 
precise number--I understood you to say that essentially those 
who are in level one or two category, what happens to those? I 
thought I understood you to say that levels one--these are 
jurisdictions honoring ICE detainers. In those jurisdictions 
which honor ICE detainers--that are not honoring ICE detainers, 
excuse me, what happens to those level one or two, how many are 
there and what happens to them?
    Mr. Homan. I don't have those numbers available. We just 
started tracking, electronically tracking that. What we do for 
those counties that don't honor detainers, for those 
jurisdictions, we still send a detainer. Once we realize they 
have an alien in custody that is removable that has been 
convicted of a crime, we will still send a detainer. They may 
not honor them, but we are going to continue sending detainers 
so we can track what they are responding to and what they are 
not responding to. Once they hit the streets--we find out they 
hit the streets because they did not honor the detainer, they 
released them without us there--I have to assign a fugitive 
operations team or a criminal alien program team to go look for 
them, which I testified earlier, presents an increase in 
officer safety threat----
    Mr. Culberson. Sure.
    Mr. Homan [continuing]. Because once they leave the 
facility, I am looking for them on the streets.
    Mr. Culberson. Yeah, for all of us as the public.
    And you said, I think it was 22 jurisdictions, 
approximately?
    Mr. Homan. Last count I believe it was 22 jurisdictions. We 
are actually tracking that. We can get back to you with what we 
know. Some jurisdictions don't honor detainers at all, others 
limit what they do honor.
    Mr. Culberson. But in those jurisdictions that don't honor 
them, levels one and two are just essentially walking?
    Mr. Homan. They are walking until we go out and look for 
them and try to find them.
    Mr. Culberson. And, of course, that is what the Secure 
Communities initiative was designed to stop because it is a 
real concern to all of us that these are folks who have 
committed a violent crime of some sort or another. They have 
obviously been deemed by the State, and a judge like Judge 
Carter and a jury, dangerous enough to lock them up and they 
are just gone.
    What, in your opinion, sir, do we need to do to help you in 
that effort?
    Mr. Homan. Secure Communities was a great tool because it 
gives us a virtual presence in over 4,000 jails where I don't 
have the resources to have people there. But I can tell you in 
more and more counties that choose to not honor our detainers 
takes that efficiency away from us, takes that leverage away 
from us.
    I would like to see our detainers honored, of course. I 
mean if we have technology, we have a virtual presence, we can 
identify who these people are, I would much rather my law 
enforcement officers arrest these people in a safe setting than 
be out in the streets looking for them, especially for the ones 
that have a significant public safety threat conviction.
    Mr. Culberson. Thank you, sir.
    Mr. Chairman.
    Mr. Carter. Mr. Cuellar.
    Mr. Cuellar. Thank you, Mr. Chairman.
    One statement and two questions: The first statement is I 
would ask you all to ask at this last omnibus bill that we 
passed, appropriation bill. There is a provision that we added 
that says that every agency now for the first time, as they 
make their budget requests, the funding request to Congress, in 
consultation with the GAO, that they have to tie in for the 
first time the request to the performance measures, so that way 
we know that if we give you one dollar, that we are getting a 
bang for that one dollar that we give you.
    I saw your performance measures, the ones that you have up 
there in performance.gov--it is part of the overall Homeland--
and some of them are good, but some of them need to be worked 
out, because, as you know, we should look at what is your 
mission? What are your goals and objectives? And what are the 
measures that we should look at to see if we are measuring 
results?
    So I would ask you all to go back and anytime you want to 
send anybody, we will send out with you.
    Mr. Ragsdale. Sure, sir.
    And we--the Department gets to submit the second 
quadrennial Homeland Security review, we have done quite a bit 
of work, particularly in HSI, to redo our performance measures 
more on outcomes, and as well with ERO, focusing on sort of not 
just the process and measures of process, but actual outcomes.
    Mr. Cuellar. You are the first one to set that and I 
appreciate that because we ought to be measuring outcomes and 
not activity, but the results, so thank you for doing that.
    My first question is: How much money does ICE get for the 
ATD, the Alternative to Detention program, and have you used 
all of the money from this last appropriations?
    Mr. Ragsdale. It was approximately--so I don't have to 
guess----
    Mr. Cuellar. Because I think you all are asking for an 
additional $2.6 million.
    Mr. Ragsdale. It was $94 million. I think the increase for 
2015 is a little over $2 million.
    Mr. Cuellar. Okay. Have you all used all of it?
    Mr. Ragsdale. It ebbs and flows, just like our detention 
spending. You know, one of the things that we are doing in the 
Alternative to Detention program----
    Mr. Cuellar. But how can it be ebb and flow if you can't 
detain--I think you said you need probably a hundred thousand 
beds--we are at 34--so there is a big difference between that. 
I mean you can use the monitors and a whole bunch of people 
with that up and down.
    Mr. Ragsdale. Sir, the important thing to note in there is 
until we can make--in other words, an immigration judge makes a 
decision--in other words, once a person is in removal 
proceedings, ICE cannot make a decision to remove them, right; 
we have to wait for the judge. So if someone gets a court 
hearing on one day and the date is far, far away, you know, 
even something as an Alternative to Detention that has a unit 
cost that is very long, if you keep them on that too long, it 
also sort of--well, should I say it doesn't help our execution. 
We are just sort of not using our resources efficiently.
    So what we try and do is as people go through that process, 
take them in and out of the ATD program depending on sort of a 
recalculation of flight risk. Someone may be more likely to 
appear when they get an interim decision, as opposed to a final 
decision. So Tom's folks, you know, take a look at that as the 
case is processed.
    Mr. Cuellar. I understand, and the detention beds that we 
have, we have to put the more that would cause more risk to the 
public, I understand that, but I would ask you to try to use 
the alternatives as much as possible.
    The third question is more of a curiosity. I support 
comprehensive immigration reform. I support the right to 
protest. I support all of those concepts and ideas, but I have 
curiosity--something happened last year in my district. You 
have folks who are here and they purposely--I don't think all 
of them were DREAMers--but purposely, they went across the 
river and by coincidence--and I said ``by coincidence'' because 
they told me it was by coincidence--they came in across--they 
went to the Laredo Bridge. Even one of them took a snapshot of 
Gene Garza, he used to be there, and they all claim credible 
fear, okay? It was a--and by the way, they were there with 
their attorneys and they were being led ironically by--the 
organizer was an Iranian under an asylum thing, I believe.
    They went from the bridge, the ones that were able to get 
out, they went straight to my congressional office to protest 
and they did a sit-in. I talked to them on a videoconference, 
and no matter what I said, they were there on a purpose. They 
were on a mission and they kept asking, are you going to arrest 
us? Arrest us. Arrest us. Arrest us. I, they wanted to be 
arrested on that.
    And I know that was a planned organization, a planned 
protest, but I just find it odd that somebody can purposely 
cross--cross the bridge; have attorneys waiting for them; claim 
the credible fear--some were sent up to El Paso, but the ones 
came straight to a congressional office to protest and disrupt. 
They were there for a couple of days and they went up to San 
Antonio and they barged in. They hide in bathrooms and they 
snuck in through security and they got into my office again.
    I just find it interesting that somebody who is not here 
with the riot board--and I support all of this, I understand 
what they were trying to do--but I just find it curious that 
they can go straight--claim credible fear--and end up in a 
congressional office and--I just--any thoughts on that? I guess 
it is more of a question--it is more of a thoughts. I just 
thought it was--and they did that to a republican member in 
Arizona--I am trying to remember who it was. And I am sure they 
are going to do more of it again. I know yesterday there were 
several of them in McCarthy's office who were different.
    You know, I am talking about crossing the bridge and all 
that, but any thoughts on that?
    Mr. Ragsdale. So, generally speaking, obviously someone who 
has no status in the United States is making an application for 
admission has no valid Visa, is not permitted to enter the 
United States, then CBP would detain that person. If they find 
a credible fear, that person is subject to management or 
detention until Citizenship and Immigration Services makes a 
decision.
    For the other gentleman you described, somebody who was 
already found to be an asylee, that person----
    Mr. Cuellar. No, I am talking about the ones that--the 
people from Mexico that claimed to be DREAMers that actually--
they went through the paperwork--one of them snapped a picture 
of them there getting with their attorneys and Gene Garza and 
they ended up in my office, not only in Laredo, but in San 
Antonio, and one of them is a Federal building; they were able 
to sneak in there.
    I just find it--and I support full immigration; I support 
DREAMers--but I just find it curious that how can somebody that 
does all that end up in a congressional office and disrupt and 
for two days they were, literally, disrupting.
    Mr. Ragsdale. Well, I don't know of the precise facts. I 
would agree, though, they shouldn't.
    Mr. Cuellar. Well, anyway, just a thought.
    Members, if you ever get one of those, call me up, I will 
tell you what to do. (Laughter)
    Mr. Carter. That is real--Mr. Cuellar, arrest them and put 
them in jail.
    Mr. Cuellar. Well, they--I won't say what they put on 
blogs-- but they are a very sophisticated group of folks, the 
organizers.
    Mr. Carter. They are also disrupting Federal offices and 
insubordination shouldn't be tolerated.
    Mr. Cuellar. And I am sorry, and I asked--and I support 
their right to protest, but I asked them, well, if they get 
arrested, will they be sent back? You know, it was a thought, 
but they said it was--it would not be considered. You all would 
not consider it a--such a violation that they would be sent 
off, they would just basically--in talking to some of your ICE 
folks that I talked to, they said that even if they got 
arrested--because they wanted to be arrested to do immediate 
publicity, but ICE told me, folks that I talked to, you know, 
even if we arrest them, nothing is going to happen to them. 
They will just stay here in the U.S.
    Mr. Ragsdale. There is challenge on that. It takes more 
people to make those decisions.
    Mr. Cuellar. I appreciate your thoughts.
    Mr. Carter. First off, a comment, Mr. Homan, a lot of these 
people who are not taking your detainers, they got jail 
problems and quite honestly, we don't reimburse them as 
adequately as we should from the federal level for the people 
that they all--on behalf of the Federal Government--and they 
get--having been there, they get upset about it. I don't think 
they dishonor your detainer for any purpose against you or 
agency.
    I understand the Visa Security Program is a valuable 
counterterrorism tool in ICE's frontline operations. Please 
describe, briefly, how the program operates; tell us how many 
countries the program operates in; what percentage of visas is 
ICE able to screen at this time; and how many visas have been 
refused because of the program to date.
    Mr. Edge. Well, currently, sir, there are 20 Visa Security 
Programs around the world and at each Visa Security Program 
that is set up, we have special agents who are actually 
assigned. They are working with their counterparts at the 
Department of State and conducting the interviews of those visa 
applicants. Once the applicants are interviewed, their 
applications and all the information that is inherent in the 
applications is vetted through the new IT solution called 
Patriot, and that resides here in the United States. The 
applications are fully vetted and a determination is made 
whether or not a visa should be granted to the applicant who is 
still in that foreign country. Currently, like I said, we have 
20 posts and we ideally, down the road, would like to expand 
the program and it is going pretty well.
    The IT solution has made it very, very efficient for us to 
get all this work done before anyone even boards a plane on 
their way to the United States.
    Mr. Carter. Any idea what the cost would be to expand the 
program to the areas where you think you need to expand it to?
    Mr. Edge. Well, based on our estimates--I will give you 
some exact numbers--we would hope to expand it to----currently 
we have 20 posts. We would like to expand it to at least a 
total of 56 and that number, if you'll excuse me----
    Mr. Ragsdale. Sir, at 1.3 per post.
    Mr. Edge [continuing]. 1.3 per post.
    And to open an additional 36 posts totaling 56 would be 
$72.2 million.
    Mr. Carter. And this whole concept is to stop the bad guys 
before they get here?
    Mr. Edge. That's correct, sir.
    Mr. Carter. Yeah, which makes a lot of sense.
    Mr. Edge. It is a valuable process, and again, the IT 
solution, Patriot, has made it even more efficient because 
people are denied visas before they even leave their country.
    Mr. Ragsdale. Sir, just one thing to note, that is a 
separate PPA, the Visa Security Program, but the automated 
solution that we are working with CBP and the National 
Targeting Center, as well as the Department of State, will 
allow that information to be pushed to all our attache posts. 
So there is obviously a blended set of an automated solution 
and personnel. Because of the interviews, I mean there is some 
work you can automate and there is some work that, obviously, 
has to be done by an agent in person.
    Mr. Carter. Yeah, but the information is shared across the 
board, so if they try to go from one door to the next----
    Mr. Ragsdale. We have a very useful solution; that's 
correct.
    Mr. Carter [continuing). You have a way to flag them. Very 
good.
    Mr. Price. Let me just follow up quickly on that. I'm not 
sure I understood your answer in terms of the current budget 
proposal. How far along toward your goal is that likely to get 
you? What would it take to get there and what is the time 
frame?
    Mr. Edge. Currently, we have 20 visa security posts and the 
current budget calls for the expansion of $37 million to expand 
Patriot to all 67 HSI posts.
    Mr. Price. All right. So that is in the 2015 budget 
submission, that the money sufficient to do that is part of 
your proposal?
    Mr. Edge. If I am not mistaken, yes, sir.
    Mr. Price. All right. And does that include the personnel.
    Mr. Ragsdale. No, that is just the automated solution.
    Mr. Edge. That is just the automated solution for Patriot.
    Mr. Price. Okay. Well, that does raise the question of 
whether this will be operative, even given the full funding.
    Mr. Edge. Excuse me, if we are going to be able to deploy 
it to the current posts that we have, we already have personnel 
there, so we would be able to allocate personnel to those 
posts.
    Mr. Price. But you would eventually need additional 
personnel to execute this?
    Mr. Edge. Well, if we are going to go to the posts where we 
already have special agents, we would have agents already at 
those posts, so it would be kind of collateral duty for them.
    Mr. Price. Uh-huh.
    Mr. Ragsdale. We have a high risk list, an inventory--I 
think it is 57 posts.
    Mr. Edge. Correct.
    Mr. Ragsdale. Of those 57 posts, we are not at all of them; 
we are at approximately 20. So if we had simply gone for the 
full, sort of, personnel lay down, that would obviously be a 
gap of 37 places. That would be the $1.3 million.
    What we have been able to automate is some of the back-end 
process. So when someone goes to a Department of State 
consulate officer, submits a non-immigrant visa application, 
that visa application is automatically vetted, you know, by a 
targeting solution. That information, under the current IT 
solution, will be at least shared to the 20 visa security 
posts, as well as the other posts that HSI is already at.
    Mr. Price. All right. That is getting clearer. I think I am 
going to ask you, though----
    Mr. Ragsdale. Certainly.
    Mr. Price [continuing]. To clarify for the record what you 
are saying here about the equipment, the personnel, the money 
that is in the budget proposal, and how far that would get you 
toward being fully deployed at the posts that you are talking 
about. If there is a shortfall, let us know what that is.
    Okay. Let me ask you about investigations. You, of course, 
do lots of investigations. As I said in my opening statement, 
this is very, very important work that is often 
underappreciated. You investigate across-the-border trafficking 
of weapons, illicit drugs, other contraband, money laundering, 
fraudulent trade practices, identity and benefit fraud, human 
trafficking, and child exploitation. But despite the importance 
of Homeland Security investigations, your budget doesn't 
necessarily reflect that, or it appears to me that it does not.
    The fiscal 2015 budget proposes a reduction of 336 on-board 
FTEs, compared to the current FTE level. Funding for domestic 
investigations will be cut by $27.7 million, and if you back 
out all the annual adjustments for things like pay inflation 
and rent, then it is really a cut of greater than that, 
something like $72 million from HSI activities or 4.3 percent 
off the fiscal 2014 appropriation. That $72 million, as it 
turns out, is precisely the amount of the increase Congress 
appropriated for HSI above the 2014 request to hire additional 
personnel to investigate things like money laundering and 
illegal firearms and drug trafficking and child exploitation.
    So that raises the obvious question, Mr. Edge or Mr. 
Ragsdale, am I correct in understanding that under the 2015 
request, having hired these additional HSI agents in the 
current year, we would really run the risk of turning right 
around and cutting all of those net personnel gains in the next 
Congress? If that is true or even approximately true, I wonder 
if you could comment on the impacts this would have on HSI 
investigations. I am asking about the impact of your budget 
submission on your investigation capacity and how much funding 
would be required in fiscal 2015 to annualize the costs for all 
the new hires planned for the current year.
    Mr. Edge. Well, we certainly would have our challenges in 
meeting the requirements of our investigative efforts and the 
budget certainly is less than our levels that we have enjoyed 
in the past few years, so we would have to make some 
adjustments. We would have to work smarter. We would have to 
assess and prioritize extensively to determine our 
capabilities.
    And we have worked, as you are well aware, we are a border 
security agency; we respond to the border. Drug smuggling is a 
significant priority for us and it is 25 percent of our 
workload. It is 24 hours a day, seven days a week. So we would 
certainly find ourselves with fewer FTE, stretching ourselves a 
little bit.
    Mr. Price. Yes, that is what I am assuming in asking the 
question, but after all, this is your budget. I mean you are 
proposing this and I would think would have a little more 
precise notion, at this point, of the consequences of the 
request, the likely impact of the request. I think we are going 
to need that.
    Mr. Ragsdale. So, we sure didn't get that to you. I would 
say--to use the sort of term as before--this is, I mean, making 
difficult choices. You know, what the budget allows us to do is 
preserve our most important resource, is our people. So we 
would hope to--you know, with this budget proposal--maintain a 
new class and hire some attrition.
    The struggle, of course, is, and I think what we see is, 
complex cases that take, you know, years to complete are 
expensive. That is certainly one of the challenges. As we also 
talked about, having the adequate support structure for agents. 
If you look at the cost of getting a special agent on board 
through an academy and equipped, they are more expensive than 
some of the other positions that we have talked about.
    So, you know, we certainly have those models that we talked 
in terms of having adequate support personnel, but we also 
recognize, that, you know, this is a challenge and we are 
trying to, I want to say harmonize, you know, automated 
solutions, our most important resource, our personnel, and then 
general expense funding that let's us run cases and that is 
sort of the balance that has been struck, which is not to say 
it is a difficult or an ideal one.
    Mr. Price. Well, I do think we are going to need more 
information. You clearly have, from our side, a good deal of 
support for these functions, for these investigations. That has 
been mirrored in plus ups we have done in past years in terms 
of personnel and we don't want to see that undone. But to 
evaluate this, we obviously need a more precise estimate of the 
impact on specific investigative areas, so we will expect that 
from you before we write our bill. Thank you.
    Thank you, Mr. Chairman.
    Mr. Culberson [presiding]. Thank you very much, Mr. Price.
    There are frequent stories of individuals who are not 
eligible to attain some legal status at the time of their 
arrest--at some point afterwards they either marry a U.S. 
citizen or healthcare issues, U.S. citizen children after, you 
know, years on the non-detained docket; thereby, they are 
basically exempt from being removed. How many people do you 
believe, how many cases are there like that out there that you 
are aware of this? How many cases, potentially, are there out 
there like that?
    Mr. Ragsdale. I don't think I fully understand the 
question.
    Mr. Culberson. Well, that you have got folks--for example, 
they are not eligible at the time they are arrested. They 
later, however, either get married or have children; you know, 
once a child is born in the United States, they are a citizen. 
Or there is some healthcare humanitarian issue involved, so 
they are no longer--they are essentially exempt from being 
removed.
    Have you ever encountered that? Are you familiar with folks 
that fall into that category and how many are we talked about?
    Mr.  Homan. I wouldn't say they are exempt from being 
removed. What I can say is the longer they are in the country, 
the more equities they are obviously----
    Mr. Culberson. On the non-detained docket.
    Mr. Homan. On the non-detained docket, I can say is over a 
million. You know, I don't know how many have built up 
equities, but I think it makes sense that the longer they are 
in the United States, the more equities they will have, whether 
it is USC children, homes, jobs----
    Mr. Culberson. Sure.
    Mr. Homan [continuing]. And so forth, but I don't have a 
number.
    Mr. Culberson. Yeah, we will submit it for the record so 
you can have your folks look at it. Let me also ask if you have 
a shortfall, for example, you know how the committee has 
estimated in order to fund the bed space that the law requires 
you to maintain of 34,000, we are calculating about $119 a day. 
If you run short of funds in order to detain the criminal 
aliens and other mandatory detainees, do you plan to submit a 
reprogramming request to the subcommittee if that is necessary?
    Mr. Ragsdale. Is this for fiscal year 2014?
    Mr. Culberson. Yes, sir.
    Mr. Ragsdale. Yeah, at this point, what we are looking at 
is some efficiencies to bring our execution in line with our 
funding. We hope to be able to end the year like we did last 
year at meeting that mandate.
    Mr. Culberson. So you are going to try to achieve the 
mandate simply through efficiencies? You would not ask the 
committee in 2014 for a reprogramming request?
    Mr. Ragsdale. Again, I am hopeful that we live within the 
means that you have already provided to us. You know, we are 
slightly over our target execution, but we will obviously--
there are a couple of efficiencies that we think we can find 
and we certainly don't want to sit here, given, you know, the 
dollar amount, and say we are operating perfectly.
    Mr. Culberson. Okay.
    Mr. Ragsdale. We are going to look at some lower-cost beds, 
some of our detainee-to-staff ratio in terms of contract 
guards, some of our transportation contracts. One of the big 
examples of having that five-year funding, recognizing as we go 
to contract partners who have to sort of rely on us year to 
year on contracts, opposed to who can contract for a longer 
period of time, to the extent that we lower their risks in 
terms of us doing business with them, we might see better 
pricing.
    Mr. Culberson. Sure.
    What about in 2015?
    Mr. Ragsdale. 2015?
    Mr. Culberson. In fiscal year 2015, would you anticipate 
submitting reprogramming requests to allow you to utilize more 
beds?
    Mr. Ragsdale. I guess I would be reluctant to speculate 
about what will happen that far ahead.
    Mr. Culberson. I understand. And as long as you are looking 
at efficiencies, you are going to have the president's request 
that he's given us for asking the Congress to allow you to 
reduce the number of beds to 30,359, which I don't think the 
committee is likely to do, but I am just interested because we 
would certainly be open to a reprogramming request.
    Mr. Homan. If I could add to what Mr. Ragsdale said about 
efficiencies, we have already done a lot of work in 
efficiencies such as the Rio Grande Valley. The apprehension 
rate has not dropped, but we are down to like 31,000 in the 
tents right now because the efficiencies we have identified in 
the Rio Grande Valley.
    We are working with the Governments of Guatemala and 
Honduras to get travel documents within ten days, so the ALOS, 
the average length of stay, we dropped from like 30 days down 
to like ten, so we are moving the beds over faster. When we are 
talking about efficiencies is doing more work like that to move 
the beds quicker and to get people removed quicker. As I said 
earlier, we got away from the air flights, ATEP program, to add 
more flights for those Central American countries that we got 
travel documents for quicker. So we turn those beds over 
quicker.
    So that is the efficiencies Mr. Ragsdale is talking about, 
is to continue to look at ways as to the taxpayers' money that 
we can identify the efficiencies.
    Mr. Culberson. In the Rio Grande Valley sector, though, I 
see from looking at the number of folks that are prosecuted by 
sector, you have only got--the most recent numbers I have seen 
is there is only an 8.2 percent prosecution rate in the Rio 
Grande Valley. So I would want to visit more with you about 
that because I don't think you are seeing an accurate, complete 
picture of how many people are actually potential customers for 
you there. Because you have got 91.8 percent of the folks that 
are actually apprehended suffer for consequence at all. Let me 
ask, if you could, specifically-- and, Mr. Price, if you got 
any follow-up, we are delighted to do it. David Price is a 
dear, good friend and someone I admire immensely. I do want to 
ask about Title 8, Section 1227 that talks about deportable 
aliens and your obligation, the obligation of the Agency to 
deport and to remove individuals who fall within these 
categories.
    For those jurisdictions in the country that do honor your 
detainers, these folks that fall within Title 8, Section 1227, 
you know, the criminal violations, aggravated felony, failure 
to register as a sex offender--I mean you have got some really 
dangerous, bad characters in here that you know that you all 
are concerned about as law enforcement officers. In those 
jurisdictions that do honor the detainers, what percentage of 
the individuals that fall within this category in 1227, what 
percentage of those individuals in those jurisdictions that do 
honor the detainers are actually removed and deported in 
compliance with the law?
    Mr. Ragsdale. So 1227 is the entire universe of the class 
of deportable aliens and those are aliens who were admitted 
into the United States and have become deportable thereafter.
    Mr. Culberson. Right. Right.
    Mr. Ragsdale. So it, obviously, is going to be sort of a--
what I will say is a difficult number to calculate because you 
could actually fall into several of those classes and not 
necessarily be charged with every one of them.
    Mr. Culberson. Oh, I understand and there are waivers and 
humanitarian cases and public interest and whatnot, but that is 
the Attorney General who does that.
    Mr. Ragsdale. That's right.
    Mr. Culberson. But the law, from your perspective, as 
officers sworn to uphold the law, is nondiscretionary. The law 
is mandatory from your perspective. On your part the law is 
mandatory.
    Mr. Ragsdale. I think that is where you end up seeing the 
image where you described before of having some one point some 
odd million folks in the non-detained docket.
    From the DHS enforcement perspective, we are putting many, 
many more people into proceedings than what you heard the 
Department of Justice is able to prosecute--excuse me, 
adjudicate quickly. So what we are trying to do is balance the 
class of deportable aliens you see in that Chapter 1227 with 
resources. Because in our appropriations line, which I think 
was in there last year and it is again in the 2014 bill, that 
as we execute our enforce removal mission, we are to prioritize 
based on, essentially, level of criminality. So that is why, 
even though every class in that book is sort of amenable to 
removal, we are trying to prioritize in a way that not only 
your committee has told us, but in a way that makes sense of 
public safety.
    Mr. Culberson. Well, of those, for example, that are 
convicted of an aggravated felony----
    Mr. Ragsdale. They would be level ones; they are our top 
priority.
    Mr. Culberson. Of those that are in these categories, the 
particularly dangerous ones, in those jurisdictions that do 
honor detainers, what percentage of those individuals that meet 
these criteria are actually picked up, removed and deported?
    Mr. Ragsdale. Sir, I think I will have to sort of give you 
a little time to submit that to the record. In other words, 
that is a massive number----
    Mr. Culberson. Sure. I understand.
    Mr. Ragsdale [continuing]. because it includes close to 
4,000 jails, so I wouldn't want to sort of haphazardly----
    Mr. Culberson. Yes, of course. I understand. That is why I 
just want to put it in your mind. So we will submit it in 
writing.
    Mr. Homan. I can tell you, as Mr. Ragsdale said, that is 
our top priority. So we would most certainly put them in 
proceedings, and again, from then it is an immigration court 
proceeding, but we will try to come up with that data for you.
    Mr. Culberson. But based on what you have seen and heard, 
is it 100 percent?
    Mr. Ragsdale. There are certainly in some places. I mean we 
have great coverage in the Bureau of Prisons systems. You know, 
again, places that share with us. Certainly, the State of Texas 
is another great partner.
    So it sort of varies, and I think that most folks in the 
law enforcement business would say, you know, anybody that 
falls into the category you have identified there as an alien 
felon is reasonable to be seen as a top priority.
    Mr. Culberson. Accurate to say, though, that in these 
categories of aggravated felons, you are not achieving 100 
percent?
    Mr. Ragsdale. I can't really speculate. One hundred percent 
is a lofty goal, but, certainly, we want to do the best we can.
    Mr. Homan. The majority of those people that come in our 
custody, though, if they are a serious criminal to public 
safety, that would be--especially the aggravated felons--would 
be--most of them would remain in detention until--you know, we 
would be detaining those people.
    Mr. Culberson. Sure.
    Mr. Homan. We would have to wait until the DOJ, you know, 
EOIR to give us a removal order. But they certainly are our 
priorities, certainly the first thing we look at, certainly we 
are concentrating most of our resources on those that are a 
public safety threat.
    Mr. Culberson. But you rely on the Department of Justice to 
actually----
    Mr. Homan. In many circumstances, we have to have a removal 
order from----
    Mr. Culberson. Okay.
    One other thing, very quickly, are you utilizing the 
language, the authority the committee has encouraged you to use 
in committee report to use private detention beds to contract 
out to find the least expensive alternative? I know in the 
state of Texas, for example, private beds typically cost about 
half of what you are--you know, this $119--I know, for example, 
that you can contract beds for about $63 a day in the state of 
Texas.
    Mr. Ragsdale. That is exactly right.
    The thing is what you are seeing in that $119 number is a 
fully loaded number. It includes medical care, food service, 
transportation; it is a whole range of value in that $119 
number. We certainly can go into the marketplace and buy beds 
for less than that, but then there is a question of whether we 
provide medical care, whether we contract for medical care.
    Mr. Culberson. Sure.
    Mr. Ragsdale. So we just need to make sure that we are 
comparing apples to apples.
    Mr. Culberson. Thank you very much. I genuinely appreciate 
it.
    These questions will be submitted into the record so you 
can have an opportunity to answer them more precisely. But 
above all, we want to thank you for your service to the country 
and defending us and enforcing the laws of the United States. 
We will do our part to make sure you have the resources you 
need to do your job in a way that you know that you all want to 
do.
    Thank you very much, and the committee is adjourned. Thank 
you.

[GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]


                               I N D E X

                              ----------                              
                                                                   Page
DEPARTMENT OF HOMELAND SECURITY (DHS)............................     1
    Air Cargo Advanced Screening Program.........................    41
    Airport Wait Times, Decreasing...............................    40
    Aviation Fees................................................    44
    Biggert-Waters...............................................    55
    Border Security..............................................    50
    Budget Process Reform........................................    45
    Checkpoint Security, Improving...............................    32
    Coast Guard Budget Cuts' Effect on Drug Interdiction.........    28
    Counterterrorism: Performance Measures.......................    38
    Customs and Border Protection (CBP) Officers.................    43
    CBP Officers, Public-Private Partnerships....................    53
    Cybersecurity................................................    41
    Detention Beds...............................................    33
    Detention Beds, Removals.....................................    48
    Disaster Relief Fund.........................................    51
    Domestic Nuclear Detection Office's Securing the Cities 
      Program....................................................    31
    Federal Air Marshals Program.................................    30
    Immigration:
        Catch-and-Release Policy.................................    24
        Reform...................................................    46
    Late Reports.................................................    45
    Morale, Filling Vacancies....................................    55
    National Preparedness Grant Program..........................    26
    Opening Statement: Secretary Johnson.........................    17
    Personnel Screening Programs.................................    38
    Preclearance Offices.........................................    43
    Screening Partnership Program................................    37
    State Department Diplomatic Security Training................    54
    Transportation Security Officers, Female.....................    31
    Urban Areas Security Initiative..............................    30

                                  [all]

</pre></body></html>
